<html>
<title> - HEARING TO REVIEW FEDERAL NUTRITION PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
              HEARING TO REVIEW FEDERAL NUTRITION PROGRAMS 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON DEPARTMENT OPERATIONS,
                   OVERSIGHT, NUTRITION, AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                      JANUARY 25, 2010, COLTON, CA

                               __________

                           Serial No. 111-41


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-427 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           ROBERT E. LATTA, Ohio
STEVE KAGEN, Wisconsin               DAVID P. ROE, Tennessee
KURT SCHRADER, Oregon                BLAINE LUETKEMEYER, Missouri
DEBORAH L. HALVORSON, Illinois       GLENN THOMPSON, Pennsylvania
KATHLEEN A. DAHLKEMPER,              BILL CASSIDY, Louisiana
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
SCOTT MURPHY, New York
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

                 Nicole Scott, Minority Staff Director

                                 ______

   Subcommittee on Department Operations, Oversight, Nutrition, and 
                                Forestry

                     JOE BACA, California, Chairman

HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska, 
STEVE KAGEN, Wisconsin               Ranking Minority Member
KURT SCHRADER, Oregon                STEVE KING, Iowa
KATHLEEN A. DAHLKEMPER,              JEAN SCHMIDT, Ohio
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
TRAVIS W. CHILDERS, Mississippi

               Lisa Shelton, Subcommittee Staff Director













                             C O N T E N T S

                              ----------                              
                                                                   Page
Baca, Hon. Joe, a Representative in Congress from California, 
  opening statement..............................................     1
    Prepared statement...........................................     4
Costa, Hon. Jim, a Representative in Congress from California, 
  opening statement..............................................     7
Fortenberry, Hon. Jeff, a Representative in Congress from 
  Nebraska, opening statement....................................     5

                               Witnesses

Pino, Lisa J., Deputy Administrator, Supplemental Nutrition 
  Assistance Program, Food and Nutrition Service, U.S. Department 
  of Agriculture, Washington, D.C................................     9
    Prepared statement...........................................    11
Webb-Curtis, Christine, Chief, Food Stamp Branch, California 
  Department of Social Services, Sacramento, CA..................    15
    Prepared statement...........................................    17
Swanson, Nancy, Director, Department of Transitional Assistance, 
  San Bernardino County Human Services System, San Bernardino, CA    20
    Prepared statement...........................................    22
Valenzuela, M.D., M.B.A., Guillermo J., Associate Medical 
  Director and Chairman, Department of Women's Health, Arrowhead 
  Regional Medical Center, Colton, CA............................    33
    Prepared statement...........................................    35
Wong, M.D., M.B.A., Webster A., Chief of Pediatrics, Arrowhead 
  Regional Medical Center, Colton, CA............................    36
    Prepared statement...........................................    37
Sharp, Matthew, Senior Advocate, California Food Policy 
  Advocates, Los Angeles, CA.....................................    38
    Prepared statement...........................................    40
Jessup, Edith C. ``Edie'', Program Development Specialist, 
  Central California Regional Obesity Prevention Program, 
  California State University Fresno Department of Health and 
  Human Services, Central California Center for Health and Human 
  Services, Fresno, CA...........................................    43
    Prepared statement...........................................    44
Marsom, Matthew, Director of Public Health Policy and Advocacy, 
  Public Health Institute, Oakland, CA...........................    48
    Prepared statement...........................................    50
Page, Claudia, Co-Director, The Center to Promote HealthCare 
  Access, Oakland, CA............................................    53
    Prepared statement...........................................    54

                           Submitted Material

Donatone, Lorna, Chief Operating Officer and Education Market 
  President, Sodexo, Inc., submitted statement...................    71
Submitted questions..............................................    74


              HEARING TO REVIEW FEDERAL NUTRITION PROGRAMS

                              ----------                              


                        MONDAY, JANUARY 25, 2010

                  House of Representatives,
 Subcommittee on Department Operations, Oversight, 
                            Nutrition, and Forestry
                                  Committee on Agriculture,
                                                        Colton, CA.
    The Subcommittee met, pursuant to call, at 10:00 a.m., at 
Arrowhead Regional Medical Center, Colton, California, Hon. Joe 
Baca [Chairman of the Subcommittee] presiding.
    Members present: Representatives Baca, Costa, and 
Fortenberry.
    Staff present: Lisa Shelton, Debbie Smith, Pam Miller, and 
Sangina Wright.

    OPENING STATEMENT OF HON. JOE BACA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    The Chairman. The hearing in the Subcommittee on Department 
Operations, Oversight, Nutrition, and Forestry to review the 
effectiveness of implementing Federal nutrition programs will 
come to order. That sounds great, especially here in the Inland 
Empire. We are making history by having a hearing in the Inland 
Empire. To my knowledge, the Agriculture Committee has never 
had any kind of a hearing here. All of you that are here are 
witnessing history.
    I really want to thank two of my colleagues that are here. 
First of all, without any objections the gentleman from 
California, Mr. Costa, who is not a Member of the Subcommittee 
has joined us here today. I have consulted with the Ranking 
Member and we are pleased to welcome him to join the 
questioning of the witnesses. I would like to say welcome to 
Congressman Jim Costa from the Central Valley area.
    Then to my left is Congressman Jeff Fortenberry who is the 
Ranking Subcommittee chair. Welcome each and every one of you. 
We will officially begin the hearing by welcoming all of you to 
the 43rd Congressional District. I want to give special thanks 
to Arrowhead Regional Medical Center for their wonderful 
hospitality including an opportunity for many of the 
individuals to give additional input earlier this morning at 
the reception.
    I would like to personally thank some of these individuals 
for their invaluable help in coordinating and making sure that 
we had this hearing. I would like to start by thanking Gary 
Obit, Chairman of the Board of ARMC; Josie Gonzalez who is the 
Vice Chair of the Board of Supervisors; Dr. Dev, Medical 
Director; Patrick Petree, CEO; George Valencia, Director of 
Business Development and Marketing; Susan Maruna who is the 
Administrative Assistant. Finally, my good friend Frank Reyes 
whom I have known for a long time and who is a resident of the 
Inland Empire and quite active. I want to thank all of them for 
being here.
    By the way, there is no applause in a Congressional 
hearing, so please hold your applause. We do not want to show 
favoritism towards one individual or the other, we are just 
addressing the issues. I want to set the rules. If anybody ends 
up speaking out of turn or are disruptive, you will be escorted 
out of the hearing just as we would do in Washington, D.C.
    With that, I want to thank all of you and I appreciate your 
patience. I appreciate all of you coming together for the 
historic hearing that we are having this morning. I say 
historic because, as I stated before, the House Agriculture 
Committee has never held a hearing in the 43rd Congressional 
District in San Bernardino County.
    As we get started I want to thank the leadership for all of 
their help. I especially want to thank the individuals that are 
here. I want to thank my two colleagues that are here, 
Congressman Jim Costa. I saved the Ranking Member from 
Nebraska, Jeff Fortenberry, for last, to thank him especially 
because it is coincidental, as you heard me say this morning, 
is that I happened to watch a movie yesterday, Extraordinary 
Measures.
    I do not know if any of you have seen the movie, but it is 
about a Dr. Stonehill who was from University of Nebraska. I 
was in Nebraska at a hearing and Congressman Fortenberry 
happened to take me to the university. As you drove up it says, 
``University of Nebraska.''
    There I met my good friend Tom Osborne whom I worked with 
in the past, an excellent football coach and now the Athletic 
Director for Nebraska.
    Congressman Fortenberry set a high bar for us to follow 
with his hearing in Lincoln, Nebraska because we actually held 
the hearing in a health facility.
    I figured, ``Well, Jeff, you really had it at a nice health 
facility.'' Then I said, ``We have to have it at a hospital 
because if you have physical activities you have to tie in 
hospitals that provide assistance to a lot of our patients.'' I 
want to thank Congressman Jeff Fortenberry, for his hospitality 
in Lincoln, Nebraska and having the hearing there.
    I look forward to working with him, not only now, but on a 
bipartisan basis along with my colleague Jim Costa in trying to 
make sure that we have related hearings. We not only want to 
have them in Washington, D.C. but throughout the United States.
    I would just like to say that some may have difficulty in 
seeing the connection between the Federal nutrition program and 
hospital settings. In fact, there is a very close and important 
connection. Over the past 4 years the Subcommittee, and the 
House Agriculture Committee as a whole, has built a record that 
links the importance of nutrition and health. They go hand in 
hand.
    In 2007, we held a hearing that demonstrated the importance 
of the food stamp program, called SNAP. We have to get used to 
the new name of the food stamp program called SNAP. There is 
the connotation that people do not want to be identified with 
food stamps, but would rather be identified with SNAP.
    We have a long ways to go to educate our communities about 
the change. By the way, I was the one that came up with the 
slogan SNAP to take the stigma away from the name ``food 
stamp.'' One of the reasons I did that in the farm bill is 
because I was actually on food stamps. I received food stamps 
when I was young. It was at a time my wife and I had a child 
and it was very difficult.
    During that period of time I did receive assistance and got 
food stamps. You know how embarrassing it is for those of us 
who have received food stamps? It is something you do not want 
to be dependent upon, but it was something that I needed during 
that period of time.
    I remember going to the grocery stores and people were 
looking at you as you are counting your food stamps and 
everybody says, ``Well, look at this guy and his wife. They are 
out here.'' But I did not look at it from that point of view.
    I looked at it as the inability to feed my family, at that 
time I was a college student who could not afford it and did 
not have a good job, so I needed assistance. I know what it is 
like in terms of the stigma and being in line and being there. 
Now we have the debit card which looks like an American Express 
card or a Visa, which is nice that we have gotten away from 
coupons. That is why it is important that we have these kinds 
of hearings and look at what needs to be done.
    In 2008, the farm bill provided a record level of funding 
for nutrition and safety net programs like SNAP and food banks. 
We made important changes to promote healthy eating by funding 
vital programs that encourage consumption of more fruits and 
vegetables. We expanded the Fresh Fruits and Vegetables Snack 
Program to the entire nation providing children with access to 
education about healthy and fresh produce.
    In July of 2008, the Subcommittee heard testimony on the 
economic cost of hunger and nutrition in the United States, and 
that is one of the areas that we really want to address as we 
look at the actual cost of nutrition. I do appreciate today's 
Sun Telegram's story. ``Many ignore food stamps or SNAP.'' But, 
it is more than just this. I think California has got to look 
at it from the point of economics.
    There is $7 billion in revenue that could come back to this 
state. I think the paper missed one concept. It is good that we 
look at half of the people in the United States, or in 
California, that are not utilizing the SNAP Program. Yet, that 
means in revenue that would come back to the State of 
California it is approximately $7 billion, and we are at a $20 
billion deficit in the State of California.
    We just met with the Governor last week and Jim and I were 
there from the California Delegation in a bipartisan meeting, 
and he indicated that he needs $6 billion. Well, if we can get 
the $7 billion by making sure that we educate individuals about 
SNAP, it is not only about feeding them but it is also about 
the revenue that would come back to the State of California.
    Also at a Subcommittee hearing the testimony from 
California advocates demonstrated how the lack of participation 
in Federal nutrition programs means loss of revenue to 
California, as I stated before. In 2009 California's poor 
participation in the SNAP Program lost $7 billion for the 
state.
    In March the Subcommittee took up the topic of obesity in 
the U.S.
    Experts from the Centers for Disease Control and Prevention 
testified that both nutrition education, and lack of access to 
healthy food contributes to obesity costing our nation between 
$80 to $120 billion.
    We have established clear evidence of the link many tie 
between nutrition and health. Today we will take that 
conversation one step further. For some years I have wanted to 
hold a hearing in San Bernardino County and I am glad that we 
are able to do that now. I appreciate the bipartisan support 
that we received.
    [The prepared statement of Mr. Baca follows:]

Prepared Statement of Hon. Joe Baca, a Representative in Congress from 
                               California
    Good morning and thank you all for being here today in my favorite 
place, California's 43rd Congressional District.
    Special thanks to our hosts today, Arrowhead Regional Medical 
Center, for their wonderful hospitality. I want to read the names of 
some of those who have been invaluable:

  <bullet> Gary Obitt, Chairman of the Board of ARMC;

  <bullet> Josie Gonzales, Vice Chair of the Board;

  <bullet> Dr. Dev Gnanadeb, Medical Director;

  <bullet> Patrick Petree, CEO;

  <bullet> George Valencia, Director of Business Development and 
        Marketing;

  <bullet> Susan Maruna, Administrative Assistant;

  <bullet> And finally, Frank Reyes, who is a long time friend and 
        resident of this area.

    I appreciate the effort and patience they have shown in working 
with the Committee to organize this historic hearing.
    I say historic hearing because as far as I know--this is the first 
House Committee hearing ever to be held here in the 43rd Congressional 
District and in San Bernardino County.
    Before we get started, I want to thank all the great leadership we 
have here at the local level.
    I especially want to recognize the work of the Rialto City Council, 
Mayor Grace Vargas, and Mayor Pro-Tem Joe Baca, Jr.
    I also want to say a special thank you to Congressmen Jeff 
Fortenberry of Nebraska; and Jim Costa from the Central Valley of 
California--for their willingness to be here.
    Jeff, Jim, and I share a strong interest in the connection between 
nutrition and health.
    In fact, it was my pleasure to chair a subcommittee hearing in 
Jeff's hometown of Lincoln, Nebraska this past August.
    That hearing examined the innovative ways and economic benefits to 
communities and businesses in promoting healthful lifestyles.
    Congressman, I appreciate your continued interest in this important 
topic, and thank you again for your tremendous hospitality in Lincoln.
    I hope you enjoy your visit to California's 43rd District as much 
as I enjoyed being in Nebraska's First District.
    Mr. Fortenberry set the bar high for his hearing by holding it in 
the gymnasium of a beautiful health facility.
    So, we have followed his lead by holding this hearing in a health 
related location.
    Some may have difficulty seeing the connection between Federal 
nutrition programs and a hospital setting.
    But in fact, there is a very close and important connection.
    Over the past 4 years, this Subcommittee, and the House Agriculture 
Committee as a whole, has built a record that links the importance of 
nutrition and health.
    In 2007, we held a hearing that demonstrated the importance of the 
food stamp program (now called SNAP) to the overall health and long 
term success of children.
    Then, in the 2008 Farm Bill, we provided record levels of funding 
for nutrition for safety net programs like SNAP and food banks.
    We also made important changes that promote healthy eating, by 
funding pilot programs that encourage the consumption of more fruits 
and vegetables.
    And, we expanded the Fresh Fruit and Vegetable Snack program to the 
entire nation, providing children access to and education about healthy 
and fresh produce.
    In July of 2008, this Subcommittee heard testimony on the economic 
costs of poor nutrition in the United States.
    Researchers detailed that hunger costs our country $90 billion per 
year in lost work productivity, the need for special education, and 
other factors.
    Also, at that hearing, testimony from California advocates 
demonstrated how a lack of participation in Federal nutrition programs 
means lost revenues to California counties, compounding the costs of 
hunger and poor nutrition to communities.
    In 2009--California's poor participation in the SNAP program was 
estimated to cost our state $3.7 billion in additional Federal funding.
    These funds would have led to an additional $6.9 billion in 
statewide economic activity.
    In March of 2009, the Subcommittee took on the topic of obesity in 
the U.S.
    Experts from the Centers for Disease Control and Prevention 
testified that both nutrition education and a lack of access to healthy 
foods contribute to the obesity epidemic--which costs our nation 
anywhere from $80 to $120 billion ever year.
    So, we have established a clear body of evidence linking the many 
ties between nutrition and health.
    Today, we take that conversation one step further.
    For some years, I have wanted to hold a hearing in San Bernardino 
County to point out the unique problems of our state's cultural and 
economic diversity in improving health and nutrition.
    Sadly, the recession has only emphasized the problems that we have 
faced for many years.
    So we hold this hearing at one of the most critical times for 
California and its people.
    Why does California struggle with low participation rates in 
Federal nutrition programs?
    What does this mean for the physical and economic health of our 
communities--especially as it pertains to the obesity epidemic?
    We will be looking for the answers to these and other questions 
from our outstanding witnesses today.
    This is a topic of great interest to me as a legislator, of 
course--but also as a husband, father, grandfather, and community 
member.
    Again--I want to thank everyone at Arrowhead Regional; and thank 
our witnesses for taking time from their busy schedules to be with us 
today.
    I now yield to our Subcommittee's Ranking Member--my friend, Rep. 
Fortenberry.

    The Chairman. With that, I would like to welcome and ask 
the Ranking Member Jeff Fortenberry for his opening statement, 
then I will call on Congressman Jim Costa for his opening 
statement.
    Congressman Fortenberry.

OPENING STATEMENT OF HON. JEFF FORTENBERRY, A REPRESENTATIVE IN 
                     CONGRESS FROM NEBRASKA

    Mr. Fortenberry. Thank you, Mr. Chairman, for holding this 
hearing today and for honoring me with the invitation to 
attend, in your home State of California. Welcome to you all. I 
must say, coming from Nebraska, I am absolutely fascinated by 
the fact of seeing palm trees nestled against the backdrop of 
snow-covered mountains. That is very unique for me. I have, of 
course, been in California but not in this particular area.
    You have a lovely home here and I congratulate all of you 
for your attentiveness to community life here. It is very clear 
from our earlier meeting the level of commitment to public 
service and community input from a variety of areas, not only 
from the medical community but other leaders out there who are 
very interested in these questions: how nutrition relates to 
families, how nutrition relates to healthcare outcome, so thank 
you very much.
    I would like to let you all know it is a pleasure and an 
honor to serve alongside with Congressman Baca in the halls of 
Congress. As I mentioned earlier there can be quite a bit of 
rancor and divisiveness. There are strong philosophical divides 
in Washington, but the Agriculture Committee tends to pride 
itself on attempting to transcend those differences in creating 
a safe affordable food supply that helps feed this nation and 
the world.
    As you all know, Chairman Baca has served you in Congress 
since 1999. He is, of course, Chairman of this Committee. I am 
what is called the Ranking Member. I have admired Chairman 
Baca, as well, for his service in the U.S. Army, many of you 
may not know that, as a paratrooper from 1966 to 1968. 
Following his military service he came back to California and 
earned a degree in sociology. I understand you served both in 
the State Assembly as well as the State Senate so, again, thank 
you for hosting, Mr. Chairman.
    As you all are very much aware, we have been engaged in 
this very important debate about the future of our healthcare 
system in this country. The debate has been critical to the 
well being of families and small businesses and all of us 
throughout our great nation. My priority has been to focus on 
two essential questions. How do we actually improve healthcare 
outcomes and reduce cost while protecting vulnerable persons.
    I believe one important piece of this solution has been to 
understand the integral role that nutrition plays in the well 
being of our children and families. This is because a major 
driver of our ever-increasing healthcare cost has been the rise 
of chronic diseases. Many of you are very aware of this and 
many of which are nutrition related.
    For instance, the average American is 23lb overweight. 
Obesity among young people has tripled since 1980. Obesity is a 
major factor that leads to the onset of chronic diseases like 
diabetes, heart disease, some cancers and even strokes. Chronic 
diseases are driving 75 percent of every healthcare dollar 
according to some studies.
    Consequently it is imperative to me that our healthcare 
system promote and incentivize healthy nutrition practices and 
wellness. We must all foster a culture of wellness and reward 
behaviors that reduce the onset of these diseases. I believe we 
could potentially save hundreds of billions of dollars if we 
could delay or reduce the onset of these chronic diseases. As 
responsible individuals and citizens I hope that we will 
personally implement wellness and preventative measures so that 
we all can thereby reduce our risk factors for these 
conditions.
    The food that individuals have access to and select often 
determines the quality of their overall health. The SNAP 
Program, the topic of our hearing today, enables persons in 
vulnerable circumstances to have access to a wide variety of 
nutrition selections. As we carefully allocate these resources 
an important topic of consideration should be the quality and 
health-promoting choices at the dinner table for families.
    This principle of healthy food combined with wide 
stewardship and personal responsibility should guide the goals 
of this program. I look forward to learning how these 
principles are currently being implemented and what 
recommendations our experts may propose to further this agenda.
    Again, Mr. Chairman, it is a great privilege to be here 
with you in the great State of California. Thank you.
    The Chairman. Welcome to the 43rd Congressional District. I 
would like to call Congressman Jim Costa.

   OPENING STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. Costa. Thank you very much, Chairman Baca, and all of 
those who are here this morning, the witnesses on the first 
panel and the second panel. We applaud and commend your hard 
work and efforts and we look forward to hearing your testimony.
    Chairman Baca, I want to thank you for allowing me to be 
part of the Subcommittee hearing this morning, but I also want 
to convey to the constituents of the Inland Empire the 
tremendous work you do on their behalf in Washington. I know 
this to be a fact. I have had the honor and privilege to serve 
with Congressman Baca both in the State Legislature before I 
had this arctic blond and now in Congress.
    I want you to know he is a tenacious advocate on behalf of 
the people, not only in his Congressional district, but the 
people of California. He is always passionate and his tireless 
energy are hallmarks of his leadership. In the 2008 Farm Bill 
he truly wanted to ensure that the nutrition program was 
improved. As a result of his hard work and others in the 
Subcommittee, Congressman Fortenberry and others, I think we 
made progress in the food stamp program that Joe spoke of.
    It is important to note, as Congressman Fortenberry 
indicated, that the House Agriculture Committee is truly one of 
the more bipartisan committees that we have in Congress. I 
wished it were not the exception but the rule.
    The 2008 Farm Bill was, I believe, the only major piece of 
legislation that went through the entire hearing process. It 
had regular order. Went through the House and the Senate. Went 
to the Conference Committee. Had bipartisan support in both 
Houses. Actually was vetoed by the President and we overrode 
the veto, which really reflects the effort and the way all of 
you believe that we as your representatives ought to be acting 
to solve problems in this country.
    I think the 2008 Farm Bill, under the leadership of the 
Members of the Committee, both of them here--of course, I am on 
the Committee as well. Congressman Fortenberry and I are on the 
class of 2004. He does a great job on behalf of his 
constituencies throughout Nebraska. We are pleased that you 
have come all the way out here, Jeff, to participate in this 
hearing.
    Mr. Chairman, let me give a brief statement about what we 
are dealing with here because your review of the Federal 
nutrition programs is timely. It is timely because we enacted 
the 2008 Farm Bill. It is timely because what has been part of 
the big discussion and debate over this last year, healthcare. 
We all know as children our parents taught us a long time ago 
that an ounce of prevention is worth a pound of cure. A lot of 
the focus in the healthcare bill has been on preventive 
healthcare. It is that ounce of prevention that is worth that 
pound of cure.
    Early childhood eating habits, good eating habits, are a 
key to ensuring and fostering that we live and eat healthy our 
entire lives. The nutrition program is an important component 
of that effort. It ties in the best aspects of America; 
reaching out to those who are less fortunate, but also taking 
advantage of our agricultural productivity which is second to 
none anywhere in the world.
    We all know that hunger and food insecurity in parts of our 
country, and in parts of our state unfortunately, continues to 
be a problem. One of the most devastating impacts of this 
economic recession that we have been in is that an increasing 
number of mothers and fathers find themselves no longer able to 
put dinner on their family's table.
    My district has been especially hard hit. The recession 
coupled with four horrific droughts and a regulatory water 
crisis have left many of the hardest working people in this 
nation, who would normally be working to put food on America's 
dinner table, in food lines. It is unacceptable in the richest 
nation in the world.
    How ironic it is that the most fertile agricultural regions 
of the country were forced to rely on food banks and the SNAP 
Program to feed these families. In my district we grow over 300 
crops of which primarily are fruits and vegetable, that good 
nutrition we are talking about. Still many Valley residents 
rely on high-calorie fast foods and nutritionally deficient 
low-cost options because the healthy options are either 
unavailable or too costly to purchase on a family's meager 
budget.
    Near Bakersfield, in the southern end of my district, we 
have what we call food deserts. They are not real deserts 
because we grow all this food, but what I mean is they are only 
occupied by fast food chains and convenience stores for miles. 
Almost 60 percent of my population is overweight. Nearly 30 
percent of the population in each of these counties is 
considered obese. That is unconscionable. Nearly 30 percent of 
the population in some of the major cities I represent like 
Fresno are at the poverty level. Similarly these statistics are 
hardly a coincidence.
    I want to thank the Chairman. We have made great strides in 
providing more healthy options for needy families in the 2008 
Farm Bill and the SNAP Program that he spoke of. We need to 
expand the use of farmer's markets, the expansion of Fresh 
Fruits and Vegetables Snack Program to make a concerted effort 
to provide more healthy options for our food banks, which is 
important and through the TEFAP Program. We can and should do 
better. Mr. Chairman, I am looking forward to the testimony by 
our first and second panel to figure out how we can do a better 
job at the local, state, and Federal level. Thank you.
    The Chairman. Thank you very much, Congressman Costa and 
Congressman Fortenberry for your opening statements. As we 
indicated before, it is also about not only nutrition but 
prevention and intervention, as well. We need to look at the 
overall cost and the ability not only to use nutrition programs 
but as a cost to the state as well.
    I will just mention this because I mentioned the revenue is 
in terms of what we could potentially get to the State of 
California. In San Bernardino alone there is revenue that could 
be $508,960,781 and that is the amount that we are losing in 
terms of revenue because of people here in this county that are 
under-utilizing the nutrition program as well.
    That means that people are not putting food on their table 
and feeding their families, which means additional revenue that 
could come to this county alone. Then if you take LA County it 
is about $2 million that they are losing in revenue just in LA 
County, which is the surrounding county to that.
    With that we would like to begin with the panelists to 
begin to give us their testimony. Each of the panelists will 
have 5 minutes. There is a light in front of you so those of 
you who are new to this and have not seen this in Washington, 
D.C. there is a light that comes on. At first the green light 
will be on and then the yellow light tells you that you had 
better cut your statement off or the gavel is going to go off.
    The red means you are supposed to be done and your 
testimony will be heard during that period of time and then 
also we will take the written testimony. We would like to begin 
with our first panelist and that is Lisa Pino who is the Deputy 
Administrator for Food and Nutrition Service, U.S. Department 
of Agriculture in Washington, D.C.
    Ms. Pino.

        STATEMENT OF LISA J. PINO, DEPUTY ADMINISTRATOR,
 SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM, FOOD AND NUTRITION 
                  SERVICE, U.S. DEPARTMENT OF
                 AGRICULTURE, WASHINGTON, D.C.

    Ms. Pino. Good morning, Chairman Baca and distinguished 
Members of the Committee. I am Lisa Pino, Deputy Administrator 
of the U.S. Department of Agriculture's Food and Nutrition 
Service.
    I am pleased and honored to join you here today to discuss 
the SNAP and how we can improve participation rates in SNAP, 
especially among difficult-to-reach groups and in California.
    The Federal food programs are critical components of our 
nation's safety net for families in need. Our programs promote 
healthier food choices among the children and families they 
serve as crucial prevention components of our national public 
health strategy.
    The USDA is committed to making these programs as effective 
as possible in addressing our top priorities--ending childhood 
hunger and addressing the obesity epidemic. The setting for 
this hearing on hospital grounds is historic and reminds us of 
the vital connection between healthy eating and disease 
prevention.
    While SNAP is the largest food assistance program that FNS 
administers, it is still only one of our 15 nutrition 
assistance programs. They are all designed to combat hunger and 
promote nutrition. Congress is poised to reauthorize the Child 
Nutrition programs this year and the Obama Administration is 
committed to supporting ground-breaking improvements in these 
programs which includes school meals and WIC, a nutrition 
program especially for women, infants, and children.
    During this recession, SNAP proves its inherent value as 
the nutrition safety net for America each and every day. More 
than four million people have joined SNAP in the past 6 months 
alone. Nearly 38 million Americans receive SNAP benefits, which 
is a 22 percent increase over just 1 year ago.
    While record-high caseloads are an unfortunate indicator of 
the difficult times and the daily struggles of families across 
our nation, they are also clear evidence that SNAP is 
responding effectively, as it was designed to do during the 
economic downturn.
    In the past year, California has experienced a 25 percent 
increase in caseload from just 1 year ago consistent with 
national trends. Nearly three million Californians received 
SNAP benefits as of October 2009. The average California SNAP 
household received a monthly benefit of $325 or $137 per person 
in Fiscal Year 2009. Still, California has a low participation 
rate relative to most states. According to the USDA's annual 
report on state SNAP participation, California ranks 50 out of 
51 state agencies including all states and the District of 
Columbia.
    In 2007, the most recent data available, California served 
48 percent of those eligible to participate in SNAP, while the 
national average is 66 percent. Clearly a low participation 
rate means less healthy food at home for households in need, 
especially during such a tough economic time.
    But beyond SNAP's nutritional benefit to households, SNAP 
is an effective economic stimulus. Every $5 in new SNAP 
benefits generate approximately $9.20 in total economic 
activity. That is almost double the benefit.
    If California were to increase its participation rate by 
just five percent, from 48 percent to 53 percent, participants 
would have more than $117 million in benefits to spend on 
healthy food generating more than $200 million in total 
economic activity. This is money left on the table that can 
flow into the state's economy to help California get back on 
its feet with an influx of additional spending.
    We are working with the state to improve participation 
through three methods: better policies, better practices, and 
better outreach. We suggest such policies as simplifying client 
reporting, expanding broad-based categorical eligibility, and 
eliminating finger-imaging to prevent dual participation.
    USDA also offers states an array of policy waivers to 
increase participation in SNAP while reducing cost and 
administrative burden. As for better practices, we encourage 
all states, including California, to consider business process 
re-engineering, an approach to allow states to more effectively 
manage increasing caseload.
    In the area of better outreach one advantage is crystal 
clear. Good outreach increases participation in SNAP which 
brings even more Federal funding to the state and its 
residents. Currently California is reaching out to new 
participants through partnerships with food banks and we are 
working with all states, including California, to improve 
outreach to the under-served such as Latinos, legal immigrants, 
seniors, the newly unemployed, and the working poor or the 
under-employed.
    In closing, let me re-emphasize the Administration's 
commitment to fighting hunger and improving the Federal 
nutrition programs. FNS has elevated nutrition and nutrition 
education as a top priority in all its programs. In addition to 
providing access to nutritious food, FNS also works to empower 
program participants with knowledge of the link between diet 
and health.
    With our state partners, we look forward to working 
together to help bring more nutritious meals to those in need. 
I look forward to answering any questions you have and I thank 
you for your attention.
    [The prepared statement of Ms. Pino follows:]

Prepared Statement of Lisa J. Pino, Deputy Administrator, Supplemental 
     Nutrition Assistance Program, Food and Nutrition Service, U.S.
              Department of Agriculture, Washington, D.C.
    Good morning, Mr. Chairman. I am Lisa Pino, Deputy Administrator of 
the U.S. Department of Agriculture's Food and Nutrition Service (FNS).
    I am pleased to join you today to discuss the Supplemental 
Nutrition Assistance Program (SNAP) and how we can improve 
participation rates in SNAP especially among difficult to reach groups 
and in California. Before I get into those details, however, I want to 
step back and outline the U.S. Department of Agriculture's priorities 
for the Federal nutrition assistance programs managed by FNS.
    These programs are critical components of our nation's safety net 
for families in need. They currently touch more than one out of five 
Americans each year. Using their breadth and scope to promote healthier 
food choices among the children and families they serve is a critical 
prevention component of our national public health strategy. The U.S. 
Department of Agriculture is committed to making these programs as 
effective as possible in addressing our top priorities--ending 
childhood hunger and addressing the obesity epidemic. In support of 
these big picture outcomes, we are pursuing an ambitious agenda to 
strengthen program access, modernize operations, improve the 
effectiveness of nutrition education, and strengthen program integrity. 
We know that there are great challenges ahead of us, but with the aid 
of our state and local partners, we are determined to achieve these 
goals. We can achieve success in ending childhood hunger and improving 
the nutritional status of participants.
    This year Congress will reauthorize the Child Nutrition Programs. 
The Administration is committed to supporting ground-breaking 
improvements in these programs, including the school meals programs. In 
its Fiscal Year 2010 Budget, the Administration proposed a billion 
dollars each year in new funding for Child Nutrition, focused on 
priorities in reducing barriers and improving access; and enhancing 
nutritional quality and the health of the school environment.
    One important connection between SNAP and school meals is Direct 
Certification. This system enables states to utilize data from the SNAP 
certification process and directly enroll students in SNAP households 
for free school meals, eliminating the need for application paperwork. 
This is an excellent way to simplify the administrative costs while 
improving access to our hunger-fighting programs. A recent report shows 
that while schools have increased their use of direct certification, 
some direct certification systems are more effective than others. We 
will be working to promote and expand best practices in this area.
    During this recession, SNAP proves its inherent value as the 
nutrition safety net for America each and every day. More than four 
million people have joined SNAP in the past 6 months. Nearly 38 million 
Americans receive SNAP benefits, which is a 22 percent increase over 
just 1 year ago. In each month of Fiscal Year 2008, SNAP served 
approximately 6.3 million households with children, representing just 
over half (51 percent) of all SNAP households.
    While record-high caseloads are an unfortunate indicator of the 
difficult times and the daily struggles of families across our nation, 
they are also clear evidence that SNAP is responding effectively, as it 
was designed to do, to the economic downturn. SNAP participation 
increases when the need is greater and contracts in better times. While 
SNAP has been responsive in these difficult times, many eligible 
individuals remain unserved.
    FNS takes seriously its stewardship responsibilities for tax payer 
dollars through the quality control system and support for payment 
accuracy initiatives. Even as participation in SNAP continues to grow 
and benefits increase, FNS remains committed to program integrity, and 
the results are clear: In Fiscal Year 2008, SNAP achieved a record high 
payment accuracy rate. It is possible to achieve both high 
participation and high payment accuracy simultaneously.
    In the past year, California has experienced a twenty-five percent 
increase in caseload from just 1 year ago, consistent with national 
trends. Nearly three million (2,998,851) Californians received SNAP 
benefits in October 2009. The average California SNAP household 
received a monthly benefit of $325, or $137 per person in Fiscal Year 
2009. This is up from $259 per household and $105 per people in Fiscal 
Year 2007.
    Still, California has a low participation rate relative to many 
other states. According to the USDA's annual report on state SNAP 
participation rates, California's participation rate ranked 50 out of 
51 including all the states and the District of Columbia. In 2007, the 
most recent data available, California served only 48 percent of those 
eligible to participate in the program. The national average was 66 
percent.
    California's low participation rate is a serious concern for many 
reasons.
    First, plain and simple, the low participation rate means less 
healthy food at home for households in need. It means that families 
lose the ability to stretch their food budgets to purchase more and 
healthier food. It means they go hungry instead of receiving nutrition 
benefits to which they are entitled.
    Second, SNAP is an effective economic stimulus. Every $5 in new 
SNAP benefits, if funded through emergency spending, has been estimated 
to generate as much as $9.20 in total economic activity.\1\ If 
California were to increase its participation rate among those eligible 
for benefits by just five percentage points, participants would have 
more than $117 million in benefits to spend on healthy food generating 
more than $200 million in total economic activity. This is money ``left 
on the table'' that could flow into the state's economy and help the 
economy get back on its feet with an influx of additional spending. 
Almost all (97%) SNAP benefits are spent for food within 30 days.
---------------------------------------------------------------------------
    \1\  Increases in food stamp (now named SNAP) benefits can 
stimulate additional economic activity. An increase in benefits raises 
spending by recipient households, which then stimulates production. 
Higher production boosts labor demand and household income. Increased 
household income triggers additional spending. Hanson and Golan (2002) 
estimate that an additional $500 in food stamp expenditures triggers an 
increase in total economic activity of $920. See the Economic Research 
Service website at http://www.ers.usda.gov/publications/fanrr26/
fanrr26-6/fanrr26-6.pdf (See p. 2.)
---------------------------------------------------------------------------
    Because SNAP is an effective economic stimulus, Congress and the 
Administration worked together to build on the program's strengths 
through the American Recovery and Reinvestment Act. The Recovery Act 
provided additional benefits for SNAP recipients nationwide, $80 for a 
household of four per month, starting in April 2009. These additional 
benefits have been very effective in getting food resources to families 
facing increased need as a result of the slow economy. In conjunction 
with the Mid-Session update to the President's Fiscal Year 2010 budget, 
we estimate that over time, the increased benefits will total $48 
billion. This figure will be re-estimated with the President's Fiscal 
Year 2011 budget request and is likely to increase. The increased SNAP 
benefits were some of the first Recovery Act dollars to reach the 
wallets of needy people and the neighbors and businesses in their 
communities and made an immediate impact on the national economic 
situation.
    We recognize the extraordinary budget difficulties states, 
including California, face in this current economic crisis. To help 
address the growing strain on existing resources, the Recovery Act 
provided nearly $300 million in new administrative funds to states--
funds that will not require a match--to help them serve the growing 
number of families seeking assistance. California's share of these 
funds is $21.7 million. The Defense Appropriations Act recently 
provided another $400 million to states for this purpose.
    USDA has offered all states an array of policy waivers to increase 
participation in SNAP while reducing cost and administrative burden and 
helping to more effectively manage the increasing workload.
    California has already made some steps in the right direction. For 
example, California has established broad-based categorical eligibility 
for families with children. They are doing telephone interviews at 
certification and recertification in some regions. There are online 
applications with electronic signature capability in some regions as 
well as change processing call centers in some regions. One important 
waiver that California is already using restores eligibility to 
households terminated for failure to provide reports if those reports 
are received within 30 days. These efforts represent a significant 
start towards improving participation.
    We are working with California to improve participation through 
three methods--better policies, better practices and better outreach to 
those eligible for SNAP.
    First, better policies. There are several policies that California 
can implement to achieve significant savings and help to address its 
$20 billion budget deficit, while also improving access and service for 
clients.
    Specifically, we recommend the following approaches for California:

  <bullet> First, simplify client reporting. FNS has asked the state to 
        submit a plan by February 2010 to convert from the current 
        quarterly reporting system to a simplified reporting system. 
        Simplified reporting will require less frequent submission of 
        report forms from clients, lead to longer certification periods 
        for some households, and reduce the time and expense of acting 
        on changes.

  <bullet> Second, expand eligibility and reduce workload through 
        broad-based categorical eligibility: Other states have 
        eliminated asset requirements and are making use of higher 
        income limits (up to 200 percent of the Federal poverty line) 
        for all eligible households, not just those with children under 
        18 as in California. Broad-based categorical eligibility is an 
        effective workload management tool for overburdened states 
        workers and simplifies the application process for clients.

  <bullet> Third, consistently offer telephone interviews in lieu of 
        face-to-face interviews. Many California counties have chosen 
        not to use telephone interviews consistently or limit the 
        criteria for waiving the face-to-face interview. Use of 
        telephone interviews and tailoring interview length and 
        questions to the specific circumstance of the case make the 
        process more efficient and reduce as many burdens possible. 
        Failure to fully utilize these telephone interviews to their 
        fullest extent can make it more difficult for households to 
        navigate the certification process, thereby discouraging 
        participation.

  <bullet> Fourth, eliminate finger imaging: While there is no hard 
        data to establish that finger imaging prevents participation of 
        eligible households, community-based groups have consistently 
        reported that low-income groups (especially low-income legal 
        immigrants) are often fearful of applying for SNAP because of 
        the finger imaging requirement. As states look for ways to 
        provide services in difficult fiscal times, the cost associated 
        with finger imaging should be reconsidered. Most states satisfy 
        the requirement to establish a system to prevent duplicate 
        participation by matching names with Social Security Numbers, 
        which is less costly than finger imaging and is also an 
        effective deterrent. We need to make every dollar count by 
        managing resources in the most efficient and effective manner 
        possible. USDA is in the process of evaluating how finger 
        imaging systems may impact cost and client participation.

  <bullet> Fifth, expand call center change reporting and electronic 
        applications. While these approaches are being used in some 
        regions, participation and access could be enhanced if they 
        were used statewide.

    In the area of better practices, we stress the importance of 
customer service and better business processes. The more user friendly 
the application and related processes are, the more likely it is that 
access to the program will improve. We will continue to work further 
with the state to see where the application process can be improved or 
``reengineered'' and whether there are waivers or other assistance we 
can provide to help counties move towards more efficient application 
processes. FNS encourages states to learn from each other and implement 
models that work.
    One critical customer service that must be addressed is application 
processing timeliness. Timeliness standards are set by law. 
Applications must be processed within 30 days or within 7 days for 
expedited cases where applicants have very low income. Despite current 
challenges, these standards must be met. People have a critical need 
for timely assistance. Every day matters when you're hungry.
    Some states have persistent difficulty with timeliness with little 
improvement. California has experienced decreasing timeliness rates 
over the past 2 years. In 2008, 79.6 percent of applications were 
processed in a timely manner in California. The national average is 
85.6 percent. Record caseloads are challenging even those states with 
historically good timeliness rates. Yet there are states successfully 
maintaining timeliness rates despite rising caseloads. We encourage 
California to talk with such states and learn more about their business 
practices.
    The negative error rate, which is the rate of incorrect denials, 
suspensions or termination of benefits, is another critical customer 
service issue. California has a very high negative error rate. When 
negative errors occur, access is hampered and households face 
unnecessary hardship because households are removed from the program 
unnecessarily. Over the past several months, FNS has done in-depth 
reviews in the five largest states, including California, to learn why 
the negative error rate is going up and what we can do to help states 
reverse the trend. Results of this analysis are expected later this 
year.
    Like all states, California must promote accountability and make 
improved negative error performance as a priority. Policy, Quality 
Control (QC), and Corrective Action staff must work closely together on 
provided resources and tools to local county staff to promote improved 
performance in this measure.
    In the area of better outreach, the advantages are crystal-clear: 
due to economic multiplier effect I described earlier, increasing the 
number of eligible individuals participating in SNAP would bring 
additional Federal funding support to the state and its citizens. 
California is to be recognized for its statewide outreach plan that 
includes partnerships with food banks. We are working with many states, 
including California, to improve access and participation through 
innovative outreach and community partnerships, especially those 
designed to reach underserved populations, such as Latinos, the 
elderly, and the unemployed and under-employed.
    Nationwide, more than five million U.S. Latinos participated in 
SNAP in 2006, but nearly as many were eligible yet did not participate. 
SNAP served nearly 1.1 million Latinos in California in an average 
month in 2006 (the latest year with data on race and ethnicity). The 
participation rate of eligible Latinos is just 56 percent nationwide, 
and in California is it just 43 percent. This means California is 
losing millions in federally-funded SNAP benefits to which their 
residents are entitled.
    Latino families are much more likely to live in poverty and 
experience food insecurity than white non-Latino households. More than 
\1/4\ of all people eligible for SNAP benefits but not receiving them 
are Latino. According to USDA's Economic Research Service, while 
fifteen percent of households in the U.S. are food insecure in 2008, 
the rate of food insecurity among Latino families was over 25 percent. 
This is not just a food security issue--it is a question of equitable 
program access across USDA's diverse customer base. The Department is 
making a concerted effort to overcome barriers to program participation 
in a wide range of programs among Latinos and other traditionally 
under-served communities. We continue to seek ways to help all states 
develop strategies that increase participation among such target 
populations.
    Factors impeding Latino SNAP participation include confusion and 
misinformation about the issue of whether someone is considered a 
``public charge''. In fact, receipt of SNAP benefits does not make one 
a public charge. Other factors impeding participation are the lack of 
awareness and understanding of the program and eligibility 
requirements, and limited delivery of that information in cultural and 
linguistically appropriate ways.
    For many years, the Food and Nutrition Service has worked to 
eliminate these barriers and reach out to underserved groups to raise 
awareness of the nutrition benefits of SNAP, including significant 
efforts to reach the Latino population. Our efforts include:

  <bullet> Outreach to make sure that eligible clients, outreach 
        providers, and other stakeholders are aware of Department of 
        Homeland Security policy that clearly indicates that 
        participation in SNAP does not make one a public charge.

  <bullet> Radio advertisements in English and Spanish to promote the 
        nutrition benefits of SNAP and educate non-participating 
        eligible people have aired in multiple states for 6 years. We 
        are in the planning stages for the seventh year. Radio 
        advertisements have aired in California during each year to 
        date.

  <bullet> A web-based pre-screening tool in English and Spanish. 
        Individuals using the prescreening tool receive estimates of 
        their eligibility and benefit amounts. This tool is online at 
        http://www.snap-step1.usda.gov.

  <bullet> A national toll free number, 1-800-221-5689, provides 
        information about the program in Spanish or English and 
        includes the option to receive a packet of information by mail.

  <bullet> Educational posters and flyers in English and Spanish which 
        may be ordered for use in local outreach campaigns that can be 
        used in promotional and informational materials. These 
        resources are available at http://foodstamp.ntis.gov/ 

  <bullet> A comprehensive Latino strategy outreach plan, now under 
        development, to better reach and educate the Latino audience 
        about the nutrition benefits of SNAP.

  <bullet> A national SNAP Outreach Coalition to bring together 
        national and local organizations working with low-income 
        audiences. Coalition members share effective outreach 
        strategies to educate eligible, non-participating, low-income 
        Latino people about the benefits of SNAP.

  <bullet> Participation grants for projects that look at ways that 
        state partnerships can improve access, and make the application 
        and intake process more user-friendly. Three of these grants 
        have been awarded to organizations in California during the 
        past 7 years.

  <bullet> Outreach grants for small organizations to study the 
        effectiveness of strategies to inform eligible low-income 
        people about the program. Neighborhood and faith-based 
        organizations in California have received nine outreach grants 
        since 2001.

    Now, I would like to turn my attention for a moment to the role 
that SNAP plays in promoting healthy eating. Through the nutrition 
education component called SNAP-Ed, SNAP plays a critical role in 
helping recipients obtain a healthy diet, engage in physical activity 
and pursue healthy lifestyles within limited resources. SNAP-Ed 
nutrition education resources in English and Spanish such as Loving 
Your Family, Feeding Their Future can reach low-income mothers and 
motivate them to improve their families' eating and physical activity 
behaviors. While SNAP-Ed can certainly be improved, it does play a key 
role in efforts to improve participants' food choices.
    The Food Conservation and Energy Act of 2008--the 2008 Farm Bill--
authorized $20 million for pilot projects to evaluate health and 
nutrition promotion in SNAP to determine if incentives provided to SNAP 
recipients at the point-of-sale increase the purchase of fruits, 
vegetables or other healthful foods. FNS refers to this effort as the 
Healthy Incentives Pilot. Through this recently launched pilot program, 
we released a competitive solicitation to encourage state applicants to 
test innovative ideas to improve the nutritional choices of SNAP 
participants. The Healthy Incentive Pilot is only one example of the 
agency's efforts to provide grants and other incentives in the programs 
to advance nutrition.
    Increasing the number of farmers' market authorized by SNAP is 
another priority. This effort not only creates access to healthy 
produce for our clients but it expands the customer base for local 
farmers. The number of farmers markets in SNAP increased 25 percent in 
Fiscal Year 2009 over the prior year.
    Know Your Farmer, Know Your Food is a new initiative launched by 
Secretary Vilsack and Deputy Secretary Merrigan to enhance the link 
between consumers and local producers. By successfully improving the 
link between consumers and local producers there can be new income 
opportunities for farmers and wealth can be generated that will stay in 
rural communities. There also can be a greater focus on sustainable 
agricultural practices and families can better access healthy, fresh, 
locally grown food.
    In closing, let me reemphasize the Administration's commitment to 
fighting hunger and improving the Federal nutrition programs. I would 
like to thank the Committee for the opportunity to join you here to 
raise awareness, focus attention and motivate action to improve the 
effectiveness of SNAP and all Federal nutrition programs, both here and 
across the nation. Working together, we can strengthen our ability to 
ensure that, no matter what other hardships they experience in the face 
of economic disruption, low-income people need not experience food 
insecurity and hunger. I look forward to answering any questions that 
you may have.

    The Chairman. Thank you very much, Ms. Pino. Thank you very 
much for sticking within the time limits because your light 
just went on. Just at the nick of time so thank you very much. 
I am glad you did not pick any of our habits--Members' habits--
I should say.
    Next I would like to have Christine Webb-Curtis who is the 
Chief, Food Stamp Branch for California Department of Social 
Services out of Sacramento.

 STATEMENT OF CHRISTINE WEBB-CURTIS, CHIEF, FOOD STAMP BRANCH, 
    CALIFORNIA DEPARTMENT OF SOCIAL SERVICES, SACRAMENTO, CA

    Ms. Webb-Curtis. Thank you, Chairman Baca and Committee 
Members. My name is Christine Webb-Curtis and I am the Chief of 
the Food Stamp Branch--we are saying Food Stamps in California 
still--at the California Department of Social Services. 
Currently we have oversight of the Food Stamp Program and the 
Emergency Food Assistance Program.
    California's Food Stamp Program is the second largest in 
the country, serving about three million persons with about $3 
billion in food benefits each year. The most recent USDA report 
on participation, as Lisa mentioned, for 2007 indicates that we 
rank among those states with low rates.
    Although we have much work to do to increase participation, 
the data is 2 years old and doesn't reflect the many state and 
county efforts to improve program access that have occurred 
over the past few years. Additionally, California's ``cash-
out'' of approximately 1.2 million persons receiving SSI/SSP is 
a significant factor in our participation rate, as these 
families are not included in the calculation.
    Well before the recent economic slowdown, we had undertaken 
steps to increase public awareness about the program and 
improve access to these benefits. Along with our county parties 
we also pursued policy and operational changes to simplify and 
streamline the application process and the administration of 
the program. I would like to highlight some of those.
    The expansion of categorical eligibility makes households 
with minor children no longer subject to the resource test. 
Full implementation was completed the first of this month. The 
Governor's budget includes funding to expand this policy to 
apply to all Food Stamp households, not just families which 
would add about 45,000 households.
    In 2008 we received a Federal waiver to exempt most Food 
Stamp households from the face-to-face interview requirement. 
In 2009 we received another waiver to exempt all households 
from the face-to-face requirement. This was recently 
implemented and is available at county option. In waiver 
counties fingerprint imaging can also be postponed for up to 1 
year.
    Last year we provided instructions to counties to develop a 
simplified process that ensures that emancipating foster youth, 
about 4,000 a year, will be given the opportunity to apply for 
this critical benefit prior to aging out of the Foster Care 
system.
    We are one of only four states to provide Restaurant Meal 
Allowance Program for homeless, elderly, and disabled Food 
Stamp recipients who may not have easy access to cooking 
facilities. This allows access to hot cooked meals at approved 
locations throughout the five counties which have implemented 
this option.
    A federally-approved restoration of eligibility waiver is 
about to be implemented to allow discontinued households to 
have benefits restored easily without the need for a new 
application if the reason is ``cured'' in the month following 
termination.
    Finally, we are working with our stakeholders including the 
California Food Policy Advocates to develop a new program name. 
We hope that the new name will go a long way toward eliminating 
some of the stigma associated with the Food Stamp Program, and 
provide an opportunity to outreach to potentially eligible 
families through the marketing of the new name.
    These efforts have played an important role in increasing 
participation in California from 2007 to 2009. We saw an 
increase of 31 percent.
    We continue to explore ways to streamline the application 
process and enhance access to the program. Our phase two with 
Foster Youth would provide emancipated foster youth with the 
maximum benefits for their initial certification period. We are 
currently drafting a demonstration project proposal to be 
submitted in March to USDA.
    We are exploring a pilot for leveraging DMV information to 
assist in establishing identity, which may help decrease 
administrative costs and provide a more public-friendly 
mechanism for detecting duplicate aid. We are one of five 
states with a biometric system for duplicate aid detection. 
States with a single automated eligibility system can more 
easily identify duplicate aid fraud. We have four systems, soon 
to be three. The Statewide Fingerprint Imaging System is the 
only statewide system, and having a statewide duplicate aid 
detection and prevention system is a Federal mandate.
    We received more than $22 million under the economic 
stimulus package and the Governor's budget contains 
modernization proposals for additional administrative 
efficiencies and enhancements, including expansion of online 
applications in all three automation systems. These 
enhancements will benefit recipients and county welfare 
departments by expediting the application process and providing 
quicker handling of the cases.
    In 2009 we and the Department of Health Care Services were 
directed to develop a comprehensive plan for a single 
eligibility system for our programs. The work of this 
stakeholder group only recently began. The first meeting was 
January 21. We have greatly expanded our outreach efforts. For 
2010 the outreach project doubled to 82 subcontractors 
operating in 43 counties with a budget of over $13 million.
    I will leave you to read our comments on the Emergency Food 
Assistance Program and just thank you for the opportunity to be 
here. California has more to do, but we have a solid basis for 
moving forward on increasing participation. We welcome ideas 
and opportunities and we will continue to do what we can.
    [The prepared statement of Ms. Webb-Curtis follows:]

Prepared Statement of Christine Webb-Curtis, Chief, Food Stamp Branch, 
        California Department of Social Services, Sacramento, CA
    Chairman Baca and Committee Members,

    Thank you for bringing together this panel to discuss Federal 
nutrition programs in California. My name is Christine Webb-Curtis and 
I am the Chief of the Food Stamp Branch in the California Department of 
Social Services (CDSS.)
    I will briefly summarize for the Committee, the programs and some 
of the initiatives undertaken by my department and our county and 
stakeholder partners to address the food needs of low-income 
individuals and families in California. Currently, the Federal 
nutrition programs for which CDSS has oversight responsibilities are 
the Food Stamp Program (FSP) and the Emergency Food Assistance Program 
(EFAP).
Food Stamp Program:
    The FSP is a Federal entitlement program that provides monthly 
benefits to assist low-income households in purchasing the food they 
need to maintain adequate nutritional levels. The California Food Stamp 
program is the second largest in the country, serving approximately 
three million persons and providing about $3 billion in food benefits 
over the course of a year.
    The most recent report on FSP participation, for Federal Fiscal 
Year 2007, released in November of 2009, by the United States 
Department of Agriculture, Food and Nutrition Service (FNS) indicates 
that based on Federal methodology, California still ranks among those 
states with low program participation rates at 48 percent. Although we 
acknowledge that we have much work to do to increase participation, the 
data is 2 years old and doesn't reflect the many state and county 
efforts to improve program access that have occurred over the past 
couple of years. Additionally, California's ``cash-out'' of 
approximately 1.2 million persons receiving SSI/SSP is a significant 
factor in our low program participation rate as we are the only such 
``cash-out'' state and these families are not included in the 
participation rate calculation.
    Well before the recent rise in food prices and the economic 
slowdown, CDSS and the California Office of Systems integration had 
undertaken steps to increase public awareness about the FSP and improve 
the access of eligible individuals and families to these benefits. CDSS 
and the County Welfare Directors Association (CWDA) also pursued policy 
and operational changes to simplify and streamline the application 
process and the administration of the FSP. Recently, CDSS has pursued 
several changes to enhance access to and participation in this 
important program with the assistance of our many partners. I'd like to 
highlight some of these changes.

  <bullet> The expansion of categorical eligibility, pursuant to AB 433 
        in 2008, makes households with minor children no longer subject 
        to the resource test for purposes of determining FSP 
        eligibility. This option ensures that low-income families are 
        not denied critical food benefits simply because they may have 
        too many assets. Implementation was completed by January 1, 
        2010, for applicant households. The Governor's Budget proposal, 
        released on January 8, includes funding to expand this policy 
        so it will apply to all Food Stamp households, not just 
        families. This proposal would add an estimated 45,000 
        households to California's Food Stamp Program.

  <bullet> In 2008, CDSS received a Federal waiver to exempt most Food 
        Stamp households from the face-to-face interview requirement at 
        recertification, and for elderly and disabled households at 
        both intake and recertification. These interviews will be 
        conducted by telephone.

  <bullet> In 2009, just this past year, we received a Federal waiver 
        to exempt all households from the face-to-face interview 
        requirement. This waiver was recently implemented and is 
        available at county option. In counties where face-to-face 
        waivers are implemented, counties can also postpone the 
        fingerprint imaging requirement for up to 1 year.

  <bullet> CDSS provided instructions to counties this past year to 
        develop a simplified process that ensures that emancipating 
        foster youth will be given the opportunity to apply for the FSP 
        prior to ``aging out'' of the Foster Care system. Food stamps 
        at exit from Foster Care provide a critical benefit that helps 
        stabilize foster youth at this critical juncture in their 
        lives. Annually, about 4,000 foster youth statewide go through 
        the emancipation process.

  <bullet> California is one of only four states in the nation that 
        provides counties the option to operate a Food Stamp Restaurant 
        Meal Allowance Program for homeless, elderly, and disabled food 
        stamp recipients who may not have easy access to cooking 
        facilities. This option allows these household to have access 
        to hot cooked meals at approved locations throughout the 
        county. Five counties, accounting for 42 percent of caseload, 
        have implemented this option.

  <bullet> A federally-approved restoration of eligibility waiver is in 
        the process of being implemented to allow discontinued 
        households to have benefits restored quickly and easily without 
        the need for a new application and interview if the reason for 
        discontinuance is ``cured'' at any time in the month following 
        termination.

  <bullet> The Department collaborates with U.S. Department of 
        Agriculture (USDA) on a regular basis across the spectrum of 
        Food Stamp activities. As an example, CDSS partnered with the 
        USDA Western Region Office and four counties (Los Angeles, San 
        Diego, Fresno, and Tulare Counties) to implement a strategic 
        planning process to increase Food Stamp participation. This 
        plan utilizes a partnership with these counties, local 
        community-based organizations, along with CDSS and USDA, to 
        increase public awareness of the FSP and encourage eligible 
        low-income working families to access FSP benefits.

  <bullet> Finally, we are working with critical stakeholders, 
        including California Food Policy Advocates (CFPA), the 
        California Department of Public Health, and the counties, to 
        develop a new name for California's FSP. We are very 
        appreciative that CFPA was able to secure funding through The 
        California Endowment to employ research and marketing 
        specialists to assist with development of the new name for the 
        FSP. It is our hope that the new name will go a long way toward 
        eliminating some of the stigma associated with the FSP and will 
        provide a great opportunity to outreach to potentially eligible 
        families through the marketing campaign that will support the 
        launching of the new name.

    All these efforts have played an important role in increasing 
California's Food Stamp participation over the past few years. From 
Federal Fiscal Year 2007 to 2009, California's program participation 
has increased 31 percent or four (4) percent higher than the increase 
nationally.
Future Policy Efforts
    In addition to the above efforts, CDSS continues to explore ways to 
streamline the Food Stamp application process and also enhance access 
to the program.

  <bullet> Our phase two with Foster Youth would provide emancipated 
        foster youth with FSP eligibility without regard to income or 
        resources for a defined period of time to ensure their 
        stability. Individuals eligible for this program will receive 
        the maximum benefits for their initial certification period (up 
        to 12 months). As a result of enacted state legislation (AB 
        719), CDSS is currently in the process of drafting a 
        demonstration project proposal to be submitted to FNS no later 
        than March of this year to put this proposal in place.

  <bullet> CDSS is exploring options through a pilot for leveraging 
        Department of Motor Vehicle information to assist in 
        establishing identity for individuals in the food stamp 
        program. This partnership may help to decrease administrative 
        costs with counties and may provide a more public-friendly 
        mechanism for detecting duplicate aid. Most states have a 
        single automated eligibility determination system and can more 
        easily identify duplicate aid fraud. However in California, 
        there are four (soon to be three) automated welfare systems 
        that do not talk to each other. California is one of five 
        states that have a biometric system for duplicate aid 
        detection. While there are several statewide automated systems 
        that support our welfare programs, the Statewide Fingerprint 
        Imaging System (SFIS) is the only statewide system that detects 
        and prevents duplicate aid within our multiple eligibility 
        systems; and having a statewide duplicate aid detection and 
        prevention system is a Federal mandate. The only other state 
        that has multiple automated welfare systems is New York. New 
        York City requires fingerprint imaging and is on a different 
        automated welfare system from the rest of the state.

  <bullet> California received more than $22 million in administrative 
        funding for the Food Stamp Program from the Federal FNS under 
        the Economic Stimulus package. The Governor's Budget contains 
        modernization proposals for additional administrative 
        efficiencies and enhancements, including an expansion/creation 
        of online applications in all three automation systems as well 
        as installation of document imaging capability in one 
        automation system and Interactive Voice Response systems in the 
        other two automation systems. These automation enhancements 
        will benefit recipients and county welfare departments by 
        expediting the application process and providing quicker 
        handling on Food Stamp cases.

  <bullet> Recent legislation in 2009, AB X4 7, directed the Department 
        and the Department of Health Care Services (DHCS) to develop a 
        comprehensive plan for a single eligibility process for the 
        departments' programs--Food Stamps, Medi-Cal, and CalWORKs 
        which is California's Temporary Aid for Needy Families (TANF) 
        program. The stakeholder workgroup includes representatives of 
        advocacy organizations, county employees, county human services 
        agencies, the California State Association of Counties, and 
        legislative staff. The work of the stakeholder group has only 
        recently begun, holding its first full meeting on last 
        Thursday, January 21.

  <bullet> Additionally, over the last 2 years, we have greatly 
        expanded our outreach efforts in the Food Stamp Program. The 
        Food Stamp Outreach Project involves partnering with the 
        California Association of Food Banks, the Central Valley Health 
        Network and other community-based organizations. These 
        organizations are much closer to those families who are 
        potentially eligible for the Food Stamp Program. They are able 
        to reach out to them, explain the benefits of the program and 
        assist them to apply.

    <ctr-circle> For 2010, the FS Outreach Project doubled and includes 
            82 subcontractors operating in 43 counties with a total 
            budget of over $13 million.
The Emergency Food Assistance Program (EFAP):
  <bullet> The second food-related program administered by CDSS is the 
        Emergency Food Assistance Program, or EFAP. In FFY 2009, EFAP 
        provided 109.5 million pounds of donated food to 49 local 
        county food banks and over 2,300 distribution sites. The 
        program serves approximately one million needy individuals 
        monthly in low-income households. EFAP also provides a portion 
        of the food used in soup kitchens throughout the state that 
        daily serve thousands of homeless individuals. The food comes 
        from two sources:

      (1) USDA provides the bulk of the food distributed by EFAP. In 
            FFY 2009, USDA allocated $27.7 million in ``entitlement'' 
            commodities to California (45.8 million pounds). In the 
            same year, USDA also provided California with free bonus 
            food comprised of surplus agricultural commodities valued 
            at approximately $40 million and weighing 49.6 million 
            pounds.

      (2) In addition to these Federal commodities, the California 
            Donate/Don't Dump Program was established in 1995 to 
            salvage fresh fruit and vegetables from farmers and growers 
            throughout California and distribute them to needy 
            Californians. EFAP collects and distributes to local county 
            food banks over 14 million pounds of fresh fruits and 
            vegetables annually.

  <bullet> Over the past several years, food banks have been reporting 
        a steady increase in participation.

    <ctr-circle> Food banks are reporting an increase of more than 20 
            percent in participation rates. The food banks report that 
            many of the new participants have lost their jobs and do 
            not have enough money for food in addition to their bills.

    <ctr-circle> Soup kitchens that provide hot meals to the homeless 
            have also cited a 12 percent increase in meals served.

  <bullet> Fortunately the 2007 Farm Bill increased funding for the 
        EFAP Program. In FFY 2007 EFAP was provided $15.6 million for 
        the purchase of food. In FFY 2009, this was increased to $27.7 
        million. In addition, that same year, bonus commodities 
        increased from less than $6 million to over $40 million.
EFAP_American Recovery and Reinvestment Act:
  <bullet> In FFY 2009, the American Recovery and Reinvestment Act, or 
        ARRA, provided approximately $12 million to EFAP for the 
        purchase of food. In addition, ARRA provided approximately $3.1 
        million for administrative funds in FFY 2009 for California 
        food banks, and California will receive an additional $3.1 
        million in FFY 2010.
Fresno Drought Disaster Relief:
  <bullet> During 2009, Governor Schwarzenegger provided approximately 
        $7.8 million to purchase and distribute food to provide relief 
        to victims of the drought disaster in Fresno County. 
        Distribution began in August 2009 and to date EFAP has provided 
        food assistance to over 150,000 individuals and families. 
        Disaster food commodities will continue through February 2010.

    Thank you for the opportunity to share some of the many positive 
things that are happening in California to enhance access to this vital 
food and nutrition assistance program. California is moving in the 
right direction and many of the reforms and initiatives I have 
highlighted today will go a long way toward improving California's Food 
Stamp participation. We have more to do, but we have a solid basis for 
moving forward. We are open to other ideas and opportunities, and will 
continue to do everything possible to ensure California's needy 
households have access to these critical programs.
    Thank you.

    The Chairman. Thank you very much, Ms. Webb-Curtis, for 
your testimony.
    At this time I would like to call on Nancy Swanson, the 
Director of the Department of Transitional Assistance from San 
Bernardino.
    Nancy.

      STATEMENT OF NANCY SWANSON, DIRECTOR, DEPARTMENT OF 
 TRANSITIONAL ASSISTANCE, SAN BERNARDINO COUNTY HUMAN SERVICES 
                   SYSTEM, SAN BERNARDINO, CA

    Ms. Swanson. Good morning, Mr. Chairman, and Members of the 
Committee. Thank you for having me here today. My name is Nancy 
Swanson and I am the Director of the Transitional Assistance 
Department for San Bernardino County. Our department 
administers all the Public Assistance Programs including the 
Food Stamp Program for the residents of San Bernardino County. 
Today I would like to share some important information on San 
Bernardino County's continued efforts to increase public 
awareness and participation in the Food Stamp Program.
    I will be providing some statistical data on our Food Stamp 
caseload including recent growth and possible contributing 
factors; how we have worked with many agencies to assist the 
public with accessing the Food Stamp Program; different 
constraints the county faces; and what counties need to 
increase Food Stamp participation rates.
    In 2009 San Bernardino County received 152,624 Food Stamp 
applications which is an average of 12,719 applications per 
month. Currently we have 105,044 active Food Stamp cases with a 
total of 270,468 individuals participating. Of those 
individuals participating, approximately 58 percent of them are 
18 years old or younger. Approximately $38.2 million of 
benefits were issued per month.
    From January 2009 to December 2009 the Food Stamp caseload 
increased 46.1 percent, which is an average monthly change of 
about 3.5 percent. The economy is clearly driving the demand 
for services. A changing applicant is also being noted. Our 
two-parent family caseload has increased by 67.5 percent. 
County residents receiving public assistance increased from one 
in every five residents to one in every four residents. 
Recession has forced many working families to apply for 
government help who have never done so in the past.
    One avenue used to increase public awareness and streamline 
program access was to create an online application. This allows 
customers the flexibility to apply at anytime. In August of 
2009, in conjunction with our County's Consortia, C4Yourself 
was launched. Since inception we have received over 17,000 Food 
Stamp applications through our website www.c4yourself.com.
    San Bernardino County continues to reach out to provide 
important information on Food Stamps and eligibility 
requirements to community and faith-based organizations, the 
public, family agencies, and other county departments. We 
participate in many different outreach efforts including Inland 
Empire Economic Recovery Corporation Home Foreclosure 
Prevention Seminars, job fairs, senior events, veteran affairs 
events, and other health events.
    Our participants receive literature on the Food Stamp 
Program including general eligibility requirements, as well as 
nutritious food choices; how to choose an active lifestyle; and 
recipe cards to create healthy meals. At some of these events 
we have even been able to have staff on-site to take Food Stamp 
applications.
    We recognize our county's geographic area as large and 
customers living below the Federal poverty level reside in all 
areas. To assist with program accessibility we continue to 
collaborate with the community-based organizations. To assist 
our customers living in remote mountain areas we recently 
relocated eligibility staff to an out-station office in the Big 
Bear area. In addition, we have eligibility staff located on-
site at several schools to accept program applications and 
provide customer service.
    Last year in conjunction with Congressman Baca's office we 
provided training to 224 participants from community-based 
organizations, county departments, and school districts. This 
training covered general program and eligibility requirements 
for Food Stamps, the C4Yourself website and how to access it, 
the online application. Participants were given user guides to 
assist them when they are helping members of the community.
    Many families and individuals do not apply for Food Stamp 
benefits due to the social stigma associated with receiving 
assistance. The public has a perception that benefits are too 
small to make a difference and the program is not easily 
accessible. A recent survey completed by the USDA indicates the 
most common reasons why a person does not apply for Food Stamps 
is perceiving oneself to be ineligible, avoiding dependency on 
government assistance, and difficulty of applying for benefits.
    I will let you read my further testimony. I would just like 
to conclude with saying that we continue to think of 
possibilities and ways of improving access such as improving 
online application processes, kiosks that could be put in 
schools and libraries and stores and hospitals so people would 
have the ability to go into their communities and apply for 
assistance.
    Call centers where people can call in to get general 
information, not only about the Food Stamp Program but if they 
are already receiving assistance, to get information about 
their case. I think that if we continue to work together with 
our Federal and state partners that we should be able to make 
some of these changes and streamline the technology with some 
eligibility processes to improve access to Food Stamps. Thank 
you.
    [The prepared statement of Ms. Swanson follows:]

      Prepared Statement of Nancy Swanson, Director, Department of
 Transitional Assistance, San Bernardino County Human Services System, 
                           San Bernardino, CA
    Good morning, Mr. Chairman, Members of the Committee. I am Nancy 
Swanson, Director of the Transitional Assistance Department for San 
Bernardino County. The Transitional Assistance Department administers 
Public Assistance programs, including the Food Stamp Program, for the 
residents of San Bernardino County.
    Today I would like to share some important information on San 
Bernardino County's continued efforts to increase public awareness and 
participation in the Food Stamp program.
    I'll be providing statistical data on San Bernardino County's Food 
Stamp caseload, including recent growth and possible contributing 
factors, how we've worked with many agencies to assist the public with 
accessing the Food Stamp program, different constraints the county 
faces, and what counties need to increase the Food Stamp participation 
rate.
    Last year (2009) San Bernardino County received 152,624 Food Stamp 
applications, which is an average of 12,719 applications per month. 
Currently we have 105,044 active Food Stamp cases with a total of 
274,468 individuals participating. Approximately $38.2 million of 
benefits were issued per month.
    From January 2009 to December 2009 the Food Stamp caseload 
increased 46.1% (The average monthly change for this period is 3.5%).
    The Economy is clearly driving the demand for services. A changing 
applicant is also being noted.

  <bullet> Two-parent family caseload increased by 67.5%.

  <bullet> County residents receiving public assistance increased from 
        one in every five residents to one in every four residents.

  <bullet> Recession has forced many working families to apply for 
        government help who have never done so before.
Online Application--``C4Yourself''
    One avenue used to increase public awareness and program access was 
to create an online application. This allows customers the flexibility 
to apply at anytime. In August 2007, in conjunction with the County's 
Consortia, C4Yourself was launched. Since inception, we have received 
over 17,000 Food Stamp applications through www.c4yourself.com.
Outreach
    San Bernardino County continues to reach out to provide important 
information on Food Stamps and eligibility requirements to community 
and faith based organizations, the public, family agencies, and other 
County departments. We participate in many different outreach efforts 
including Inland Empire Economic Recovery Corporation Home Foreclosure 
Prevention Seminars, job fairs, senior events, and health events. Our 
participants receive literature on the Food Stamp Program, including 
general eligibility requirements, as well as nutritious food choices, 
how to choose an active lifestyle, and recipe cards to create healthy 
meals.
    We recognize our county's geographic area is large and customers 
living below the Federal poverty level reside in all areas. To assist 
with program accessibility we continue to collaborate with many 
community-based organizations. To assist our customers living in the 
remote mountain areas we recently relocated eligibility staff to an 
outstation office in Big Bear. In addition we have eligibility staff 
located on-site at schools to accept program applications and provide 
customer service.
    Last year training was provided to 224 participants from community 
based organizations, county departments, and schools. This training 
covered general program and eligibility requirements, the C4Yourself 
website and how to access. the online application. Participants were 
given user guides to assist them in helping members of the community.
    Many families/individuals do not apply for Food Stamp benefits due 
to the social stigma associated with receiving assistance from the 
government. The public has a perception benefits are too small to make 
a difference and the program is not easily accessible.
    A recent survey completed by the USDA Food and Nutrition Services 
(FNS) indicates the most common reasons why a person does not apply for 
Food Stamps is perceiving oneself to be ineligible, avoiding dependence 
on government assistance, and difficulty of applying for benefits.
    Changes to the process to make applying for the program less 
intrusive and simplification of requirements would help to overcome 
some of these perceived barriers. We believe that our online 
application process, as well as our outreach efforts, is a step in the 
right direction in helping to reduce these barriers, as well as 
streamlining the application process.
    With the increasing caseloads salary and benefits costs have 
increased dramatically. The average employee cost increased by 68% from 
FY 2001-2002 to 2008-2009. Program Administration funding has stayed 
relatively flat for the same period. As a result, staffing levels have 
dropped significantly.
    Additional funding is needed to serve our increasing caseloads and 
assist the families within our communities.
    It is important that we continue to collaborate with our state and 
Federal partners to ensure adequate funding--not only for the 
administration of the program but also to educate the public and reach 
out to those that may qualify.
    The Transitional Assistance Department is committed to increasing 
public awareness, accessibility and participation in the Food Stamp 
program. Working collaboratively with government and community 
partners, this goal is achievable.

    The Chairman. Thank you very much, Ms. Swanson, for your 
testimony. I know that it is intimidating to pick up the gavel 
when someone says, ``I've got to finish my statement.'' We go 
through that when we are giving the 1 minute spiels on the 
floor back in Washington, D.C. and sometimes they cut us off 
immediately when we go beyond our 1 minute. I want to thank 
each of you for your testimony.
    We will begin with questions. I will begin with myself with 
some questions, I will then call on Congressman Fortenberry, 
and then I will call on Congressman Costa for questions.
    I will start my first question addressed to Lisa Pino, the 
Deputy Administrator. Ms. Pino, thank you for your testimony 
and for traveling here to Southern California on a beautiful 
day that we are now going to remark that you are in Switzerland 
as Mr. Fortenberry indicated out here.
    Mr. Costa. Jeff, everyday is like that.
    The Chairman. During the summers it is like this. You just 
have to look beyond the smog. Thank you very much for coming 
here.
    Ms. Pino, given the audit in Texas, New York, and 
California casting doubt on the cost effectiveness of 
fingerprinting for food stamp applications to deter and detect 
fraud, given significant evidence that fingerprinting deters 
and discourages eligible applicants, why does the USDA permit 
states to use Federal food stamp funds to operate 
fingerprinting imaging systems?
    Ms. Pino. We are currently evaluating the efficacy of 
finger-imaging, and actually states have the flexibility of 
choosing the structure of that option. That is why there are 
four localities in the country that do institute finger-
imaging. However, we do take a strong stand and believe that 
finger-imaging is not the most cost-effective means for 
detecting dual participation. It is very expensive to operate.
    We also have heard from many constituent groups and 
community-based organizations that it does act as a deterrent 
from participation among Hispanics, especially in immigrant 
communities. We think that there are alternative fashions of 
just doing a simple data match of name and Social Security 
Number. Finger-imaging isn't very effective in terms of the 
cost and the investment needed, so we encourage California to 
consider suspending finger-imaging, possibly eliminating it 
altogether.
    The Chairman. The next question I have is: Can you explain 
to the Subcommittee USDA's current plan for marketing and 
outreach for Federal nutrition programs like SNAP.
    Ms. Pino. Absolutely. I would be delighted to answer that 
question for you, Mr. Chairman. First, a little bit about 
marketing and outreach just to explain how it works for the 
benefit of all at the hearing. We do a 50/50 match with 
outreach initiatives, so whatever the state invests up front, 
we provide a 50/50 match. At this time, we have about 40 state 
outreach plans all together. States aren't obligated to conduct 
outreach, but most of them do.
    In addition to state-level outreach, we also have national 
campaigns. We have a campaign of media involving radio and 
television. We have public service announcements. We do see a 
spike of activity and calls when those announcements are 
played. We have an 800 number and a call center. We also have 
an 800 number available to Spanish speakers. We have a lot of 
information in the form of educational materials that are 
available for download on the website in both English and 
Spanish.
    We also have an extensive national partnership network. 
Organizations such as the Catholic Charities are one among many 
of our partners. This is an area that we have dedicated serious 
attention to. With the new Administration, we are also working 
very hard to take the marketing and outreach plans that we do 
have, and more effectively coordinate a bigger more strategic 
plan so that we can better identify issues. One of the issues, 
as you have noted, Mr. Chairman, is that while caseload is 
increasing so quickly, we will need to bridge the gap with 
certain under-served communities such as Latinos, such as 
seniors, and most notably with the recession, the working poor. 
That involves an additional level of strategy and we look 
forward to working with California, as we look forward to 
working with many states during this time of crisis.
    I have also brought for your benefit some materials today. 
I have an oven mitt for you, Chairman Baca, for the next time 
you make a casserole at home.
    The Chairman. My wife would love that. She would love to 
get me to cook.
    Ms. Pino. Let give you one little example of how we are 
working hard to help states spread the good word of SNAP 
because, again, we cannot emphasize enough the economic value 
of this program. Traditionally, our retailers used to have a 
sign saying, ``We accept SNAP benefits.'' We are now 
encouraging them to advertise, ``We welcome SNAP benefits.'' 
That might seem like one little change, but to us and to 
retailers, it is paramount because it is taking SNAP out of the 
old perception, the old stigma and stereotype, and positioning 
it as nutrition assistance and inviting a new, fresh attitude 
that shows that SNAP is something that is a benefit to help 
people at a time of need. It is not anything that they should 
be ashamed of.
    The Chairman. Thank you. I know that my time is past. What 
we are going to do is we are going to have another go-around, 
but I am going to ask one final question.
    I think all of us agree that better education and 
nutritious foods and healthy lifestyles are essential to fight 
obesity. I understand that the SNAP-Ed Program plays a critical 
role in education. What does USDA plan to do in moving forward 
to improve the SNAP-Ed Program? You talked a little bit about 
that. Does the Department have any current plans to expand the 
program's outreach?
    Someone mentioned that we used to have homemaking classes. 
Is that what needs to be done in terms of curriculum and our 
educational system so that our children understand the value of 
healthy food and living longer? We have cut back a lot of the 
physical education programs. Could you elaborate a little bit 
on that? Then I will turn it over to Mr. Fortenberry to ask the 
next question.
    Ms. Pino. Absolutely. My pleasure. First, let me say that 
we view the role of SNAP-Ed, not only in the context of SNAP, 
but also in the context of all of our 15 food programs. What is 
amazing about our programs is that they literally can span a 
person's lifetime from birth to senior age. In the context of 
SNAP-Ed, we have legislation that authorizes us to use those 
funds for what is termed as ``SNAP-eligible communities.'' We 
understand that SNAP-Ed has to have somewhat of a focus in 
terms of targeting those who could be eligible for the program 
who are not aware of the program and who can benefit from 
learning about healthy eating and other good eating behaviors.
    Now, what is tricky about this question, and we are 
currently evaluating how we can expand SNAP-Ed, is that the 
more that you broaden the scope of that initiative, the more 
difficult it becomes to account for how you are going to track 
the outcome. How do you know that a specific initiative 
actually led to someone either enrolling in the program or 
changing their behavior? So, it's not to say that we aren't 
considering it. We are, but we are just currently evaluating it 
because it is very challenging.
    As you know, SNAP-Ed involves about $300 million. 
California is by far the largest player and has over $118 
million, so we want to very carefully weigh the balance between 
using it as an effective tool and engaging education, promoting 
these early eating behaviors, while at the same time, trying to 
be very committed to the fiscal responsibility of ensuring that 
those monies are also leading to direct results.
    The Chairman. Thank you.
    Now I recognize the gentleman from Nebraska, Mr. 
Fortenberry, for 5 minutes. Please stay to 5 minutes.
    Mr. Fortenberry. With flexibility determined by the 
Chairman. Thank you, Mr. Chairman.
    Again, thank you all for your insightful testimony. I want 
to turn to you first, Ms. Pino, as well. You stated that low 
participation rates means less healthy food at home. I assume 
you mean that there is evidence that those who are benefiting 
from the SNAP Program are selecting healthy choices at the 
grocery store.
    Now, it is also my understanding that there is no evidence 
to suggest that obesity rates among children in the SNAP 
Program are lower than the population at large. Can you unpack 
what seems to be a conflict there.
    Ms. Pino. SNAP is termed the Supplemental Nutrition 
Assistance Program because, as you noted, it is a supplement. 
It is not meant to account for a household's entire food 
budget. We do not see any link between SNAP participants and a 
higher rate or incidence of obesity. We are often asked why 
doesn't SNAP restrict food purchases? How do you account for 
that these dollars are spent for healthy eating?
    The way we approach this conundrum is that we don't view 
obesity or the lack of healthy eating at home as just an issue 
that pertains to low-income households. We see this as a broad 
cultural epidemic affecting the entire country, and we see it 
as something that is pretty analogous to smoking. It took 
decades of repeated messages and repeated work for smoking to 
become a rare instance, as it is today, and that really is a 
generational change.
    However, we very much believe in vehicles like SNAP-Ed to 
teach households not only about making healthy purchases but 
also about engaging physical in activity, about making 
purchases that are affordable. We want to use this vehicle in a 
constructive, positive light. We are very excited about our 
Healthy Incentives Pilot Program. We received $20 million, 
authorized by Congress, for this pilot which is to launch this 
year. We are in the request-for-proposal mode right now.
    The Healthy Incentives Pilot Program is to examine whether 
you can incentivize healthy purchases at the point of sale--if 
people buy more fruits and vegetables and if they receive a 
greater economic benefit for doing so, if incentives are going 
to change behavior because that really becomes the hardest 
connection to make. It is one thing to provide that education 
and to provide that option, but actually tracking whether it 
has really made a long-lasting impact in changing behavior is 
the most difficult obstacle to prove. But, it is one way of 
looking at it from a more constructive incentive than going 
down the road of restricting behavior and making people feel 
isolated for their purchases.
    Mr. Fortenberry. One of the inherent conflicts here is, and 
Chairman Baca alluded to this earlier, that in the initial 
formative stages of these programs the intent was to increase 
caloric intake. So, what we are all trying to do is change that 
culture. The difficulty of that, though, is foods high in 
caloric intake are less expensive, potentially, than the foods 
that would necessarily improve health outcomes. This is the 
tradeoff and dilemma.
    Ms. Pino. Just to add to that, Mr. Congressman, that is one 
reason why we are expanding our farmer's markets and we are so 
excited about it, especially here in California. We want to 
also incentivize people to buy fresh fruits and vegetables. We 
also have other initiatives like Know Your Farmer, Know Your 
Food that talks about the important economic and health 
connection of buying locally.
    You are right that hunger and obesity do coexist. It is a 
paradox, but that is why we are more committed than ever to 
looking at how we can improve healthy eating patterns for 
families in all our programs.
    Mr. Fortenberry. Let me segue from what you said. This may 
be a little bit beyond your realm of expertise but if you and 
the panel want to comment on this as well. The Fresh Fruits and 
Vegetables Snack program was greatly expanded in the last farm 
bill to provide more low-income students with access. Can you 
comment as to how this program is working in California?
    Ms. Pino. I will just say very quickly, and I will let my 
colleagues answer, that the Fresh Fruits and Vegetables Snack 
program did begin in California as I understand it. We have 
about $5 million apportioned for that. It has been, from my 
knowledge, very successful. What is great is that about 90 
percent of the schools in the program are those that offer free 
and reduced-price meals, so that is very exciting to us.
    Ms. Webb-Curtis. I would not want to pretend that I can 
speak to it but I would be glad to get you information about it 
however.
    Mr. Fortenberry. Thank you.
    Ms. Swanson. In San Bernardino County, it has just recently 
started up in the desert at a few local farmer's markets.
    Mr. Fortenberry. I am finished for now.
    The Chairman. Thank you very much. It is a good question 
and one that we need to address. I know that we have school 
board members here changing their philosophy and looking at 
policies in using fresh fruits and vegetables.
    Now I would like to turn to the gentleman from the Central 
Valley, Congressman Jim Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. To both the 
Federal and state witnesses, I spoke of the challenges this 
last summer with the large unemployment and the food lines that 
I witnessed and participated in to help provide food in the 
areas where the droughts occurred.
    Since we have both the USDA and state witnesses here I 
would like to talk about the coordination of food banks. The 
food banks in a number of our areas indicated that they had 
come close, and we tried to be helpful, to the end of their 
food and administrating fund supply. During that period last 
fall we inquired to the USDA whether or not they were following 
up on this. They indicated they had purchased more than 
adequate supplies of food and supplied the state with 
administrative funds.
    Our food banks at the time were unclear and very fearful 
that there was going to be an end of that availability. Could 
you talk about how the USDA and State Department of Social 
Services determines what and when and how much food and 
administrative funds are provided? If you cannot provide the 
answers, I would like you to get back to me on those points.
    Ms. Pino. I do have some specific information about the 
amounts. I don't know if you want me to actually go through all 
of the fiscal amounts right now. I can.
    Mr. Costa. For the sake of brevity why don't you provide 
that in a written statement because I have some other questions 
I want to ask.
    Ms. Pino. I will provide that later. Okay.
    Mr. Costa. Ms. Webb-Curtis, you care to add anything to 
that?
    Ms. Webb-Curtis. I also have information about amounts but 
I can't speak to that.
    Mr. Costa. Also, because I worked with the Schwarzenegger 
Administration and folks, in some of these food lines, sadly in 
the most productive agricultural region in the world, I noticed 
that there were canned vegetables that were purchased from 
China. I mean, talk about nonsensical. While you have the 
option the preference is to buy American food products and they 
said they were going to correct that. Would you please let us 
know about that?
    Ms. Webb-Curtis. I will look into that.
    Mr. Costa. Number two, it was spoken earlier by Congressman 
Fortenberry about the importance of fruits and vegetables and 
obviously we want to encourage that. We know they are more 
costly under the SNAP program than, say, potato chips. Do you 
believe it is worthwhile providing additional incentives to 
purchase more healthy food options like fruits and vegetables? 
You talked about some of the things that you were doing when he 
asked you the question earlier. What are some of the logistical 
barriers to providing the system? Like Safeway provides bonuses 
in their purchasing. Can you comment, please?
    Ms. Pino. Well, I think that overall, and I would like to 
actually make a quick note about food banks as well, but 
overall the tricky part is the coordination from the local 
level, the state level, and the Federal level. At the same 
time, more than ever, we need to be engaging partners whether 
they are community-based organizations, faith-based 
organizations. We are here at a hospital today. We have to more 
effectively engage the health and medical community because 
they really serve as vital links to that coordination.
    Mr. Costa. I want to get to that point but if you could----
    Ms. Pino. I would just say, for instance, food banks serve 
as a front line.
    Mr. Costa. Right.
    Ms. Pino. The more that we can have those front lines 
distributing information, building awareness, engaging 
partners. For instance, with our farmer's markets and some 
localities there are additional incentives so that when people 
buy fruits and vegetables, they also can receive an additional 
incentive so those fruits and vegetables become more 
affordable.
    Mr. Costa. Some of our areas have been innovative, and it 
gets back to the point that the Chairman was raising a moment 
ago in terms of access and taking advantage of all those who 
potentially can qualify. Some of our areas have been innovative 
and they have one-stop-shops that include nutrition assistance 
for health, where health clinics also provide funding for WIC, 
Women and Infant Children, as well as SNAP depots. What are you 
folks doing to further incentivize or encourage that 
collaboration, one-stop shopping?
    Ms. Webb-Curtis. I am not sure whether you are directing 
that at me.
    Mr. Costa. To you, please, Ms. Webb-Curtis.
    Ms. Webb-Curtis. I cannot speak to the one-stop shopping. I 
can tell you that there is a lot of enthusiasm in California 
for the incentive program. We don't have it up and running but 
there are people----
    Mr. Costa. Is the state providing any funding for clinics 
to co-locate some of the sign-up process?
    Ms. Webb-Curtis. Not to my knowledge but that may be the 
case and certainly I will find out.
    Mr. Costa. Why don't we look at that? It seems to be that 
would be helpful because I have one county, Kern County, that 
does that, it is very innovative. I have another county, Fresno 
County, that doesn't. The differential between those that sign 
up and those that don't in the two counties is distinct.
    My time has expired. Thank you very much.
    Ms. Swanson. Congressman Costa, could I just share with you 
that in San Bernardino County we are working on an integrated 
health initiative that includes our Behavioral Health 
Department, our Public Health Department. I also have 
eligibility staff that will work at these clinics to ensure 
that Medi-Cal applications and Food Stamp applications are 
taken at the time people come in for services. We are really 
very excited about it. I think it is going to be a very 
promising venture.
    Mr. Costa. Good for you. Congratulations.
    Ms. Webb-Curtis, that other aspect with regards to where 
you are purchasing your food from, I do want to stay on top of 
that.
    Ms. Webb-Curtis. Oh, yes. I have made a note.
    Mr. Costa. That is an embarrassment. Thank you.
    The Chairman. Thank you very much, Mr. Costa, for your 
statement and your question, especially as it pertains to the 
one area. I think both the Minority Ranking Member and I are 
very much interested in looking at what we might do from a 
national perspective in terms of policy to make sure that we do 
buy products that are made right here in the United States for 
a multitude of different reasons. A lot of the products that 
come from another country do not have the food safety 
requirements that are required here in the State of California, 
especially as it pertains to pesticides, and the impact it 
could have on children, and other individuals.
    We will begin a second round of questions and I will begin 
the first one. I will ask Ms. Webb-Curtis first. The Committee 
recognizes that California has increased enrollment in Food 
Stamps for SNAP in recent years. As we all know the current 
economic downturn is the primary reason for this. What efforts 
has CDSS undertaken to identify the level of needs in our 
states, Number one? Number two, how does CDSS adjust policies 
and practices to respond to the increased need during difficult 
times like these?
    Ms. Webb-Curtis. I think I will answer your second question 
first and that has to do with adjusting policies. We have 
worked very closely with many of the partners in this room 
including the counties, California Food Policy Advocates, and 
other community-based organizations to look at how we can do 
things better to address the needs of those whose nutrition 
needs to be improved.
    In addition, we work with our partners in public health to 
manage the outreach program and the nutrition education 
programs. I think I might have explained our increase in 
outreach efforts over the last year which were considerable. I 
have tried to communicate that we have really done a lot of 
work in areas that I think you and your Committee Members would 
be happy about, in terms of our modified category for 
eligibility. For example, to allow individuals to apply and not 
be subject to the resource test. It is something that we work 
at all the time. We are bound by certain state statutory 
requirements, and we work with our legislative partners as 
well, to make changes that are beneficial to this population.
    The Chairman. Thank you. The next question I have is how 
much does finger imaging cost the state? Do you believe this is 
cost effective? In today's article there is a constituent in 
the area that says finger imaging has deterred a lot of 
individuals from even going and applying.
    Also, what type of information is gathered. I stated at the 
beginning that we had problems in privatizing collection of 
some information in Texas and in Indiana. A lot of people are 
very much concerned when you look at all of the data and 
information, especially now, as you look at identity theft.
    Or individuals may say in filling out the application, 
``They are asking for too much information and a lot of that is 
available. I don't want the IRS to find out I didn't pay my $10 
payment at Target.'' I was going to mention another store but I 
better not mention that one. This presents a problem. Can you 
elaborate on that, please?
    Ms. Webb-Curtis. Well, first, let me tell you that I cannot 
tell you how much the fingerprint imaging cost the state, but I 
can certainly provide that information to you.
    The Chairman. Thank you.
    Ms. Webb-Curtis. As Ms. Pino mentioned, the information 
that we have available to us through a study indicated that one 
of the most important reasons that individuals do not apply for 
the program is that they don't know that they qualify, and that 
they are afraid of the administrative burdens. The fingerprint 
imaging didn't appear to be an issue in that particular study.
    Be that as it may, California does have a system of 
determining eligibility that is done through four automation 
systems, soon to be three, that essentially don't talk to each 
other at the moment. In other states that have a single 
eligibility system, of course there are other ways of detecting 
duplicate aid that would be simpler. In California it is not so 
simple. That is where we are on the fingerprint imaging.
    The Chairman. Okay. Ms. Swanson, given your experience, 
what are the most serious barriers to better SNAP participation 
that we face here in San Bernardino County?
    Ms. Swanson. I think a lot of those barrier are things that 
we talked about, the perceptions or misperceptions people have 
about the program. People don't necessarily want to go to the 
Welfare Department. They don't necessarily see Food Stamps as a 
nutrition program. They kind of lump it in as an entitlement 
program with the CalWORKs benefits.
    I also think from comments that we have heard from our 
community, members that come in and do apply, that the finger 
imaging is indeed a concern for many of them. At times that is 
one of the first questions that they do ask. Sometimes we take 
an initial application and then when we explain they are going 
to have to wait to be finger imaged they leave our offices. 
That is why I really think that our online application process 
and going to the phone interviews is really going to improve 
access in San Bernardino County.
    The Chairman. Thank you.
    Mr. Fortenberry.
    Mr. Fortenberry. Yes, Mr. Chairman. I do want to return to 
my earlier question and further unpack this issue as to seeing 
if there is any evidence of a change of buying patterns yet. As 
you know, the farm bill provides significant resources and is 
attempting to institutionalize cultural changes towards more 
healthy choices in this program, as well as your outreach 
efforts.
    The stimulus program dumped huge amounts of new resources 
into the SNAP program. Has that provided evidence of any change 
of buying patterns toward more healthy food selections?
    Ms. Pino. I think the Healthy Incentives Pilot really will 
serve as the first paramount in-depth examination of that 
query. It will probably take a couple of years to really 
accumulate all that information, which doesn't seem like too 
long of a time--in the world of research that is a pretty 
reasonable time.
    It cost $20 million which sounds like a lot of money, but 
because we are going to do such in-depth research and comparing 
shopping patterns ``before'' versus ``after,'' I think that 
examination will really give some specific information about 
what the potential impact is, the connection between changing 
food pattern consumption, how that links to better health, how 
that can also lead to increased physical activity and promote 
better health in the realm of disease prevention and promotion. 
I think the HIP Pilot really will serve to do this.
    Mr. Fortenberry. I think you understand what I am driving 
at given my earlier testimony in the opening statement as is 
related to healthcare outcomes, as well as prudence around 
governmental budgeting. Because, we will pay to fix or cut or 
prescribe in the healthcare system but not incentivize 
prevention and wellness and this is one of the cost drivers in 
our system that is leading to chronic diseases. There is 
linkage between nutritional outcomes.
    In that regard I appreciate your commentary on local 
farmer's markets, Know Your Farmer, Know Your Food. 
Reconnecting the urban and the rural, the farmer to the family 
is not only a growing trend because, given the fragmentation in 
our society, people are looking for that sense of connectedness 
from a sociological perspective but it has real potential power 
to improve healthcare outcomes as we move better nutritional 
selections directly to the table. But, it also creates local 
economies, the revival of local economies.
    There are a multitude of opportunities here. It is a bit 
ironic that this is the way we used to do things. This is not 
new. We are returning to something traditional. My family was 
engaged heavily in the Cooperative Extension Service. My 
grandfather was a county agent, my mother an extension 
educator, 4-H agents they used to be called. I loved looking at 
the old pamphlets that aren't that old. Many of you may 
remember growing up with them. Congressman Costa had mentioned 
he was in 4-H and so was I. Were you in 4-H? You missed that 
chapter of life.
    This was a part of the USDA's effort to acculturate through 
the land-grant system in the classrooms directly, as well as in 
family education, this common sense essential aspect of 
balancing healthy lifestyles by focusing primarily on 
nutrition. We are trying to recapture something that is old. I 
would go dust off all of those old extension pamphlets if I was 
you that are a bit anachronistic.
    Ms. Pino. No, it's funny that you say that because actually 
my colleagues and I----
    Mr. Fortenberry. They are very interesting.
    Ms. Pino. Yes, absolutely. We were recently at the 
Smithsonian in Washington. They just opened a gallery of food 
stamp artifacts and we were looking at the old food stamp 
coupon books. The back of those books, even if they were 10 or 
20 or 30 years old, they still had the same information that we 
are preaching today, like portion size and fruits and 
vegetables and take 15 minutes to exercise. It really is 
nothing new.
    On your point, Mr. Congressman, about the connection of 
localism, as you noted aside from the amazing economic impact, 
because when you purchase something that has been grown locally 
it has such a higher magnitude of economic stimulus. What is 
really exciting in the Know Your Farmer, Know Your Food 
initiative is to see the impact on children. Today, children 
think food comes from the supermarket.
    When you ask them where does food come from, they think it 
comes from plastic-wrapped containers. They really don't know 
enough about how food is grown. It is exciting to encourage 
that respect and understanding because the more that you do 
that, what is amazing is you will see how children will start 
changing their behavior and then they act as ambassadors at 
home. I visited a school in Vermont not that long ago and it 
was amazing to see that the food prepared and distributed at 
the school was grown in a garden that used to be a desolate 
lot. How the kids loved going to the garden.
    They are so excited to eat fruits and vegetables now 
because they have met the farmer who grew them. They have seen 
how they are grown. They have nurtured those plants. Having 
that emotional connection, especially with children at such a 
young age, we think that is a very significant and empowering 
means of helping to develop adults with good eating behaviors 
for life.
    The Chairman. Thank you. I would like to thank each of the 
panelists for being here. I would like to call the next panel, 
panel two, to the table. I would like to just state that 
originally when the farm bill was done there were 38 million 
people who were going hungry and that is before we went into 
the big depression that we are in, so it is even higher than 
that in terms of hunger in the United States.
    We still have a lot of work ahead of us in marketing and 
reaching out to assure that not only do we reach needy 
individuals, but at the same time look at it from a cost 
effectiveness view. With that we would like to thank each of 
the panelists for being here. We would like to call our next 
panelists to the table. While they are coming up, I will have 
at the very beginning Congressman Jim Costa introduce a 
constituent, an individual from his area, and then I will 
introduce the other panelists.
    We will begin if we can have your attention, please. If you 
would be silent so we can begin the second panel. I would like 
to welcome the panel up here. I will introduce a couple of the 
individuals right now. Dr. Guillermo Valenzuela who is one of 
our panelists. We have Dr. Webster Wong from Arrowhead Medical 
Center here in Colton, California. We have Matthew Sharp, 
Senior Advocate, California Food Policy Advocates from 
California. We have Matthew Marsom, Director of Public Health 
Policy and Advocacy from Public Health Institute in Oakland, 
California. Then we have Ms. Claudia Page, Co-Director of The 
Center to Promote HealthCare Access to Oakland, California.
    I will let the gentleman from Central Valley, Mr. Costa, 
introduce one of his constituents.
    Mr. Costa. Thank you very much, Mr. Chairman, and thank all 
of you. This second panel is very exciting and I appreciate the 
expertise that all of you provide for us. Unfortunately the 
Chairman has been very kind to me. Not that that is 
unfortunate. I appreciate that but unfortunately I have to 
leave. I won't be able to stay for the entirety of the second 
panel because I have another hearing at 1:00 in downtown Los 
Angeles.
    Edie Jessup is the Central Valley Regional Obesity 
Prevention Program Director. She has a wealth of experience. 
She is a pistol as you will find out in her testimony. She grew 
up in Porterville in Tulare County and has been working in a 
host of efforts in advocacy and direct service work with 
neighbors that happen to be poor and, thereby, hungry, homeless 
and some without access to healthcare.
    She has focused on advocating there with the State 
University of Fresno. Go Bull Dogs. Go Dogs. We appreciate her 
good work with Fresno Metro Ministry, Girl Scouts, the youth 
county homeless shelters and the Sanford Public Library for 
Adult Literacy Programs. Mr. Chairman, you have a good panel 
here, the second panel, and I am really pleased to hear. I 
won't be able to hear all of you but I have your statements and 
I have read them and I will have some questions if I am not 
able to remain and submit them after the testimony.
    The Chairman. Thank you very much, Mr. Costa, for the 
introduction.
    At this time we would like to begin with Dr. Valenzuela. 
Please begin. You have 5 minutes.

      STATEMENT OF GUILLERMO J. VALENZUELA, M.D., M.B.A.,
            ASSOCIATE MEDICAL DIRECTOR AND CHAIRMAN,
            DEPARTMENT OF WOMEN'S HEALTH, ARROWHEAD
              REGIONAL MEDICAL CENTER, COLTON, CA

    Dr. Valenzuela. Mr. Chairman, thank you for inviting me to 
talk. Since you have my statement I will just talk a little bit 
about what I consider important in this area of obesity in 
general. You know, if you have ever seen a Chihuahua date a 
German Shepherd you realize that if the female is a Chihuahua 
that she cannot use the gene that come from the German Shepherd 
or huge dogs. The mother controls the size of the baby in utero 
and in that way she is able to have puppies. They will grow 
really rapidly thereafter using the genes of the father. The 
important part of this is that in utero we determine a lot of 
what will happen given the rest of our life.
    For instance, if the mother is overweight and eats a lot, 
or the mother is underweight and the baby weighs very little, 
50 years later or way before we have myocardial infarction, 
diabetes, hypertension. Because of the mother's environment 
regardless of your genes it can make things a lot worse.
    I think that in order for us to deal with the problem of 
obesity or undernutrition we are going to have to look at a lot 
of other factors, not just telling children to eat this or eat 
that. I think this is great what you guys are doing with the 
SNAP program and so on. However, I personally feel that many 
times a child is told at school to do this or do that. They go 
home and they get Cheetos and they get cheese and they get a 
big hamburger or whatever depending on the socioeconomic 
factors and that is what they will eat.
    So recently here we started a program trying to intensively 
teach pregnant women how to eat right apart from what the state 
is doing and to see how big the problem is. For instance, we 
have 80 women that we were trying to do intensive counseling, a 
group of 40 and another we work with. We do so much counseling. 
The BMI of these pregnant women was 40 or there about. We had a 
pregnant woman who weighed 680lb. We had multiple pregnant 
women with severe problems.
    If you think of those children, they are condemned for life 
because it is already going to start with insulin resistance at 
birth. They will have a much higher chance of being obese. If 
the parents are obese, there is a much higher chance for them 
to be obese. The problem I think that we are going to have, and 
we are trying, is to face it from a cultural point of view.
    For instance, here in the capital Mr. Petree have set up 
Find the Feet that people come and walk around, go up and down 
stairs. They have a running competition.
    Dr. Wong is working in another area with children. What we 
are trying to do in pregnancy is try to get these women support 
during pregnancy, and when they go back to their community to 
try to work with community-based organizations so we can 
provide support. Diet and exercise program success is very 
limited, for 2 years.
    In every place that they have done any studies they have 
shown that after 2 years everything goes back to normal, it is 
only when you change the whole culture of a group. Right now 
there are studies showing that children are watching 7 hours a 
day between video games, the TV or whatever. You have any type 
of food, even a pretty healthy food, and you eat a lot of 
pretty healthy food and you don't do anything you are going to 
get fat anyway.
    Personally I like the theory of pregnancy because I blame 
my parents on my 23 pounds that I am overweight. But the point 
is that I think the city needs to design places where children 
can safely run and play and teach the parents the same thing. 
This is what we are starting to do here.
    First we start with the pregnant women and then we are 
trying to get back into the community with the help of 
Supervisor Gonzalez to try to see if we can interact with 
community-based organizations in order to provide support to 
these women and trying also with the schools and children in 
other areas. This is what we are trying to do here. I think it 
is important that we take this program to multiple places from 
exercise and education, not only to the children but the 
parents and affecting the expecting mother. That is what I 
would like to say.
    [The prepared statement of Dr. Valenzuela follows:]

Prepared Statement of Guillermo J. Valenzuela, M.D., M.B.A., Associate 
      Medical Director and Chairman, Department of Women's Health,
             Arrowhead Regional Medical Center, Colton, CA
    The relevance of addressing obesity as a major health problem is 
the projected $147 billion in costs related to healthcare.
    The causes for obesity are multi-factorial. The process begins in 
utero. We know that if a baby is born whom weighs less or more than he 
should for the gestational age he is born at, a higher rate of insulin 
resistance is more likely. Barker in England demonstrated the 
relationship between birthweight and diabetes, heart disease, insulin 
resistance and obesity. Later, other investigators have added the 
metabolic syndrome. If the mother undergoes gastric bypass surgery, 
children born after the surgery tend to have a lower prevalence of 
obesity.
    Animal studies show that a mother's weight and health influence her 
child's birthweight and size. Generally, if one of the parents in the 
household is obese, the child is two to three times more likely to 
become so.
    Evidence also points to ethnicity as a factor. For example, 
childhood obesity is more common amongst American Indians, non-Hispanic 
blacks and Mexican Americans than in non-Hispanic whites. Clearly, 
there are socioeconomic factors as obesity is more common amongst low-
income populations.
    Public perception of criminality, drugs, urban violence, etc. in 
residential areas are a factor. They have made neighborhoods unsafe for 
children to play and traverse (walking, running, bicycle); therefore, 
decreasing considerable ``public space'' and limiting outdoor physical 
activities.
    Gender also affects obesity. 80% of teenage girls that were obese 
as children, remain obese, versus only 30% of males under the same 
circumstances. Furthermore, in recent years there is a decrease in 
physical activities both at home and at school, increase in usage of 
video games, increase in time spend watching TV (up to 7 hours/day), 
high-caloric snacks (very popular with younger teen); all of these 
factors are associated with increase incidence in obesity.
    Complicating the solution, is that choices confronting care-givers, 
schools, etc. are defined also by cost-effectiveness in the food 
selection. The cost of food with good nutritional value is higher, 
while food with high-calorie and fat content is subsidized and thus 
cheaper and very abundant.
    Many studies examine obesity in adults and children and evaluate 
the treatments of diet, exercise and use of medication and surgery. 
This research shows that treatment of obesity successes are very 
limited in the long-term (2 years), except for surgery. As for the last 
option, even though the risks of surgery have been decreasing 
significantly with time, there are still major obstacles. These include 
financial cost and the risk of morbidity/mortality to treat a 
significant portion of the society.
    Any solution will require an integrated system, utilizing portions 
of prenatal care, to be sure that women gain a healthy amount of weight 
during pregnancy. It will require a community effort to address 
multiple causes such as awareness of the impact of a mother's weight on 
her child's, opportunity and encouragement for exercise for children 
and adults and access to adequate nutrition at schools. The bottom line 
is to positively influence a change in obesity trends and work together 
on multiple levels to address the problem.

    The Chairman. Thank you very much, Dr. Valenzuela.
    Next we have Dr. Wong.

      STATEMENT OF WEBSTER A. WONG, M.D., M.B.A., CHIEF OF
   PEDIATRICS, ARROWHEAD REGIONAL MEDICAL CENTER, COLTON, CA

    Dr. Wong. Thank you very much, Congressman Baca, 
distinguished guests, Congressmen. My name is Dr. Webster Wong. 
I am Pediatric Chair of Arrowhead Regional Medical Center. What 
we are looking at is calculated by some experts to be a $147 
billion price tag per year that America spends on obesity and 
obesity-related illnesses. Some experts will also say that 
price tag will go up to $1 trillion by 2030.
    For kids, Medicaid kids who are obese cost at least $6,700 
per year for obesity-related issues and across the nation, even 
here in San Bernardino, upwards of 18 to 25 percent of all 
adolescents and children are obese or are overweight. Seventy 
percent of those kids will be obese adults.
    Not only are issues of obesity-related diseases affecting 
kids but also other issues such as school performance. Upwards 
of four times the number of school problems occur in obese kids 
and upwards of 30 percent of kids will have more thoughts of 
suicide, depression, and feelings of hopelessness. There are 
many reasons for issues of obesity, namely socioeconomic 
problems, the urbanization of America. Kids are more concerned 
about safety rather than going to their playgrounds or their 
local parks.
    The technology factor that Dr. Valenzuela alluded to: there 
is more TV time. There are more computers and more video games 
to deflect and defray the kids away from physical activity. 
Also, the family unit is a bit affected. There are more single-
parent families. Also there is a de-emphasis on family 
mealtime, too.
    Obesity disease states, when it comes to pediatrics, 
include many things and with long-standing consequences. 
Namely, type 2 diabetes. Back 20 years ago this was named adult 
onset diabetes, but we are seeing patients who are 7, 8, 9 
years of age who qualify for diabetes. That along the lines 
will contribute to issues of heart disease, atherosclerosis, 
stroke, and also asthma and certain cancers. Depression is also 
an issue with regards to these obese kids.
    Certainly this affects their productivity not only from a 
school standpoint but from a worker standpoint as they get into 
the workforce. Obesity has caused some issues with 
discrimination. Obese people earn less and undergo a lot of 
discriminatory actions against them.
    The SNAP program is a valuable program, as we all know. 
However, studies show that moms who are primary food buyers and 
food preparers really don't like to engage in certain behaviors 
that increase cleanup time. Certainly they are not always 
around their kids when mealtime occurs. So, therefore, kids 
have poor role models. Many families are struck with obesity 
not only with their kids but with parents, too.
    Serving-size issues and, again, no family mealtime leading 
to increased TV time all contribute to obesity.
    Studies also show that lower-income families, kids, 70 
percent eat less grains, 50 percent eat less fruit and there is 
certainly a lower amount of vitamin E, zinc, and calcium levels 
in those diets, too. Everyone has a face to obesity. My face is 
a 14 year-old Hispanic female by the name of Gabriella, one of 
the 24,000 visits that we see here at Arrowhead Regional 
Medical Center Pediatric Clinic per year.
    She is 300 pounds and 54" and she has a debilitating hip 
issue called SCFE, slipped capital femoral epiphysis, which 
limits her ability to move and that increases her downward 
spiral of hypertension, of obesity, of depression. She really 
doesn't have the ability to get herself out of this spiral 
affect.
    Her mother is obese and both of them, although they 
understand the message, lack the motivation to be able to get 
her to lose weight. As a provider we are all overwhelmed with 
access issues, and we all have issues in trying to get a 
concerted message out to try to fight obesity through adequate 
nutrition.
    At Arrowhead, we are poised to deliver that concerted 
message. We have three mobile clinics. We already have existing 
relationships with schools and we are able to see patients 
right there in schools. We have our FHCs, our family health 
clinics, and pediatric specialists. Ultimately we look forward 
to being part of the solution and we look to our leaders to 
show us the way so that we can address this pervasive problem. 
Thank you very much.
    [The prepared statement of Dr. Wong follows:]

     Prepared Statement of Webster A. Wong, M.D., M.B.A., Chief of 
       Pediatrics, Arrowhead Regional Medical Center, Colton, CA
    Pediatric obesity and its related conditions are serious 
consequences to an increasingly unhealthy lifestyle in the United 
States. Poor awareness, cultural and socioeconomic factors, genetic 
predisposition and educational deficiencies contribute to this 
widespread problem.
    Obesity is measured by a Body Mass Index (BMI) of over the 95th 
percentile. Overweight children are defined by a BMI between the 85th 
and 95th percentile.
    Obesity in children has a direct causal effect on the development 
of various disease states: diabetes, cardiovascular compromise, 
hypertension, musculoskeletal ailments and cancer. Recent studies show 
that American children are fatter, more sedentary and prone to lifelong 
illnesses than international children. Statistics bear out these 
observations: The percentage of overweight and obese children has 
tripled since the 1975. More than 10% of infants and toddlers and 
nearly 18% of adolescents are obese.\1\ More than 70% of them will be 
obese adults. Furthermore, \1/3\ of U.S. children eat fast food every 
day. Those that do stand to gain about 6 pounds each year. In addition, 
Hispanic and African American teens are more at risk than other 
ethnicities.
---------------------------------------------------------------------------
    \1\ Cynthia L. Ogden; Margaret D. Carroll; Lester R. Curtin; Molly 
M. Lamb; Katherine M. Flegal. Prevalence of High Body Mass Index in 
U.S. Children and Adolescents, 2007-2008. JAMA, 2010; 0 (2010): 2009. 
2012.
---------------------------------------------------------------------------
    The annual cost of obesity related problems has been estimated at 
$147 billion. If unchecked, experts calculate that the yearly 
expenditures will top $1 trillion by 2030.\2\ The cost for healthcare 
for an obese child is three times that of an average child. Mean annual 
healthcare costs for an obese child are $3,700 for insured and $6,700 
for Medicaid plans.\3\ More than 300,000 deaths each year are 
attributed to obesity.\4\
---------------------------------------------------------------------------
    \2\ Benchener M. Obamacare's Impact On Obesity, Liberty, And Cost. 
2009. The Philadelphia Bulletin. Available at: http://
www.thebulletin.us/articles/2009/08/10/commentary/op-eds/
doc4a8064c80fd5f937691673.txt. Accessed August 2009.
    \3\ Ibid.
    \4\ American Academy of Child and Adolescent Psychiatry, May 2008, 
Number 79.
---------------------------------------------------------------------------
    Psychosocial issues as a result of obesity influence mental health, 
employment, and school performance. Obese children and adolescents plan 
or contemplate suicide 32% more often and are 20% more likely to have 
thoughts of hopelessness than healthy adolescents. Roehling described 
that overweight workers were stereotyped with negative traits and as 
socially/emotionally handicapped, which resulted in lower wages and 
benefits. School performance is negatively affected four times greater 
than healthy-weight students.\5\
---------------------------------------------------------------------------
    \5\ Schwimmer, Jeffrey B., Tasha M. Murminkle and James W. Varni, 
``Health-Related Quality of Life in Severely Obese Children and 
Adolescents,'' Journal of the American Medical Association, vol. 298, 
No. 14, April 9, 2003.
---------------------------------------------------------------------------
    Culturally, widespread obesity can be linked to America's societal 
evolution over the past 3 decades. As a whole, Americans have embraced 
a culture of fast, poorly nutritious food, increasing divorce rates, 
urbanization, sedentary activities, and skyrocketing medical costs. 
Fast food is more accessible and easier to prepare compared to cooking 
at home. The rates of children raised in broken and dysfunctional homes 
are steadily rising, leading to a de-emphasis on healthy eating. More 
children are unable to exercise in cities where parks and playgrounds 
are unsafe or unavailable. In exchange, kids are adopting non-active 
lifestyles filled with video games, television and computers.
    These factors are felt no more acutely than in poor, working class 
communities. Parents struggle with maintaining income causing their 
parenting skills to suffer. Nutrition education seems to be a distant 
priority and obesity envelopes the family unit. Medical costs are too 
high and access is too limited to halt the long term consequences of 
obesity. The downward spiral of these communities continues.
    Many possible solutions are being considered to reverse these 
staggering statistics. Successful programs must rely on changing the 
culture of obesity by involving the family unit, community resources, 
education, healthcare and government. Children and their families 
should benefit from a comprehensive effort to guide and to re-educate 
dietary and exercise choices, with continued contact with healthcare 
providers.
    By combining a comprehensive medical program utilizing measurable 
outcomes and a socioeconomic, culturally based educational component to 
drive home specific methods to combat obesity, a program can answer 
many questions. ``How can we facilitate better recognition of obesity 
before problems arise?'' ``What is needed for a basic pediatric obesity 
work-up that will demonstrate health improvements over time?'' ``How 
can we involve the whole family unit to combat this pervasive 
problem?'' With specific answers to these complex issues, a recipe for 
dealing with one of the most dangerous epidemics of our time can be 
created.
    As stated, the road to obesity is multi-factorial. Aside from 
genetic proclivities, many of the key elements to develop an obese 
child can be addressed effectively, yielding to a suspension and 
perhaps reversal of the devastating results from obesity.

    The Chairman. Thank you very much, Dr. Wong.
    Mr. Sharp.

 STATEMENT OF MATTHEW SHARP, SENIOR ADVOCATE, CALIFORNIA FOOD 
               POLICY ADVOCATES, LOS ANGELES, CA

    Mr. Sharp. Good morning, Chairman Baca, Ranking Member 
Fortenberry, Representative Costa. My name is Matthew Sharp. I 
work with California Food Policy Advocates. We are a statewide 
nonprofit organization whose mission is to improve the health 
and well being of low-income Californians by increasing their 
access to nutritious and affordable food.
    Since the mid-1990s I have had the privilege of working 
with this organization to try and make various changes in both 
policies and programs in California communities, I work in Los 
Angeles primarily, to improve health and well being.
    We are focused on the Federal food programs, both food 
stamps as a recession fighter and an anti-hunger tool, and the 
broad range of Federal food programs as tools to help prevent 
childhood obesity.
    I'll talk extensively about some of the strategies that 
might assist with reducing the obesity epidemic, but today I 
was invited to present just a few brief remarks on steps that 
might improve participation in the food stamp program.
    First a few numbers to help set the context. Unemployment 
in California has increased over 140 percent in the last 24 
months. That is an astronomical increase in need among 
households, among families. Here in San Bernardino County 
nearly 14 percent is the official unemployment rate.
    According to UCLA there are possibly 3.1 million California 
adults that are suffering food insecurity and several million 
additional children in those households. The suffering is real. 
The increase in households seeking emergency food assistance 
and help from a variety of charitable sources has skyrocketed 
remarkably during the course of the recession.
    As you've just heard from the two distinguished doctors 
here at the hospital, the rate of childhood obesity has 
increased dramatically. We do a lot of work in the school 
setting. Forty percent of the 9th graders in the low-income 
schools are overweight and unfit, so we have an enormous and 
complex problem to solve.
    What I wanted to do was to highlight for you a couple 
numbers about food stamps and a couple of things that you might 
do about it. From this report that Chairman Baca quoted 
earlier; Lost Dollars, Empty Plates we analyze a number of data 
sources and estimate that nearly 2.9 million Californians are 
likely eligible for food stamps but not participating. Today 
that has translated to about $3.5 million of lost Federal 
benefits.
    As the Chairman pointed out, this is nearly $7 billion in 
lost economic activity but the number you haven't heard yet is 
that it is also analyzed that there is $150 million in lost 
state and local sales tax revenue due to the lost economic 
activity that might be in these communities if benefits were 
more fully utilized. So, there are a number of ways that food 
stamps will contribute to a recovery from the recession, and to 
mitigate the nutrition and food insecurity problems that too 
many households face.
    A few quick highlights of some changes that will make a 
difference. First of all, Congress and USDA should ensure 
adequate funding for benefits preserving the increase in the 
amount of food stamps allotted that was enacted as part of the 
Recovery Act in the winter. There needs to be an increase, a 
better formula for the administration of the program because of 
the local hiring freezes at the state level in the other 
states. In California it is a county-level problem.
    There is a difficulty in ensuring the local governments can 
respond to the increased demand in terms of resources. 
Additionally, of significant concern this winter is the 
Governor's proposal for the 2010 budget which proposes to 
eliminate 35,000 persons who are legal permanent residents paid 
for by the state. Illegal immigrants are supposed to be cut off 
from the program. Certainly we are talking about various forms 
of Federal fiscal relief and this would be a population that 
would be reasonable for USDA and Congress to take on to the 
Federal roles in light of the state budget crisis.
    A couple more: California ought to move quickly to 6 month 
reporting which is basically the way of keeping people on the 
program by obligating them to send in fewer forms to the county 
to retain their benefits. All the other states have moved to 
this system. California has been asked by USDA to do so and 
ought to be expected to move very quickly to 6 month reporting.
    Couple of other ones that I think you will find intriguing. 
California and USDA could do a better job of connecting health 
insurance to Food Stamps by combining the application processes 
and the reporting processes. There are one million children in 
California that receive public health insurance but do not 
receive Food Stamps. Their households were willing to fill out 
forms, fill out paperwork, go through the system but they have 
not been imported into the Food Stamp Program despite their 
probable eligibility for nutrition benefits, which is obviously 
a key way to integrate the nutrition message into the delivery 
of healthcare.
    The states and the counties need to work together much 
better to ensure that local operations are similar in all 58 
counties. The way the system works today there are a number of 
different operations, different computer systems. Options have 
been made available to do fewer in-person interviews. There are 
options to do activities online to optimize customer services 
practices. All this ought to be the same for applicants in each 
county and to establish those will improve participation.
    Last, it is important that you get more data. As 
Representative Fortenberry asked earlier about what do we know 
about food stamps and nutrition. It is a good question. We 
ought to talk a little more about it. We have very little 
information about those who applied for benefits and have not 
succeeded in the application process. We need more data about 
your customer population. Thank you.
    [The prepared statement of Mr. Sharp follows:]

 Prepared Statement of Matthew Sharp, Senior Advocate, California Food 
                   Policy Advocates, Los Angeles, CA
    Introduction. Good morning. My name is Matthew Sharp. I work for 
California Food Policy Advocates, in the Los Angeles Office. CFPA is a 
statewide nonprofit organization whose mission is to increase low-
income Californians' access to nutritious, affordable food. Since the 
1990s, I have worked with CFPA to increase the use of Federal nutrition 
programs, particularly food stamps given its tremendous potential, by 
pursuing state and Federal legislation, as well as local policy 
changes. I've also coordinated food stamps advocacy and outreach with a 
dozen Los Angeles-area community partners to increase awareness and 
ease accessibility to these valuable nutrition benefits. This winter we 
are focused on blunting the impact of the severe state budget crisis on 
low-income Californians and on ensuring Congress invests new resources 
for Child Nutrition and WIC Reauthorization.
    This morning I will share with you the progress we've made in 
California to strengthen food stamps policy and accessibility. I will 
identify the key data points indicating that more changes are needed to 
expand participation further and I will provide a few recommendations 
for action.
    Background. Food stamps and the child nutrition programs have 
offered a nutrition safety net for millions of needy families and 
children since the day they started. The nation's deep recession makes 
these programs more important than ever. With childhood food insecurity 
and obesity escalating at rates that reflect steeply increased 
unemployment and poverty, the healthy meals and snacks that the 
programs provide, the measurable gain in students' academic 
performance, and the savings that strapped families can realize with 
five less breakfasts and lunches to supply each school week are among 
the many extremely valuable benefits that the child nutrition programs 
can deliver.
    The food stamp program, the nation's most important anti-hunger 
program, helps very low-income Americans to afford a nutritionally 
adequate diet. Unlike most means-tested benefit programs, which are 
restricted to particular categories of low-income individuals, the food 
stamp program is broadly available to almost all households with very 
low incomes, making it an important resource for families with limited 
income. More than 75 percent of all food stamp participants are in 
families with children; nearly \1/3\ of participants are elderly people 
or people with disabilities. The Federal Government pays the full cost 
of food stamp benefits and splits the cost of administering the program 
with the states, which operate the program. Food stamp eligibility 
rules and benefit levels are, for the most part, uniform across the 
nation, but states have flexibility in the procedures and requirements 
that low-income families face for application and ongoing receipt of 
benefits, as long as states meet certain Federal service-delivery 
standards.
    Food stamp households receive their benefits on electronic benefit 
transfer (EBT) cards, which can be used only to purchase food. The 
average household received about $133 a month (or $4 a day) for each 
household member in the second half of Fiscal Year 2009. The food stamp 
benefit formula targets benefits according to need. Very poor 
households receive more food stamps than households closer to the 
poverty line since they need more help affording an adequate diet. In 
Fiscal Year 2008, ninety-five percent of food stamp benefits went to 
households with income below the Federal poverty level, and more than 
half went to households with income below half of the Federal poverty 
level.
    The share of households that receive food stamps and have no other 
income is on the rise, from about eight percent in 2000 to almost 16 
percent in 2008, and likely a higher level currently because of the 
economic downturn.\1\ This trend is the result of two factors: first, 
many low-wage unemployed workers cannot qualify for Unemployment 
Insurance, and second, the cash assistance available to unemployed 
workers through TANF and state general assistance programs has eroded 
over time. As a result, food stamps may be the only federally funded 
safety net program available to many families who have lost jobs during 
this recession.
---------------------------------------------------------------------------
    \1\ Based on CBPP analysis of food stamp quality control 
administrative data, available at: http://www.fns.usda.gov/ora/menu/
Published/SNAP/SNAPPartHH.htm.
---------------------------------------------------------------------------
    Current Data. Unfortunately, despite increased enrollment in recent 
years, the Food Stamp Program misses an unsettling number of eligible, 
needy Californians. This underutilization is neither acceptable nor 
necessary. The numbers are sobering. Three million Californians 
received food stamp benefits worth $5.4 billion during 2009--only half 
those who are eligible. While this reflects an increase of 35% more 
persons receiving benefits since 2007, the increase in need has been 
far greater.

  <bullet> Unemployment in California has increased by 140% since 2007, 
        reaching nearly 13% statewide.

  <bullet> Demand at food banks and emergency shelters has increased 
        46%

  <bullet> According UCLA's Center for Health Policy Research (http://
        www.healthpolicy.ucla.edu/pubs/Publication.aspx?pubID=225), 
        among the 3.1 m adults struggling with food insecurity, 77% do 
        not receive food stamps.

  <bullet> According to USDA's Program Access Index (http://
        www.fns.usda.gov/OANE/menu/Published/SNAP/FILES/Participation/
        Reaching2007Summary.pdf), only 46% of eligible Californians 
        participated in 2007.

    Low participation means lost dollars (http://cfpa.net/ldep/
ldep2009.pdf) for all. Because, as USDA says, each dollar of food stamp 
benefits generate $1.84 in economic activity, low participation 
adversely impacts not only hungry families but a variety of sectors of 
the California business community. If all eligible Californians 
participated, California would receive $3.7 billion in additional 
nutrition benefits, generating $6.9 billion in statewide economic 
activity and $153 million in state and local sales tax revenue. 
Increasing food stamps participation will help California families put 
food on their table--and it also will help California rebound from the 
recession.
    Improvements. A few recent changes represent significant progress 
since the 2008 Farm Bill reauthorized (and re-named) the food stamp 
program.

  <bullet> More money. As part of the American Recovery and 
        Reinvestment Act, Congress provided a 13.6 percent temporary 
        boost in the maximum food stamp benefit in Federal Fiscal Year 
        2009. This provision was included as a fast and effective 
        economic stimulus measure that could help to push against the 
        tide of economic hardship that low-income individuals are 
        facing. Additionally, ARRA provided $300 million in additional 
        administrative funds to states to handle larger caseloads. The 
        2010 appropriations bill provided an additional $400 million 
        for food stamps administration.Q02
  <bullet> More application options. Through local partnerships with 
        community organizations, health clinics and WIC centers, as 
        well as recent state policy changes to eliminate in-person 
        interview requirements (and, hopefully, office visits), 
        Californians will have more convenient opportunities to apply 
        for food stamps closer to their home or workplace or to manage 
        their benefits by phone--and maybe even someday, online.

  <bullet> More flexible rules. State legislation eliminated the asset 
        test. When fully implemented in 2010, this will allow families 
        to seek nutrition help before spending down their entire 
        savings.

  <bullet> Rebranding. State legislation triggered a market research 
        project to gather information from non-participants about 
        potential names and logos that might re-position food stamps as 
        an attractive program. Terms like ``fresh'' and ``modern'' will 
        be considered as the state selects a new name this winter.

    Action Steps. While numerous changes are needed at a Federal, 
state, county and community level to respond to the myriad reasons why 
hungry families do not receive food stamp benefits, I wanted to draw 
your attention to the top policy changes that may make the most 
difference to non-participants. You will hear today about technological 
innovations, outreach initiatives and important connections between 
food stamps and healthier eating. We support all those endeavors. Here 
are our recommended priorities:
    Ensure adequate funding for nutrition benefits and administration.

  <bullet> Congress should ensure sufficient funding for food stamps by 
        preserving the 13.6% increase in benefits enacted in the 
        American Recovery and Reinvestment Act of 2009 and establish a 
        mechanism to increase administrative funding more nimbly to 
        respond to the state and local budget cuts and hiring freezes.

    Modernize the program by moving to simplified (6 month) reporting. 
USDA denied California's request (http://www.cfpa.net/
USDAltr6month.pdf) to continue quarterly reporting for 4 more years, 
but the state and counties have not yet implemented this important 
change.

  <bullet> California should quickly transition to simplified 
        reporting.

    Provide benefits to needy Californians who are fully eligible but 
for the repressive welfare restrictions enacted in the 1990s. Many 
legal immigrants do not receive Federal food stamp benefits, many 
unemployed adults without children are subject to outdated work 
requirements and SSI recipients are not eligible to participate in 
California. Federal legislative changes are needed to provide benefits 
to each of these populations (USDA and Department of Homeland Security 
changes are needed to enroll immigrants), with state changes needed to 
carve out SSI recipients that would benefit from food stamps. In order 
to close the state's budget deficit for 2010-2011, the Governor 
proposes to eliminate the California Food Assistance Program, which 
provides food stamp benefits to legal immigrants with state funds--a 
good example of where Federal fiscal relief is needed, since these are 
immigrants who were once eligible for Federal food stamps.

  <bullet> Congress and USDA should pursue legislative changes to 
        ensure all needy populations are eligible for valuable food 
        stamp benefits. Congress should expand the pool of legal 
        permanent residents eligible for food stamp benefits.

    Connect food stamps and health insurance. Approximately one million 
MediCAL recipients--already means-tested and certified eligible for 
Federal health benefits--do not participate in food stamps.

  <bullet> California should implement policy and technological changes 
        to ensure that low-income households receive nutrition 
        insurance alongside health insurance.

    Eliminate fingerprinting. Nine years since California implemented 
its biometric system to detect multiple-aid fraud, two state audits 
(http://www.bsa.ca.gov/reports/summary/2001-015) and the fraud 
detection systems of 46 other states have demonstrated that the system 
is not cost-effective for the state and counties--and that it is 
ineffective at detecting multiple benefits, the system's supposed 
purpose. Fingerprinting also discourages applicants by adding stigma 
and an obligatory trip to the welfare office--undermining out-of-the-
office enrollment efforts.

  <bullet> USDA should prevent states from using fingerprinting systems 
        as a condition of eligibility or issuance of benefits. USDA 
        should cease co-funding California's fingerprint imaging 
        system.

    Strengthen local operations. With 58 counties administering food 
stamps across California, applicants in some counties benefit from the 
availability of office visit waivers (http://www.cfpa.net/
PhoneInterviewsCalifornia.html), speedy processing of benefits and 
limited paperwork requirements. However, other applicants in other 
counties are not as fortunate, as demonstrated by several pending 
lawsuits regarding failure to provide timely benefits and excessive 
requests for verification of application documents, as well as wide 
variations in enrollment rates.

  <bullet> USDA and California should improve monitoring of local 
        customer service practices and timely issuance of benefits to 
        ensure best practices become the norm.

    Significantly more resources are available at www.cfpa.net.
    I am happy to answer any questions you might have.

    The Chairman. Thank you very much, Mr. Sharp.

         STATEMENT OF EDITH C. ``EDIE'' JESSUP, PROGRAM
           DEVELOPMENT SPECIALIST, CENTRAL CALIFORNIA
     REGIONAL OBESITY PREVENTION PROGRAM, CALIFORNIA STATE 
  UNIVERSITY FRESNO DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
   CENTRAL CALIFORNIA CENTER FOR HEALTH AND HUMAN SERVICES, 
                           FRESNO, CA

    Ms. Jessup. Thank you for this opportunity to speak to you. 
My name is Edie Jessup. For the last 10 years I worked with a 
nonprofit agency on a hunger and nutrition project in Fresno, 
California. That included monthly meetings with the county Food 
Stamp Director and staff and over 25 community-based 
organizations who work with low-income residents needing food.
    I now work regionally with the Central California Regional 
Obesity Prevention Program on food access and policy issues. I 
am also co-chair of the Roots of Change working on a 
sustainable food system for California by 2030.
    I see the Federal nutrition programs as health programs, as 
violence prevention programs, and I see food as a human right. 
There is no scarcity of food. However, there is a political 
decision not to feed people in the United States. I am 
witnessing the great unraveling in my fragile community. The 
nation expects affordable fruits and vegetables from the Valley 
where people are hungry and food giveaways run out of food.
    In any other day or time these people in line would be 
considered good hardworking people. The number one agriculture 
producing county in the United States, Fresno, is also the 
Congressional district with the highest poverty in the United 
States.
    Full Food Stamp enrollments by eligible families linked to 
other U.S. nutrition programs is the quickest program and 
economic stimulus for my community. Food stamp enrollment would 
solve institutionalized poor diet for poor people that has 
created racist outcomes in poor health by diet. Prior to 1996 
there was enough food on the shelf in the United States to feed 
our country for a year. We have disinvested in Federal purchase 
of surplus food and the consequences are seen in the emergency 
nature of incompetent food provision and disasters.
    Charity is not sufficient to supply and distribute food to 
the increasing poor and under-employed. This leads to the ever-
unmentionable food system issue of what the Federal Government 
subsidizes. The USDA needs to subsidize food and farming that 
is healthy for all people. You must lead states and local 
governments, from the health and environmental perspective, in 
making healthy food access a high priority through integrated 
and linked Federal programs.
    Full Food Stamp enrollment by all eligible would benefit my 
neighbors so hungry families could purchase food, but it is not 
happening. The fed, states, and counties blame each other and 
in 10 years of my community identifying major barriers to Food 
Stamp enrollment again and again leadership to solve the issue 
has not happened.
    In addition to the recommendations of my colleagues, I 
advise the following to overcome the 50 percent under-
enrollment in Food Stamps in California and nationally. Number 
one, on the issue of immigration and fair public charge: I call 
on your to request ICE and USDA to jointly sign a clarifying 
directive to states, counties, and the public that immigrant 
families will not be denied a change in their legal status 
because of accessing food programs for which they are eligible.
    Number two, customer service. Simplify enrollment and link 
Federal food programs. I have to report that the county's 
cultural competence is poor. People are treated poorly and do 
not feel welcome at Food Stamp offices. People I have surveyed 
feel their treatment is racially and class motivated. The USDA 
and Congress must require better service practices.
    Number three, privatization and inefficiencies. Each state 
should engage one computer system for food stamps, not the four 
nonintegrated systems as allowed in California. The 
administrative reimbursement for counties should be based on 
caseload to encourage enrollment. USDA should monitor, track, 
and publicly report the cost of having banks run the Food Stamp 
system compared to federally run programs.
    EBT help centers should be located in the state 
administering food stamps, not overseas.
    What if we fed people? The Federal nutrition programs can 
and should be made available to all who qualify. There is 
plenty of food and we can assure through food stamps and other 
programs that all those eligible are enrolled. Thank you.
    [The prepared statement of Ms. Jessup follows:]

  Prepared Statement of Edith C. ``Edie'' Jessup, Program Development
  Specialist, Central California Regional Obesity Prevention Program, 
   California State University Fresno Department of Health and Human 
  Services, Central California Center for Health and Human Services, 
                               Fresno, CA
Food Stamp Participation and Outreach in the Central Valley of 
        California
    Thank you for the opportunity to testify on the condition in the 
San Joaquin Valley of California, and the need for full enrollment in 
the Federal nutrition programs by more than a majority of residents, in 
a dignified, equitable, and sustainable way--very quickly. I see this 
as urgent, not something that we need to analyze more. If Food Stamps 
are to fulfill their intended outcome of a healthy population ready to 
work and learn, you need to make Food Stamps work at once.
    I will set the stage, with short comments on need for Federal 
nutrition programs, and then provide you with seven specific issues 
that the Federal Government can and should address to assure full Food 
Stamp/SNAP participation from constituents in the Valley.
    My name is Edie Jessup. For the last 10 years I worked with a 
nonprofit agency on a Hunger and Nutrition Project in Fresno, Ca. I am 
now working regionally with the Central California Regional Obesity 
Prevention Program as a Program Development Specialist. I am also co-
chair of Roots of Change, working on a sustainable food system for 
California by 2030.
    I see the Federal nutrition programs as health programs, as 
violence prevention programs, and I see food as a human right. There is 
no scarcity of food. I also appreciate that agriculture is the meeting 
point tying health outcomes, access to healthy food, and, a revived 
agricultural economy in the Central Valley.
    However, there is a political decision not to feed people in the 
United States.
    I negotiated a meeting where the state and Federal Partnership on 
the San Joaquin Valley were willing to make Food Stamps their priority 
last year, and encourage businesses and other state and Federal 
agencies to promote and support enrollment in Food Stamps. The county, 
state, and Federal offices started squabbling, and the offer to work to 
increase enrollment by the business community was taken off the table. 
The Chair said ``Clearly you people (county, state, Federal) do not 
want people eligible to be enrolled in food stamps for the betterment 
of their health, and the health of our local economy. There is no point 
in my sitting through any more of this, and wasting my time.'' 
Advocates tried to link up rural municipalities in places like 
Tranquility, and San Joaquin with the county Food Stamp office, to take 
applications at the city offices via computer. The County would not 
accommodate that because of fear they could not manage new cases of 
food stamp applicants if people were not in their office in Fresno, 80 
miles away, in person. People do not have transportation, nor can they 
take a day off work to come into the county center. But they are 
hungry, and do qualify for food stamps.
    I understand that prior to 1996; there was enough food `on the 
shelf' in the U.S. to feed our country for a year. We have disinvested 
in storing for hard times and emergencies, and the consequence is seen 
in obesity and malnutrition in the Central Valley, and is seen in the 
`emergency' nature of incompetent food provision in disasters (Katrina, 
the California Central Valley drought, or Hati). Charity is not 
sufficient to supply the need for food by the chronically under wage 
households in California. It is apparent in the Central Valley the poor 
quality and safety of food provided for our school food programs, the 
fact that accessing the Child Care Food Program is nearly impossible 
for child care providers, and is inadequate.
    I am witnessing the `great unraveling' in my community. For the 
last 10 years I have worked with Ca. Food Policy Advocates statewide, 
and with my county Department of Employment and Temporary Assistance, 
and the local school district to raise SNAP enrollment from the 50 % 
eligible but not enrolled low income families and individuals. The 
story in the Valley is the same. Low income wages at best, agricultural 
seasonal work, immigration raids and splitting families by deportation 
of our labor force. We know the eligibility is there because in the 
Fresno School District 83% of all children are eligible for free lunch, 
and most rural towns have Provision two schools--where all children are 
at least getting lunch. They report school lunch as the one meal daily 
they can count on during the week. Breakfast needs to be the first 
lesson of the day for every child in every school, and School Districts 
should be required to do this so that that Breakfast is truly 
accessible to kids. Their learning will improve. And Summer Lunch, a 
righteous program to provide food during time off from school, needs to 
be required by all school districts who serve over 50% free/reduced 
during the school year. The problems of summer lunch need to be solved 
by funding community based organizations to serve summer lunch, and 
schools should be required to provide and transport summer lunches to 
where kids are--whether neighborhood schools, or parks, or apartment 
building complexes, or churches in neighborhoods.
    The population in the San Joaquin Valley is fragile. The 
conservative power structure's ``blame the victim'' mentality results 
in institutionalized racism that determines who eats, and results in 
poor health outcomes.
    That attitude of scarcity preserve the poverty and ill health of 
the very people assuring the rest of the nation access to healthy food. 
I currently work with the Central Valley Regional Obesity Prevention 
Program, directly working on environmental change and policy change to 
give people access to healthier food and safe physical activity. In 
Mendota, where so much public attention has been drawn to the drought's 
impact on a town, nearly completely unemployed, 37 of 80 Head Start 
children are obese as a direct result of diet. The local store carries 
junk food and poor parents take food bank commodities or donated top-
ramen as the primary food on their table. Their health will be on our 
Hospital doorstep, and the chronic treatment for diabetes in these 
children will lead to impaired lives, and is now creating poor learning 
in our schools. We have created this monster of a human problem. Our 
Public Health Officer in Fresno County says that he can tell how many 
generations an individual has been here by the decline in health 
status; the biggest public health issues in Fresno County are asthma, 
obesity, and diabetes. Chronic disease by diet, and our food system 
practices.
    Federal nutrition programs would bring in over $170 million yearly 
in Food Stamp benefits to my county if all were enrolled. That is to 
purchase food, our number one business in Fresno and the Valley. But it 
is not happening. The feds blame the state, the state blames the feds, 
and in 10 years of the major barriers to enrollment being identified 
again and again, no one cares to do anything. The USDA Western Regional 
Office wants to assist, the state would like to turn this around, the 
counties in the Valley, because of reimbursement formulas that do not 
support the administration of food stamps try to do what they can, 
while struggling with caseloads of 500 families/worker, and feel under 
the gun by USDA for sanctions if they make an error.
    Most concerning to me is the institutionalization of poor diet, the 
lack of fresh, healthy food in neighborhoods, and because of deep 
poverty, and the fact that unhealthy food is the cheapest, large 
numbers of folks truly have no access to healthy food. Taking on the 
industry of food has to happen, and the Federal Government must engage 
(from the health and environmental perspective) states and local 
governments in making food access a high priority in zoning, 
ordinances, and assuring equitable access to affordable food. Grocery 
Stores decide to pull out of low income neighborhoods, leaving food 
deserts, and populations at risk in ill health.
    This leads to the ever unmentionable issue of who and what the 
Federal Government subsidies in the food system. It is your watch. 
Painfully we need to subsidize food that is healthy for all people. We 
must cease subsidizing farmers not to farm. We must undergird small 
farmers who are raising our food in sustainable ways.
    We must subsidize and favor food that is not polluted with corn 
syrup, fat, and salt, because we are producing unhealthy generations 
who will not be able to live without extreme and long term medical 
support. Or, they will die from diet that leads to diabetes, heart 
disease, cancer.
    Meanwhile, the economy has created devastation in towns throughout 
the Valley, and drought that has displaced farm workers, and local 
businesses.
    The nation expects fruits and vegetables to feed the nation from 
this very place where people are hungry. It is a fragile place at best, 
filled with what in any other day or time would be considered good, 
hardworking people.
    These are the seven recommendations that would create increased 
enrollment in Food Stamps.

    1. In the Valley, families need linked enrollment, without repeated 
        applications for Food Stamps, WIC, School and Child Care food 
        programs, and USDA Commodities. If poor families cobble 
        together all these programs they might have enough to eat for a 
        month. The programs could be linked and tiered so when times 
        were better, or income improved, individual programs could be 
        dropped as a benefit. None of these Federal food programs, by 
        themselves, is adequate for hungry families.

    2. I call on you to require ICE and USDA to jointly sign a 
        clarifying letter that acknowledges that immigrant families 
        will not be denied a change in their legal status because of 
        accessing food programs for which they are eligible.

    We have mixed immigrant families from all over the world in Fresno, 
over 100 languages spoken in our school district, afraid to apply for 
Food Stamps, and afraid that if they allow their children to eat school 
lunch or summer lunch, for which their citizen children are eligible, 
their family will be split by deportation, or, that they will be 
ineligible for legal status or citizenship. Both Immigration and 
Customs Enforcement (ICE) and USDA say that there is no Public Charge 
issue, but they refuse to sign a joint letter and directive that 
clarifies this.

    3. Families are definitely afraid to apply for food stamps given 
        that even though parts of their family are eligible because all 
        adults have to be fingerprinted and photographed to apply for 
        EBT by California rules.

    I would ask that in order to enroll all eligible people in the 
        Federal food stamp program, you create Federal legislation that 
        bans using finger-imaging in connection with food stamps. The 
        purpose of the move to EBT was to eliminate any fraud by Food 
        Stamp clients. It has worked, and redundant, pejorative 
        continuance of photography and finger imaging as if applicant 
        families were terrorists is untenable and costly in California.

    Prohibit California from requiring fingerprinting as, it costs over 
        $11 million, is revealing no fraud, and blocks families from 
        Food Stamp participation.

    4. If we are providing fresh, safe affordable produce for the rest 
        of the nation, it seems that the purpose of Federal agriculture 
        programs should accrue to those in need, who are providing the 
        labor for feeding America, other than by standing in lines and 
        convincing people how poor they really are for a hand out of 
        food that is making them ill with diabetes and obesity. My 
        recommendation is to provide a Federal waiver and enroll in 
        Food Stamps everyone standing in too infrequent commodity 
        distributions in food stamps, and sort out eligibility later, 
        within the first 6 months. And if they really do not qualify, 
        drop their enrollment.

    5. I have to report that though the counties try pretty hard, their 
        cultural competence is poor, and people are treated poorly, do 
        not feel welcome in Food Stamp offices. People I have surveyed 
        feel their treatment is racially and class motivated. Food 
        Stamp workers feel overworked. The USDA and Congress could 
        address the public sense that Food Stamps are for people who do 
        not deserve food.

    6. Some of the reasons for low enrollment are the facts of poverty, 
        and the complexity of rules, difficulty in enrolling, multiple 
        trips to the County office to qualify, county refusal to take 
        options like face-to-face waivers that are allowed, etc. 
        Clearly, a simple sheet of paper or online version of the 
        application is preferable to the complex, nearly impossible to 
        translate into 100 languages that we now have. Honestly, Hmong 
        neighbors have told me that my County calls in the Janitor to 
        interpret for applicants, or the 10 year old children are the 
        family representatives. This is truly crazy. Increase the 
        administrative Federal share, so that services offered can be 
        rendered to eligible families.

    7. Last, require California to enroll elders in Food Stamps. The 
        irony is that some 40 years ago, California took some `options' 
        offered by USDA and they are still in place, although most all 
        other states have rejected and reformulated their Food Stamp/
        SNAP rules. Federal Legislation calls out that California SSI/
        SSD recipients cannot receive food stamps, even though they 
        qualify by income. So, we have elders (about to grow into a 
        larger poorer group because of the Baby Boomers) not eating in 
        order to keep their home, or pay for medications and 
        transportation, or because they are feeding their 
        grandchildren, and becoming ill. I request that you see that 
        the Federal exception for California is taken out of the 
        Federal register, and require the State of California to 
        directly enroll all SSI/SSDI recipients automatically, now.

    What if we fed people? What if we saw to it that the bounty of what 
we produce gets eaten, through normal channels, like purchasing at the 
store? The clear distance between producer and consumer has become 
larger, more bloated, and the in-between distribution and processing is 
taking the money and seeing to it that the farmer does not get enough 
to farm, and the consumer pays too high a price for unhealthy, over 
processed food. The Federal nutrition programs can and should be made 
available to all who qualify. If people are fed reliably and healthily 
they can pay their rent, and begin to address work and education, and 
be contributing citizens. There is plenty of food, and we can assure 
through Food Stamps and other programs that all those eligible are 
enrolled. Thank you.
Additional Federal Nutrition Issues
    Breakfast, lunch, summer lunch: School districts need adequate 
Federal reimbursement.
    Quality of food in school programs must be improved and funded 
adequately, and incentivize local purchase.
    In California, Counties are allowed one of four computer systems 
that do not communicate with each other. Each state should engage one 
computer system for Food Stamps.
    Elevate Federal nutrition programs to the status of Health Care, 
because Federal nutrition programs are Health Programs. Perhaps, a 
joint initiative with HHS? Or National Institute of Health?
    Incentivize EBT purchase of fruits and vegetables with bonus added 
to EBT for such purchases.
    Sustainable food system: Local and regional distribution should be 
priority, and replace current commodity structures in the USDA. This 
will re-create vibrant farm to table and institution results, and 
economic viability in the agricultural areas of the country.
    Require Farmers to overtly support all USDA programs, including 
SNAP as part of their subsidy acceptance.

    The Chairman. Thank you very much. At this time I am going 
to let Congressman Jim Costa make a quick comment because he 
has to leave to attend another hearing in LA.
    Mr. Costa. Yes. I want to thank all the witnesses and I 
want to thank you, Mr. Chairman and Congressman Fortenberry for 
bringing this very important hearing to California. Edie, I 
want to take up your challenge so let us set up some time back 
in Fresno, let us bring the people together. Let us see if we 
can make progress in stopping the finger pointing and maybe 
take advantage of some of your suggestions and see if we can 
implement them.
    Ms. Jessup. Thank you.
    Mr. Costa. Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    At this time we will continue with Mr. Marsom.

 STATEMENT OF MATTHEW MARSOM, DIRECTOR OF PUBLIC HEALTH POLICY 
                  AND ADVOCACY, PUBLIC HEALTH
                     INSTITUTE, OAKLAND, CA

    Mr. Marsom. Good morning. My name is Matthew Marsom, 
Director of Public Health Policy with the Public Health 
Institute. PHI is an independent, nonprofit organization 
dedicated to promoting health, well being and quality of life 
for people across the nation and around the globe.
    I want to thank Chairman Baca and the Members of the 
Committee for providing PHI with the opportunity to testify 
today regarding the Federal nutrition programs. For more than 
20 years PHI has partnered with the California Department of 
Public Health to implement a series of programs and initiatives 
focused on nutrition education and obesity prevention. This 
includes the state SNAP-Ed Program. Recently we were successful 
in securing funding from the Kaiser Permanente Foundation to 
help the state get ready for its Healthy Incentive application 
to USDA.
    In the time I have this morning I would like to focus my 
remarks on SNAP-Ed, a Federal-state partnership that provides 
matching reimbursement funds to support nutrition education for 
low-income persons currently and potentially eligible for SNAP. 
In California SNAP-Ed is overseen by the California Department 
of Social Services and delivered through an inter-agency 
agreement with the Department of Public Health and the 
University of California. The state's largest SNAP-Ed 
initiative, the Network for a Healthy California, targets an 
estimated seven million SNAP-Ed eligible children and parents 
in this state alone.
    I would like to outline some specific steps that we believe 
would help position SNAP-Ed as a central pillar in our effort 
to confront the twin threat of obesity and hunger that 
threatens the health of our children. We have already heard 
today about the impact of obesity in the United States. I won't 
dwell on that again other than to say that Food Stamp 
recipients live in the most under-served communities where 
environments make healthy choices challenging if not 
impossible.
    In the context of these environments SNAP-Ed programs work 
to improve the likelihood that program participants will make 
healthy choices. It is important to say that throughout the 
United States SNAP-Ed programs are doing tremendous work to 
promote healthy behaviors and help families make a healthy 
choice. However, the program can do so much more than that. 
SNAP-Ed programs can be a lynchpin linking together other 
Federal nutrition programs and initiatives to address access to 
healthy food while addressing hunger and obesity.
    Unfortunately, however, current USDA program guidance 
restricts allowable SNAP-Ed activities to focus primarily on 
traditional educational approaches, which when used alone are 
often inefficient, outdated, and a poor use of limited 
resources.
    The program rules established during the prior 
Administration significantly limit the use of effective and 
proven environmental and system change approaches and social 
marketing approaches learned from business and the private 
sector. This is despite a wide body of research that 
illustrates the power of these methods to deliver sustainable 
improvements in eating habits and other lifestyle changes.
    Quite simply, the present program guidance makes it 
cumbersome, costly, or impossible to successfully execute state 
and local programs.
    USDA can take immediate and no-cost steps to unlock the 
potential of these programs and allow them to play a greater 
role in helping to address childhood hunger. Specific actions 
are as follows:
    First, SNAP-Ed programs should be encouraged to use their 
existing Federal share to support population-based, evidence-
driven targeted interventions including social marketing, mass 
communications, and environmental and policy change approaches 
that reach the audience where they live, where they work, where 
they go to school, where they pray, and where they make their 
food and physical activity choices
    Second, state and local programs must be able to take 
advantage of techniques that support healthy behavior change at 
the individual level by addressing social, environmental and 
community factors that currently limit their healthy choices.
    Third, USDA should allow state and local agencies to use 
SNAP-Ed reimbursement funding to conduct marketing campaigns 
that increase participation in the Federal nutrition programs, 
especially in SNAP, but also school breakfast, summer meals, 
after-school snack, and the Child and Adult Care Food Program.
    Finally, Congress and USDA should allow SNAP providers to 
conduct counter-marketing campaigns that address the marketing 
of unhealthy foods and beverages, particularly marketing to 
children, learning a lesson from the strategies and innovations 
that work so well for tobacco control here in California and 
elsewhere.
    These efforts should be accompanied by education and 
promotion to increase demand for healthier food including fresh 
fruits and vegetables.
    By empowering parents and their children to make healthy 
choices, SNAP-Ed can and must play a greater role in improving 
dietary and physical activity practices, while helping to 
increase community food security, prevent obesity and reduce 
the risk of chronic disease for low-income Americans.
    We have welcomed the willingness of the new leadership at 
USDA under the direction of Secretary Vilsack and Under 
Secretary Concannon to engage with those of us who are seeking 
these changes. However, to date we have yet to see any specific 
proposals to undo the harmful and costly rules that were 
instituted during the prior Administration. Thank you very much 
for the time. I can answer any questions.
    [The prepared statement of Mr. Marsom follows:]

Prepared Statement of Matthew Marsom, Director of Public Health Policy 
           and Advocacy, Public Health Institute, Oakland, CA
    Introduction: Good morning. My name is Matthew Marsom, Director of 
Public Health Policy with the Public Health Institute (PHI). PHI is an 
independent, nonprofit organization dedicated to promoting health, well 
being and quality of life for people across the nation and around the 
world, and one of the largest and most comprehensive nongovernmental 
public health organizations in the nation.
    I want to thank Chairman Baca and the Members of Subcommittee for 
providing PHI with the opportunity to testify today regarding the 
Federal nutrition programs. We are pleased to have the opportunity to 
provide our perspective and recommendations on this important topic.
    For more than twenty years, PHI has partnered with the State of 
California to assist the California Department of Public Health (CDPH) 
implement a series of programs and initiatives focused on nutrition 
education, obesity prevention, and chronic disease surveillance, 
including the statewide SNAP-Ed program. This close working 
relationship and our decades of experience in program implementation 
provides PHI with a unique perspective on the status of the Federal 
nutrition programs in California, and specifically in regard to their 
impact on public health and food insecurity.
    The impact of the obesity epidemic confronting the United States is 
not news to any of us here today. Obesity is linked to increased risks 
for many serious diseases, including type 2 diabetes, heart disease, 
stroke, and some cancers. The costs in healthcare, disability, workers 
compensation, and economic losses from lost worker productivity are 
matched by the personal toll on individuals and their families.
    People with low incomes, including those in households eligible for 
food stamps, are at highest risk for chronic disease resulting from 
poor eating and inactive lifestyles. Food stamp recipients live in the 
most underserved communities, environments where making healthy choices 
can be challenging, if not impossible, due to a lack of safe, well-
equipped and well-maintained places to walk and play; lack of nearby 
retail stores and other services within walking or biking distance; 
inadequate access to supermarkets and reliance on local corner stores; 
and a higher concentration of fast-food outlets.
    In these circumstances, food stamps can provide an essential 
resource for low-income families, helping to ensure that very-low-
income Americans can afford a nutritionally adequate diet. Good 
nutrition underpins public health, education and work productivity, and 
food security is a fundamental social determinant critical to community 
well being.
    However, despite the tremendous need and the importance of the 
program, still too many eligible Californians are going without the 
benefits to which they are entitled. According to recent data from 
UCLA, among the 3.1 million adults in California struggling with food 
insecurity, 77 percent do not receive food stamps. California is second 
to last in the nation for overall participation in the Food Stamp 
Program and last in the nation for participation amongst the working 
poor. The need has only increased due to the current economic crisis, 
making these figures all the more alarming. Although the Federal 
nutrition assistance entitlement programs are designed as a nutrition 
safety net, many are under-used and operate in silos.
    Today, I would like to describe a series of recommendations that we 
believe would help to enhance SNAP and other Federal nutrition programs 
and ensure that they can better help to confront the twin threat of 
obesity and hunger that threatens the health of our children.
    Program Participation and Outreach:

    1. Congress and USDA should establish cross cutting national 
        participation targets for all Federal programs and reduce 
        penalties and sanctions for errors in eligibility, instead 
        providing stronger, non-competitive incentives to state and 
        local agencies that increase program participation. For waivers 
        or mandates intended to increase participation but which 
        require new administrative costs or expensive retrofitting of 
        computer systems, USDA should provide administrative 
        supplements to offset the initial costs of system upgrades. 
        USDA should institute monitoring and evaluation systems that 
        report to the public regularly on rates of food insecurity and 
        progress of Food and Nutrition Service (FNS) program access and 
        participation.

    2. USDA should revise Federal program requirements to ensure that 
        barriers to full participation are minimized:

    <bullet> Index eligibility criteria to actual cost of living: To 
            end childhood hunger successfully, income eligibility 
            criteria should not exclude children whose families happen 
            to live in high-cost states. To extend eligibility to all 
            families facing food insecurity, USDA should index income 
            criteria for food assistance program eligibility to local 
            or regional cost of living, such as the ACCRA Cost of 
            Living Index or other recognized measure, rather than the 
            nationally-applied Federal Poverty Level (FPL).

    <bullet> Improve access and reduce stigma to food assistance 
            program participation and implement Electronic Benefits 
            Transfer (EBT) for delivery of the Women, Infants and 
            Children's Nutrition Program (WIC) to mirror SNAP.

    <bullet> Reduce administrative barriers to full participation in 
            child nutrition programs, for example:

      --Allow state WIC agencies the option to certify children for a 
            period of 1
              year, aligning with the current policy for other 
            participants and ensuring
              the availability of resources for nutrition services; and

      --Align WIC screening for iron-deficiency anemia with lead and 
            substance
              abuse protocols by referring to medical care when verbal 
            screening criteria
              are met and removing the requirement to document blood 
            tests.

      --Use SNAP and Temporary Assistance for Needy Families (TANF) 
            categor-
              ical eligibility to qualify all school-aged children in 
            families for free meals,
              not just individual students.

      --Eliminate the current tiered system in the Child and Adult Care 
            Food At-
              Risk Snack Program to encourage greater participation by 
            family daycare
              homes.

    3. USDA should mobilize its resources to establish technical 
        assistance networks for community food security that can be 
        available to help states and localities with adapting, 
        implementing and taking to-scale successful techniques, 
        methods, and initiatives from throughout the country. Topics 
        and activities that could be part of such technical assistance 
        networks for the nation include: community food system 
        assessments, Electronic Benefits Transfer (EBT) in farmers' 
        markets, corner store conversion projects, community-supported 
        agriculture, farm-to-fork sourcing, state or local food policy 
        councils, agricultural preservation, small farm and new farmer 
        programs, and community/school gardens. This low-cost network 
        might be established using grants or cooperative agreements 
        with nonprofit public health, anti-hunger and food security 
        organizations; the existing Cooperative Extension system; FNS 
        programs; partnerships with other sectors like foundations, 
        nonprofit health plans, insurers and hospitals; and sister 
        Federal agencies like the Centers for Disease Control and 
        Prevention (CDC), Department of Transportation, Department of 
        Education, and Housing and Urban Development.

    4. In SNAP, USDA should modify the use of the Thrifty Food Plan as 
        the fiscal base for SNAP and increase the benefit value to 
        accommodate the generally-higher prices of healthy food and 
        regional variability in cost of living, allow retailers to 
        offer EBT customers sale--and promotional prices for healthy 
        foods such as fruits and vegetables and push for higher 
        standards for retailers to provide for the availability of 
        fresh foods in all four food categories. This would have the 
        benefit of increasing the availability, accessibility and--
        possibly--lower the price of healthy food in many low-income 
        communities.

    Supplemental Nutrition Assistance Program Education (SNAP-Ed):

    One Federal nutrition program that is a lynch pin, linking together 
opportunities to address access to healthy food, while addressing 
hunger and obesity, is SNAP-Ed.
    SNAP-Ed is a Federal-state partnership that provides matching 
reimbursement funds to support nutrition education for low-income 
persons currently and potentially eligible for SNAP. Prior to the 
renaming of the food stamp program in the 2008 Farm Bill, SNAP-Ed was 
known as Food Stamp Nutrition Education, or FSNE. SNAP-Ed programs 
improve the likelihood that SNAP participants will make healthy choices 
within a limited budget and choose active lifestyles consistent with 
the current Dietary Guidelines for Americans and MyPyramid.gov.
    In California, SNAP-Ed is overseen by the California Department of 
Social Services (CDSS) and delivered through interagency agreements 
with the CDPH and the University of California. CDPH has established 
the Network for a Healthy California (Network) which supports a 
comprehensive statewide nutrition and physical activity campaign, 
working through diverse channels and hundreds of local programs to 
target an estimated seven million SNAP-Ed eligible parents and 
children.
    Throughout the United States, SNAP-Ed programs are doing tremendous 
work to promote healthy behaviors and help low-income families 
understand the importance of a healthy choice. However, current USDA 
FNS program guidance restricts ``allowable SNAP-Ed activities'' to 
focus exclusively on traditional approaches which, when used alone, are 
often inefficient, outdated and a poor use of limited resources.
    The rules, established during the last Administration, 
significantly limit the use of effective and proven social marketing 
interventions and disallow the use of environmental and system change 
approaches despite a wide-body of research that illustrates the power 
of these methods to deliver sustainable improvements in eating habits 
and other lifestyle changes. The present guidance makes it cumbersome, 
costly or impossible to successfully execute state and local programs.
    The current USDA guidance also restricts state programs from 
effectively reaching large proportions of their target populations. In 
California over half of the SNAP population lives outside USDA approved 
SNAP-Ed Census tracts and the figure is as much as 90 percent in some 
rural states.
    Congress has already acted to address these problems and provided 
direction in the Manager's report that accompanied the 2008 Farm Bill, 
stating that ``The Secretary will support and encourage implementation 
of the most effective methods for nutrition education . . . consistent 
with recommendations of expert bodies. Dietary and physical activity 
behavior change is more likely to result from the combined application 
of public health approaches and education than from education alone''.
    We have welcomed the willingness of the new leadership at USDA, 
under the direction of Secretary Vilsack and Under Secretary Concannon, 
to engage with those of us who are seeking these changes to the 
program. However, we have yet to see specific proposals to undo the 
harmful and costly rules that were instituted during the prior 
Administration. Timing is critical to make changes to the USDA SNAP-Ed 
guidance so that state programs can most effectively use the state and 
Federal dollars currently being spent on nutrition education.
    USDA can take immediate no cost steps to unlock the potential of 
SNAP-Ed and allow state and local programs to play a greater role in 
helping to address childhood hunger and prevent obesity Specific 
actions are as follows:

    1. SNAP-Ed programs should be encouraged to use existing Federal 
        share to support population-based, evidence-driven public 
        health interventions--including community-based social 
        marketing, mass communications, and environmental and policy 
        change approaches--that reach the target audience where they 
        live, work, go to school, and make their food and physical 
        activity choices.

    2. State and local programs must be able to utilize approaches that 
        enable and support healthy behavior change at the individual 
        level by addressing social, environmental and community factors 
        that limit healthy choices.

    3. USDA should allow state and local agencies to use administrative 
        funds and/or SNAP-Ed reimbursement to conduct marketing 
        campaigns that increase participation in the Federal nutrition 
        programs, especially in SNAP, school breakfast, summer meals, 
        after-school snack, and the child and adult care food program.

    4. Congress and USDA should encourage all nutrition assistance 
        programs, including SNAP-Ed, to conduct counter-marketing 
        campaigns to address the marketing of unhealthy foods and 
        beverages, learning a lesson from the strategies and 
        innovations that worked so well for tobacco control here in 
        California and elsewhere. In addition, where food is sold a la 
        carte or in vending machines, programs should take other steps 
        such as increasing the prices of competing foods like soft 
        drinks, other sweets, salty snacks, and deep fried foods to 
        help lower the prices of healthy foods like fresh fruits and 
        vegetables, low-fat milk products, whole grain products, lean 
        and vegetarian protein sources. These efforts should be 
        accompanied by education and promotion that increase demand for 
        healthier food, including fresh fruits and vegetables.

    By empowering parents and their children to make healthy choices, 
SNAP-Ed can and must play a greater role in improving dietary and 
physical activity practices, while helping to increase community food 
security, prevent obesity and reduce the risk of chronic disease for 
low-income Americans.
    PHI welcomes the opportunity to work Congress and USDA to identify 
measures that can identify and remove obstacles limiting the reach, 
impact and effectiveness of the Federal nutrition programs, including 
SNAP-Ed, and create sustainable healthy change in underserved 
communities. We believe these programs are a central pillar in a 
concerted effort eliminate childhood hunger and provide the opportunity 
to address poverty, a root cause for health, social and economic 
problems that affect a growing number of Americans. In many cases, the 
simplest solutions have little or no cost and may in fact generate 
considerable savings over the long-term. In addition, many of the 
recommendations I have outlined here and echoed by others testified 
today can help to simultaneously address the scourge of obesity and 
overweight in children and adults that leads to ill health and 
perpetuates the cycle of poverty.
    Thank your for your time and consideration of our recommendations. 
I am happy to answer any questions you might have.

    The Chairman. Thank you very much, Mr. Marsom.
    At this time I would like to call on Ms. Claudia Page.

 STATEMENT OF CLAUDIA PAGE, CO-DIRECTOR, THE CENTER TO PROMOTE 
                 HealthCare ACCESS, OAKLAND, CA

    Ms. Page. Good morning and thank you for the opportunity to 
share some comments. I am the Co-Director of a nonprofit 
organization that is focused on using technology to connect 
low-income individuals with public and private benefits for 
which they may be eligible. We created a system called One-e-
App. It stands for One Electronic Application. It is a web-
based system that screens individuals for a variety of programs 
such as Medicaid, food stamps, SCHIP, Earned Income Tax Credit, 
low-income energy subsidies, and more. It is used in 
California, Arizona, Indiana, and Maryland as one channel, and 
not the only channel, to connect families with benefits for 
which they may be eligible.
    In those states it is used both by the individuals who help 
families who work at community-based organization and clinics 
and hospitals and food banks. It is also used by families 
themselves in some locations. In the State of Arizona consumers 
themselves go online and apply and in several places in 
California that is happening.
    The goal of One-e-App is to bridge the silos that exist 
between all of these various programs. We know that food stamps 
and Medicaid, Earned Income Tax Credit and all of these 
programs live in silos whether it is around the financing 
streams, the administration of those programs, the systems, or 
the application forms. What One-e-App has done is create a 
front-end that is modeled somewhat on Turbo Tax<SUP>'</SUP>, 
asking questions that are relevant, error checking the data, 
making sure that data is complete. On the back-end, and 
wherever possible it is delivering that data electronically for 
final determination.
    We have integrated fully in the State of Arizona so that 
when an applicant is applying for Medicaid, food stamps, TANF, 
the data goes directly into the state system and disposition is 
returned. In California that journey is different, mostly 
because of the county variation and the presence of 58 
different county systems.
    We have been successful in that integration and that 
integration is one of the most important factors in terms of 
deficiency for the administrators in preventing manual data 
entry of all these paper forms, and for the consumer because 
the loop is closed more fully when their data gets there 
electronically. We have screened, to date, 3.3 million people 
using One-e-App and we have generated applications for over six 
million different programs.
    In terms of Food Stamps, Food Stamps is a relative newcomer 
to One-e-App in California, but we have some important pilot 
efforts underway including: a partnership with Los Angeles 
unified school district to test public kiosks; and a 
partnership with the California Association of Food Banks, with 
whom we built a fast track in One-e-App to assist in applying 
for Food Stamps.
    In Arizona, where One-e-App is available statewide, in the 
last calendar year 230,000 households representing 625,000 
people submitted Food Stamp applications, 70 percent of them 
without assistance and 70 percent of those applications were 
approved.
    We are sort of on a journey that some have called radical 
incrementalism. We started with the health programs. We 
realized quickly that once you ask a family the questions you 
need for Medicaid there is not a lot left to ask a family. 
Certainly when you combine Food Stamps and Medicaid you have an 
incredibly rich set of data that can be used to see if people 
qualify for really important programs like Earned Income Tax 
Credit which also brings important resources and helps with 
fiscal stability of communities and local communities.
    This work is not without challenge. Systems reform is 
incredibly difficult. Our success is only because we have had 
important visionary leaders and partnerships with our states 
and counties. I just wanted to mention a couple of the 
challenges and some things that have been mentioned today that 
can help to overcome those.
    Using technology to have systems talk to one another is 
incredibly important. Back-end data matches help to reduce 
cumbersome documentation requirements; and linkages between 
programs, other means-tested programs. While the systems may 
exist in silos, an individual's need does not exist in a silo 
and their eligibility and need for one program usually suggest 
their need for additional services.
    Some of the other recommendations you heard here today, 
removing mid-year reporting requirements, increasing the use of 
innovations like telephonic signatures, removing fingerprinting 
in interviews. Those are the kinds of barriers that make 
technology not as efficient as it can be and that, ultimately, 
prevent people from becoming more seamlessly involved in the 
programs for which they are eligible.
    I will be happy to talk about some of the pilot projects 
underway and answer any questions. Thank you very much for your 
attention to this important issue.
    [The prepared statement of Ms. Page follows:]

Prepared Statement of Claudia Page, Co-Director, The Center to Promote 
                     HealthCare Access, Oakland, CA
    My name is Claudia Page and I am a Co-Director at The Center to 
Promote HealthCare Access (The Center), a nonprofit technology solution 
provider improving quality of life by connecting people to needed 
public benefits. The Center's signature solution is One-e-App, an 
innovative, one-stop, Web-based system for connecting families with a 
range of publicly funded health and human service programs. My comments 
today on participation in Federal nutrition programs will be offered 
through this One-e-App lens.
    The Center works with a variety of states, including the State of 
California and 15 California counties, to use One-e-App software to 
screen and support enrollment of families in programs ranging from SNAP 
(i.e., Food Stamps) and WIC to Medicaid and Earned Income Tax Credit 
(EITC). Nationally, adoption of the One-e-App technology is increasing. 
To date, One-e-App, has been used to screen more than 3.3 million 
people, generating roughly six million applications for more than 20 
programs. Food stamps (SNAP) was implemented less than 2 years ago in 
Arizona and more recently in a couple of California counties. In this 
short time, more than 627,500 of these people were screened potentially 
eligible for Food Stamps through One-e-App and applications were 
submitted for final determination to states or counties.
    The opportunity to provide testimony on this topic is timely and 
important. While technology is not a cure-all for the myriad enrollment 
challenges families face, it is a critical component in bridging the 
``silo phenomenon'' and improving the enrollment process for Federal 
nutrition and other health and social services programs. Further, 
conversations around Federal healthcare reform provide a potential 
opening to promote broader enrollment reform, with improved systems 
development, data sharing and a more thoughtful way to support families 
and make sure they do not fall through the cracks as major new 
enrollment changes are rolled out.
    I will focus my comments on discussing the ``silo'' phenomenon and 
missed opportunities to connect needy individuals with assistance and 
the One-e-App experience in bridging the silos created by complex 
disconnected enrollment processes. I will also provide suggestions for 
overcoming challenges related to using technology to improve access and 
participation.
Context and the Silo Phenomenon
    If there was ever a time to focus attention on the efficiencies of 
the screening and enrollment process for low-income families into 
public benefits, now is that time. Hundreds of thousands of Americans 
have lost and continue to lose their jobs, their homes and their 
savings as a result of severe economic stress at both state and 
national levels.
    For county and state governments this means increased demand for 
government sponsored programs such as Food Stamps and Medicaid. 
Governments are facing the largest budget crisis in recent history and 
have cut and furloughed staff, with additional cut backs likely in 
coming months. Government cannot afford to do business as usual under 
these circumstances. Technology offers promise in redeploying the 
workforce to focus on high-value tasks like answering substantive 
questions about benefits programs instead of tasks like manually 
entering data from paper forms, denying applications when hand writing 
cannot be deciphered, correcting common errors, dealing with duplicate 
applications and rescheduling missed appointments.
    For applicants, the current process of applying for programs for 
which they may be eligible in the current environment means waiting in 
long lines (sometimes snaking outside offices along sidewalks), 
completing multiple paper forms (supplying much if not all of the same 
information each time), traveling to different locations sometimes 
multiple times and navigating an incredibly complex maze of referrals 
and programs. Imagine a single mother trying to hold on to a low-wage 
job, who cannot pay for child care and who's car has been repossessed; 
applying for the very help that may change her situation has become 
nearly impossible. Ultimately, this siloed approach results in missed 
opportunities for assistance because there is no one place to be 
screened for all programs.
    One-e-App was created to not only bridge silos between programs but 
to equip community support networks and families with channels and 
tools to do more for themselves and to relieve pressure on already 
constrained state and county social services and Medicaid departments. 
The goal is to help communities and government better serve individuals 
and families.
One-e-App Solution
    One-e-App is essentially like a ``turbo-tax'' for public and 
private benefits: it is available online, the system is intuitive and 
asks only relevant questions, data is error checked and complete, data 
is stored and retrievable and the system can transmit data and 
documentation electronically where needed for final dispositions.
    Created in 2002 to support enrollment in a variety of health 
programs, over the last several years the system has evolved to include 
a range of government and non-government health and social services 
programs. The following programs are currently available in One-e-App.
Programs:
  <bullet> Food Stamps.

  <bullet> TANF (Temporary Aid to Needy Families).

  <bullet> Medicaid.

  <bullet> SCHIP.

  <bullet> Early Periodic Screening Diagnosis and Treatment (EPSDT).

  <bullet> School Lunch Medicaid (known as Express Lane Eligibility 
        (ELE--a School Lunch and Medicaid linkage) in California.

  <bullet> County Indigent Care and Coverage Expansion Programs (for 
        adults and children).

  <bullet> Kaiser Permanente Child Health Program.

  <bullet> Kaiser Permanente Bridge Program.

  <bullet> Medicare Cost Sharing.

  <bullet> Sliding Fee and Charity Care Programs.

  <bullet> Family Planning.

  <bullet> Cancer Detection (Breast, Cervical and Prostate).

  <bullet> Supplemental Nutrition for Women, Infants and Children 
        (WIC).

  <bullet> Earned Income Tax Credit (EITC).

  <bullet> Voter Registration.

  <bullet> General Assistance.

  <bullet> Discount Utility Programs.

  <bullet> Low Income Auto Insurance.

  <bullet> Child Tax Credit.

  <bullet> CalKIDS Health Programs.

  <bullet> Pharmacy Discount Programs.

  <bullet> Hospital Charity Care Programs.

  <bullet> Work Force Investment Programs (under development).

  <bullet> And other local programs.

    One-e-App integrates with other systems to electronically deliver 
applications and supporting documentation and signatures for many of 
these programs. Electronic interfaces have been built from One-e-App to 
state systems in Arizona and state and county systems in California. In 
addition, Maryland is in the process of building an interface from its 
version of One-e-App to the state system for Food Stamps, Medicaid and 
other programs. One-e-App also interfaces with a variety of other 
entities including PG&E, Kaiser Permanente, health plans, patient 
management systems, electronic health records, U.S. Postal Service for 
address verification, and more.
Innovation and Impact
    One-e-App is currently used in Arizona, California, Indiana and 
Maryland by state and county workers and community-based assistors in 
hospitals, clinics, schools, health plans and other locations. With 
local and state partners, The Center is testing new approaches to 
streamlining access to nutrition and other programs. Activities 
include:
Bridging the Silos--Full Integration to State Systems:
    In Arizona, One-e-App has been fully integrated with the state 
systems enabling applicants to apply across a range of programs. 
Applications and supporting documents can be delivered and shared via a 
fully electronic approach. Disposition data is provided so applicants 
know the outcome of their application. This fully integrated approach 
is the first of its kind in the nation. Maryland is also going to be 
adopting this model and One-e-App, known there as Health-e-Link, should 
be fully integrated across all state and local programs by the end of 
2010.
Public Access:

  <bullet> In Arizona and California (and soon in Maryland) One-e-App 
        is publicly accessible, which means applicants themselves go 
        online (at home, libraries, school computer labs, work) to 
        complete and submit applications.

  <bullet> Publicly accessible One-e-App (called Health-e-Arizona in 
        AZ) launched in Arizona on December 15, 2008, and at the end of 
        2009 nearly 230,000 households submitted Food Stamps 
        applications electronically to the state. This represents 
        almost 626,000 individuals applying for benefits. Of the 
        applications submitted, 68% were approved or benefits were 
        retained (some applications are renewals or change reports.) 
        The approval rate would likely be over 90% had the applicants 
        followed through with interviews and provided verifications 
        (75% of denials are for failing to follow through). Of the 
        230,000 Food Stamps applying households, more than 217,000 
        (almost 95%) had at least one individual likely eligible for 
        Medicaid.

  <bullet> In Los Angeles, One-e-App is available via public kiosks 
        located at school enrollment sites where families can complete 
        the application process themselves, or with assistance from on-
        site counselors. In Fresno, applicants can apply from home, 
        libraries and other locations.
Fast Track for Food Stamps:
    In California, the One-e-App system also provides a newly created 
``Fast-Track for Food Stamps'' that allows Food Banks to assist with 
the Food Stamps application process while a community partner completes 
the application process for additional programs, using the 
electronically stored data and documentation from the Food Stamps 
application as the starting point. This approach allows resource-
strapped Food Banks to more effectively assist with Food Stamps 
applications while leveraging the effort to assist families with other 
programs. Pilot initiatives are underway in Humboldt, San Diego and 
soon in Alameda and Fresno.
Impact of Missed Opportunities to Reach and Enroll in Public Benefits
    As you will have heard from others providing testimony, low uptake 
in benefits programs results not only in missed support for families, 
but also in missed revenue for local economies.
    Earned Income Tax Credit (EITC) program: One-e-App screens for EITC 
and calculates the projected refund families will likely receive, based 
on data provided. To date, One-e-App has referred users to roughly $1.8 
million in EITC credits. It is important to note that we did not add a 
single question to the system to be able make this preliminary 
calculation for EITC; the questions asked of the applicant to calculate 
eligibility for other programs is sufficient to make the EITC 
calculation. This means no added work for assistors helping families, 
but significant opportunity for families to be connected with what is 
considered to be the most powerful anti-poverty tool, and one of the 
most underutilized. The dollars received by families through the EITC 
program make their way back to the local economy, thus supporting local 
economic activity.
    Food Stamps: Missed participation in Food Stamps results in lost 
revenue for local economies. With each dollar of food stamp benefits 
generating $1.84 in economic activity, in Arizona alone, connecting 
households to Food Stamps through One-e-App has put $50 million into 
local economies.
    Health Coverage: It is difficult to put a dollar amount on the 
enormous impact of uninsured and lack of health coverage. As an 
uncompensated Emergency Room visit costs a hospital $1,200 to $1,900, 
frequent utilizers of uncompensated Emergency Room care are therefor 
costly. Further, the downstream impacts of missed preventive care and 
lack of timely treatment are also costly (physically and emotionally 
for families who worry about children getting sick, or getting sick 
themselves.)
    Food insecurity does not exist in a silo. Those challenged to put 
food on the table are also likely struggling with health coverage, 
paying bills, keeping their homes and more. And the numbers are 
significant--on average, roughly 13 million people nationally are 
eligible but not enrolled in Food Stamps, nearly 3.1 million California 
adults are not receiving benefits and 645,000 residents in Riverside 
County alone suffer from food insecurity (data sources respectively: 
USDA, UCLA Center for Health Policy Studies, California Food Policy 
Advocates). In addition, nearly one million Medi-Cal recipients in 
California are also likely eligible for Food Stamps based on their 
eligibility for Medi-Cal, yet there is no linkage or connection for 
these families.
    So while hunger is a powerful indicator of need, when food 
insecurity is addressed as a stand-alone concern, we miss opportunities 
to more fully help families with other issues related to poverty. 
Similarly, when access to health coverage is addressed in a silo, we 
miss opportunities to connect eligible individuals with food 
assistance. There is an entrenched national history of creating silos 
around specific benefit programs, such as Food Stamps and Medicaid. 
These means-tested programs have separate financing streams, 
administrative oversight, technology systems and eligibility rules.
Opportunities for Closing the Participation Gap
    The following suggestions for removing barriers would permit 
technology to be more effective at closing the enrollment gap in food 
and other assistance programs:

  <bullet> Support development (create financing opportunities) of 
        systems like One-e-App and create incentives to encourage 
        states to permit data exchange in the way Arizona has done 
        (with appropriate securities and safeguards). Similarly, to the 
        extent appropriate, provide access to Federal systems (e.g., 
        IRS, Federal IEVS, Federal housing programs). Experience in 
        Arizona points to immediate opportunities to break down the 
        silos through a community based tool that exchanges data in 
        this way.

  <bullet> Provide guidance to states on conducting data matches to 
        establish linkages for other means tested programs such as 
        Medicaid and Free and Reduced School Lunch. Conduct deemed 
        eligibility for programs where a match is identified.

  <bullet> Provide a mandate to state and counties to find secure and 
        safe ways to accept applications electronically through a 
        ``One-e-App'' or similar tool so that applications can be 
        received and processed electronically, thereby extending reach 
        in the community and efficiency for administrators.

  <bullet> Continue to promote ways to reduce the number of in-person 
        meetings required to complete an application, including 
        eliminating the fingerprinting requirement in California and 
        other states requiring fingerprinting.

  <bullet> Promote broader awareness and utilization of telephonic 
        signatures and other innovations to streamline the enrollment 
        process.

    These recommendations do not have to be something that happen in 
the future; they can happen immediately. One-e-App has demonstrated 
success in bridging the silos and while broader systems reform is 
ultimately called for, modernizing enrollment in public benefits is 
complex and disruptive and will take years to accomplish. It is 
critical to start with immediate wins and ready partners while more 
integrated systems reform takes place through healthcare reform and 
driven by economic realities of maintaining outdated, disparate 
systems.
    The Center to Promote HealthCare Access is happy to provide more 
information or to connect interested stakeholders with One-e-App users. 
Thank you for the opportunity to share these comments and experience 
today and for your leadership on this important issue.

    The Chairman. Thank you very much, Ms. Page.
    I want to thank all of you for your testimony. At this time 
we will begin with some of the questions, and I will begin 
myself by asking Dr. Valenzuela:
    Obesity is a major health crisis for our entire nation but, 
as the saying goes, the journey of 1,000 miles starts with the 
first step. I believe that we must tackle this issue not just 
from the Federal perspective, but head on at the local level. 
As someone who has vast experience in this field, what do you 
think is the key to obesity prevention at the community level?
    Dr. Valenzuela. I believe that the only way that we can 
deal with this problem, especially in low socioeconomics, is 
through support in the community for the people's effort and 
reinforcement. For instance, we recently told all our doctors 
to tell the patients, ``You need to do some exercise.'' 
Reinforce exercise after each meal. But that patient as they go 
back into the community they don't have any reinforcement 
support, they are going to go their own way. I think this has 
to be very important in order to succeed.
    The Chairman. Thank you very much. Part of the problem is 
that you as doctors can only see so many individuals and how do 
we then get educational institutions, the communities and 
others at the local level to do what needs to be done? USDA can 
only do so much in terms of marketing, whether it is TV or 
whether it is through other media, public broadcasting, or 
radio, or whatever else needs to be done.
    Dr. Valenzuela. I think that you need to get involved with 
community-based organizations. If we educate and there are some 
funds in order to coordinate the effort, but it has to be 
coordinated through school and teaching by way of many 
institutions of higher education to provide some system. We can 
educate all the medical community, but it is very rare that you 
confront the patient being obese.
    It is an unpleasant conversation to have with a patient. It 
is difficult to actually bring up the issue and, therefore, it 
is something that we have to do and accept as a change in the 
culture in the community. I think we have to be with the 
doctors, be in the churches, be in the community-based 
organizations and everywhere in the schools, too.
    The Chairman. Thank you. I guess all of us realize we have 
a lot of work in partnership and collaboration. We all need to 
work and try to communicate throughout our communities, because 
we are looking at the effects. The cost is going to be on 
taxpayers. The consumers ultimately will pick up the cost in 
the era of obesity for everyone else if we don't begin to 
address it.
    Dr. Wong, I thank you for your testimony on the obesity 
epidemic and its powerful impact on America's children. The 
figures that you threw out, the expenditures on obesity topping 
$1 trillion by the year 2030, that is very alarming to a lot of 
us. Sometimes we don't look at them, but we need to look at it 
because ultimately we are going to pay and people are not going 
to live longer.
    When you combine the losses in work productivity that 
obesity and chronic disease can produce, we need to really 
understand that obesity can literally bankrupt our society. I 
don't think we really understand that yet. We have not come to 
grips with that yet and we need to.
    I think that is what we are trying to do now. The hearing 
that Congressman Fortenberry had in Lincoln, Nebraska, began to 
look at the importance of this issue, and its impact. With that 
what kind of role do you think nutrition education should play 
in our schools and why, Dr. Wong?
    Dr. Wong. It is a significant role that nutrition education 
should play because essentially what we are doing is re-
educating the masses. We are going for a culture change. We 
have to use and utilize all of the means that we have 
available, systems issues, technological advances, and the 
collaboration of everyone in the community.
    However, what I feel is important is that we must 
rededicate ourselves to the family unit, rededicate ourselves 
to getting the message across to parents, because essentially 
parents are the role models for their children. Right now, 
unfortunately, children have many other role models that are 
not as nurturing. For instance, the television and movie 
industries and whatnot.
    Unfortunately, we have somewhat lost our way in my opinion. 
I think that with the aid of the medical community I have seen 
in my practice where parents actually listen to their medical 
providers with greater emphasis than, say, for instance other 
people in the community. I think that is a benefit that we need 
to explore. However, what we need to do is get down and talk to 
the parents and be able to avail themselves of some time to 
spend with their kids so that they can be role models again.
    The Chairman. Okay. Thank you. I know that there will be a 
second round of questions and I would like to follow-up. I know 
that my time has expired but I would like to ask Mr. Sharp. 
Again, thank you for your testimony. We are all aware of the 
tremendous impact that the current economic conditions have had 
on the demands for SNAP and benefits, but can you give us a 
better picture of how our budget crisis in the State of 
California is affecting the Administration's nutrition programs 
like SNAP, WIC, and school lunch? I have the article by Arnold 
Schwarzenegger that says they are cutting back and 150 families 
may lose Food Stamp benefits.
    Mr. Sharp. Each of the Federal nutrition programs depends 
on a partnership at the state and local level that involves the 
administrative funding. For example, the state budget crisis 
that reduced funding for public schools in California by $4 
billion in 2010 over 2009 evidently makes it far less probable 
that nutrition education and physical education will be 
expanded. So it is within that context that there are a variety 
of challenges associated with expanding these programs.
    At the county Welfare Office level where these programs are 
administered, generally, in all 58 counties there are a range 
of hiring freezes and budget cuts. The Federal SNAP program has 
responded to that by providing an influx of additional 
administrative funds both in the Stimulus Act in February, as 
well as again this fall as part of the appropriations bill. 
There are a range of additional challenges associated with 
making one-time investments in the technology upgrades that you 
heard about from Ms. Page.
    There are a number of one-time investments needed to 
modernize the program that will ultimately generate savings but 
it is a time of extraordinary fiscal deficit. In Sacramento it 
is very difficult for policy makers to invest in these kinds of 
short-term improvements, even if they will pay long-term 
dividends. Identical is true with both WIC and the Child 
Nutrition Programs.
    The Chairman. Thank you. I know that we are looking at 
technology and I know Ms. Page made reference to it, but part 
of what I have heard, too, is that we are not talking to one 
another and we are not communicating in terms of the 
technology.
    Which is the best method and what do we need to do, for the 
most cost effective set of programs that can speak to one 
another, and at the same time provide the needed services? You 
can develop the new technology and the new programs, but with 
different programs within each county it presents a problem.
    Mr. Sharp. When food stamps was really expanded 40 years 
ago there was a strong Federal commitment to establish a 
minimum level of access in all the counties across the country. 
That sort of became a Federal program. Ever since then the USDA 
has put a great deal of attention towards trying to understand 
the different variations and participation.
    There is an extraordinary amount of evidence on this as 
well as on nutrition and health habits among participants. The 
challenge is to try and translate those components of knowledge 
and learning into different practices. That is very difficult 
given the multiple jurisdictions involved. The Federal 
Government has a clear established role, and in some of these 
cases it may need to be extended in order to ensure and 
establish new minimum floors in each of the program areas.
    The Chairman. Okay. One final question since Jim Costa is 
not here and I can ask the additional question. Of course, my 
colleague here can too.
    In your expert opinion what is the most important thing 
that we can do, and I state, what is the most important thing 
that we can do to increase SNAP or Food Stamp outreach in 
California in under-served communities? There are a number of 
them right here in this area.
    Mr. Sharp. There are a number of initiatives that are 
underway right now. Given the enormous scale of the under-
served population which, as we mentioned earlier, is three 
million persons, there is not one strategy that is going to 
effectively engage all three million nonparticipating 
households. Many of those households will have had contact with 
either the Medicaid system, as I pointed out in my remarks, or 
have already applied for SNAP benefits and have been turned 
down or discouraged during the process. The single most 
effective strategy is to keep people on this program, or in the 
program, who have indicated an interest and desire in the 
government.
    The second would certainly be to ensure that the confusion 
that exist among Latino and immigrant households is clarified 
regarding the eligibility for these programs in a way that 
reassures families, particularly households that have immigrant 
parents and citizen children that their eligibility for this 
program is unaffected by the immigration status. I think those 
two areas, both ensuring a more seamlessly integrated 
application process that captures everyone that shows interest, 
as well as clarifying confusions regarding eligibility among 
immigrants.
    The Chairman. Thank you. I now recognize the gentleman from 
Nebraska for 5 minutes plus the additional time he needs to ask 
to make sure that we are working bipartisan.
    Mr. Fortenberry. You are all about fairness. This doesn't 
happen in Washington by the way. Thank you, Mr. Chairman. Thank 
you all again for being here and for your insights and 
excellent testimony. Let me make a few comments that I think 
encapsulates some of what you said, Ms. Page, and what some of 
the doctors were referring to.
    One of the frustrations of being in public service, an 
elected official, is you inherit a big pipeline of 
institutional processes and procedures and you refer to silos. 
There is not an Administration that hasn't come into office 
that says we are going to reduce the duplication. We are going 
to make systems talk to one another. We are going to ensure 
that if there is a nutrition program that existed 40 years ago 
that is diminished that is in one department, it is simply not 
going to be replaced by the advent of another one.
    Sometimes, though, we ask questions in silos as well. We 
have a problem with hunger. We have a problem with assistance 
or people properly accessing assistance who deserve assistance. 
I think this comes back to the commentary that the doctors gave 
on the sociological problems here, the fragmentation in 
society.
    Dr. Wong, I think you did an excellent job, a courageous 
job in attacking that. You see this first hand because you 
doctors are more highly trusted than politicians. Well, not 
here maybe. So there is an honesty and a transparency in those 
relationships. You are clearly evaluating what is happening, 
not only in individual lives, but in seeing it over and over 
again you can generalize the broader difficulties that we are 
having societally in terms of family disintegration, in terms 
of poor role modeling that is out there, particularly in the 
media, the pervasive media, the problems of crime and community 
deterioration which prevent a child from playing outside which 
was normal for us, or walking to school. We may have to come up 
with a program that kids have to walk 30 minutes in school. 
This was unthinkable 40 years ago. You just walked to your 
school.
    These are some of the hard realities that are out there in 
addition to the pressures on educators who have to produce 
outcomes. These older interests of life skills and the rest of 
it are taking a second place as we are dealing with the 
emergency needs that appear to be before us. This is what is 
frustrating at this level because you have a responsibility to 
deal with both; an emergency to put out the fire, but what is 
causing this societal fragmentation in the first place.
    In that regard, though, given the prestige and trust that 
does exist with medical doctors particularly, one thing that I 
am concerned about is, again, and I hinted at it earlier, is 
the way in which we reimburse for services, the way in which 
you are paid. You have to make a living. You have huge 
opportunity cost in your own education and it takes a long time 
to get some place where you have a stable income.
    There is pressure on you, particularly given the supply 
meeting the demand, more and more demand, that you move someone 
along as quickly as possible with that which is, of course, 
efficacious but that which is also reimbursed. How do you 
reimburse for your time sitting down with a family and say, 
``You know, what the difficulty here is, you really need to try 
to get along. Your children need you. The consequences of this 
are habits that are being inculturated that are going to lead 
to disasters for your own children,'' and such.
    That is a hard thing to do, I understand, but, again, you 
being on the front line of this social difficulty, I think it 
is something we can drive back to. As I was suggesting earlier, 
in terms of the way in which we reimburse, because if you saw 
someone that you know you could give some drugs or treatment to 
and be reimbursed. But, it would be better simply if they 
embraced some sort of lifestyle change that became disciplined 
around healthy foods or exercise or just simply personal 
interrelations. That could lead to better outcomes and reduce 
the pressures that we are feeling on this end, potentially, in 
the long term. That is probably a hearing in and of itself.
    It is the frustration that Congressman Baca and I see when 
we have real people in real pain and you have to put out a 
fire, but how do we get underneath this and change directions 
so that people are truly interconnected in communities, of 
affirmation where they live out life in hope and love with 
others. That is ultimately what the human heart is longing for. 
When you have that guess what happens? Health improves. It 
really does. That is a demonstrable fact. Mr. Sharp, you are 
clearly an expert on statistics. I think you would agree there 
is a direct correlation there.
    Mr. Sharp. Absolutely.
    Mr. Fortenberry. I just gave a speech. I was supposed to 
ask a question. Anyway, what do you think of that?
    Mr. Sharp. That was a very complicated question. 
Notwithstanding from a provider standpoint reimbursement is a 
major concern. From a pediatric standpoint historically we do 
not get reimbursed for anticipatory guidance or spending more 
time in educating families and trying to get families on board.
    Mr. Fortenberry. That's true.
    Mr. Sharp. However, we do get reimbursed through other 
programs like pay for performance programs based upon outcomes 
management. Also we want our kids, our patients, to be well and 
we want out families to be well, or else we would not have been 
in this business in the first place.
    However, I think that one way to try to refocus on this 
particular issue is to really engage providers on early 
recognition. Some certain quantifiable aspects that we can 
recognize patients early, very early, and be able to direct 
them to community resources. We need a collaborative effort 
with other people in the community to be able to get the 
message out even when we won't be able to get out that message 
because of time constraints.
    I think that physicians need to speak with one voice on 
this particular subject. Unfortunately, physicians don't have a 
habit of doing that. However, it is important and physicians do 
recognize that. It is just another aspect to healthcare reform 
that we need to approach.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    The Chairman. Just a quick comment in reference to Dr. 
Wong's question. It is a good question that the gentleman from 
Nebraska asked about the reimbursement. You mentioned that we 
get reimbursed in other ways. I think that is what we have to 
address as well. When you start looking at oversight 
accountability, transparency, then we begin to ask questions 
why is so and so getting billed for A, Y, and Z when they 
provided something else out here.
    That is where we have the difficulties in Washington, D.C., 
when we are trying to look at dollars that are coming back into 
the area. So, we have to be very careful when we turn around 
and say we get reimbursed in other ways and not bill someone 
for something else when you actually provided the guidance 
during that period of time out here.
    I have a question for Ms. Jessup and this is not a question 
from me. This comes from Congressman Jim Costa and I told him 
that I would ask you. He told me to make sure I asked you this 
question. He says, ``Thank you for being here representing 
Fresno. Your experience in the nutrition and hunger programs is 
much appreciated here. You mentioned that the county had 
concerns about rural municipalities transmitting data back to 
the county. What was the primary concern--errors on the 
forms?''
    Ms. Jessup. This is in reference to trying to find ways to 
enroll people who live 80 or 100 miles away from where they 
have to apply for Food Stamps. Last summer in the midst of the 
real crisis around the food and the droughts in communities 
that have 40 to 80 percent unemployment right now, I proposed 
that the county allow the municipalities to act as a place 
where people could apply for food stamps rather than trying to 
apply for them standing in 110 heat while they were collecting 
not enough food.
    The county, I believe, is just worried about error rate. 
They are worried about having their hand spanked for enrolling 
somebody who maybe they find out later didn't quite apply or 
didn't have all the information, all the documentation that was 
required. It ended up not working out. It could have been a 
first step for folks, but it didn't happen because they are 
afraid. They are afraid of making a mistake and that overwhelms 
the actual intent of the program and people aren't enrolled.
    The Chairman. Thank you. He had an additional two questions 
and I am just going to submit for the record and I will give 
these to the staff here. As you mentioned in your testimony it 
makes it clear that you have seen firsthand the inefficiencies 
that can arise when Federal, state, and county authorities get 
into jurisdictional fights? How can all of these different 
levels best work together on an issue like nutrition education, 
and obesity prevention?
    Ms. Jessup. Okay. I would particularly like to address the 
obesity prevention issue. Nutrition education, there is plenty 
of it and it is out there, and it isn't the issue. I am very 
concerned in terms of the spectrum of prevention looks at 
things like individual behavior change and the kind of care 
that the physicians are talking about. At the other end, the 
end of policy and environmental change, is really a causal 
factor and it is multi-sectored, and it really is the area that 
we have to say, ``This is not right and we can't do it 
anymore.''
    I know that sounds pretty harsh but we really are moving 
into a difficult situation.
    The program I work with works in about 12 different sectors 
to create environmental change so that when the physician says, 
``You have to do better with your diet and physical activity,'' 
they go back into a community where the zoning is such that 
there is food access for them that is healthy. That the parks 
are open and available and have safe places for people to be.
    Mr. Fortenberry. Can I interject, Mr. Chairman?
    The Chairman. Yes.
    Mr. Fortenberry. This is a very interesting point that we 
have unpacked in previous hearings. The actual access to 
healthy foods is another issue, not just retraining of habits.
    Ms. Jessup. Yes. And so you can say that----
    Mr. Fortenberry. Particularly in dense urban communities. 
It may be a little different where you are.
    Ms. Jessup. Well, no. In dense urban communities and in the 
rural areas where there may only be a liquor store and that is 
where people get their food. Until we make those changes and 
create incentives for the business community to really--you 
spoke before about having to go back. Our distribution systems, 
the place in between the food and the person are broken, and we 
really do need to go back to that. Those are big environmental 
and policy issues around that.
    Fresno, the city, we made a policy change that will allow 
farmer's markets in Fresno. Prior to that change they were not 
allowed, so we didn't have farmer's markets on every corner 
which is what you would expect.
    The Chairman. I think that is part of the problem we tried 
to address in the ag bill with fresh fruits and vegetables in 
the Snack program.
    Ms. Jessup. Fresh fruits and vegetables, yes. Looking at 
those as our valued crops and relooking at subsidies, which I 
mentioned in my testimony. Otherwise, I would say that it 
really is the community, but that physicians may need to write 
prescriptions for food stamps or for school meals. It is an 
environmental change. It is an environmental change that we 
need to have happen.
    The Chairman. Mr. Fortenberry, you wanted to interject 
something?
    Mr. Fortenberry. This is clearly what I was driving at 
earlier, rethinking some of the frameworks in which the medical 
system interacts with patients, particularly if we have drawn 
the correlation between nutrition and healthcare outcomes. They 
have to be paid. I mean, they can't do it and so they get paid 
for certain behaviors and not paid for others.
    These gentlemen are good public servants in the sense they 
are clearly on a mission because their patients want to be 
well, but changing the institution to incentivize that, 
particularly through reimbursements, is something we have to 
think through. I think that, again, is a way in which we do two 
things as I said at the beginning, improve outcomes and we 
reduce cost as they manifest themselves in the healthcare 
system and other poor outcomes like you were talking about 
depression, family disunity and the rest.
    Ms. Jessup. I think that is so important. The California 
Medical Association has an obesity prevention program and is 
encouraging physician champions to actually talk to the wider 
public. It is op eds about the issue of what you are seeing.
    The Chairman. On that note, let me go on to ask Mr. Marsom 
a question as well.
    Can you give us some examples of effective marketing and 
outreach techniques for Federal nutrition programs that you 
have seen in communities across the United States and what 
makes these programs effective?
    Mr. Marsom. That is the big question. I think there is one 
that we always like to share which started here in California. 
It was a local program that has now been expanded around the 
state which is Good Harvest of the Month. It is a program 
funded through SNAP-Ed. What happens in the schools and 
communities, where this program is taking place, is that they 
choose a different fresh fruit and vegetable every month and 
while that is seasonally and locally available they promote 
that in schools.
    These are low-resource, low-income schools. What happens is 
as they engage with the teachers and the students and also then 
with the parents. We have worked with retailers who are 
actually showing those products are selling out in the stores 
because the children come out of the classroom, they go home, 
they are in the grocery store with their parents and they say, 
``Oh, look. There is the blueberry. There is the squash that we 
talked about in the classroom today.''
    What we have been able to do at the state level with the 
SNAP-Ed funding is have a program that is comprehensive. I 
think the point that Edie raised is it is not enough just to do 
the education alone. I think, certainly, there are many 
families that need to have that basic one-on-one education, but 
what has been shown time and time again to work whether it be 
an obesity issue or smoking is you need to have a comprehensive 
approach in all aspects of people's lives. At the faith 
community when people are at church they hear about healthy 
eating from their pastor or from the clergyman. When they are 
in the grocery store at the point of sale they can see the Five 
a Day message or the healthy eating message.
    When they are at school or when they are at work we have 
worksite promotional messages. What unfortunately is limiting 
the program's success are the extremely burdensome 
administrative requirements which, while we understand the need 
and the importance of targeting, there comes a point where the 
expense of the administration of the program is turning away 
many local dollars, local funding that could be puts towards 
this to draw down Federal dollars into the state.
    It is unfortunate that Congressman Costa had to leave 
because as a result of the USDA rules I have referenced in my 
testimony Fresno County actually withdrew from the Federal 
program. They didn't want to see their local dollars matched 
against the Federal dollars for more traditional one-on-one 
education. They realized that to address obesity to help the 
Food Stamp families they need to address the spectrum of 
prevention that Edie referenced so you are addressing the 
individual, you are addressing the interpersonal in the 
community, and you are addressing that norm.
    On any approach, to answer your question again, it has to 
be a comprehensive approach using media, using technology with 
the kids these days using online tools and resources as well, 
rather than just simply handing someone a brochure and saying, 
``Go out and eat healthy.''
    The Chairman. Thank you very much. I think we have to look 
at it from the positive point of view, especially as we look at 
fresh fruits and vegetables. For us adults we are trying to eat 
a lot more blueberries now because some of us can't remember 
what we did on the last hole when we play golf. I would love to 
have that person jump back in, to remember. It goes right back 
to education as well saying, ``This is what it does for the 
mind.''
    I am kidding. When we look at a child, if, in fact, they 
start eating those kinds of fresh fruits and vegetables perhaps 
their ability to think, their ability to act would improve 
their ability in the classroom. I think we have to approach it 
from that perspective as well, and not just from the 
perspective of saying, ``Hey, I want to remember what I scored 
last time I swung the club.'' The golf club that is on the golf 
course. I want to make sure I clarify that for the record. On 
the golf course, not anywhere else. Somebody had stories about 
being swung somewhere else, but I don't want to mention where 
they were swung but on the golf course.
    Ms. Page, I would like to ask you a question: In your 
testimony you mentioned that a few California counties have 
already adopted the One-e-App process for SNAP. Which 
California counties have already adopted that process? That is 
question one, and question two, what do the results look like 
for these California counties?
    Ms. Page. Sure. The first county was Fresno County and the 
process isn't just to flip the switch. Conversations had to 
take place with the county agency to discuss how applications 
would be received, because there is not an interface between 
One-e-App to the county system in Fresno. That is really one of 
the single biggest challenges.
    It is the same challenge faced in Los Angeles, which also 
includes Food Stamps and their version of One-e-App, but there 
is no interface between One-e-App and the county Social 
Services Agency. It means you have to have conversations about 
will the applications be mailed? Are you going to require that 
they be delivered in person? Would you permit a fax receipt?
    Those details are part of what we have been working out in 
both Los Angeles and Fresno and so the numbers, frankly, are 
kind of low as we have launched only in the last several months 
with both of those counties. We will now be able to start to 
analyze what kind of impact we have, and more importantly, look 
at why the impact isn't greater in part looking at the 
integration issue.
    The other counties are--Humboldt County is going to launch 
in the next couple of weeks and there are organizations in 
Sonoma and Napa who also use the system, but it is not county 
wide. There are several other organizations and counties that 
will be coming onboard.
    I just want to say one thing about the adoption of food 
stamps which is that our journey really began with the health 
programs with a lot of our partners. This is the other 
challenge, that it was a bit of a paradigm shift to have 
traditional health organizations take on the responsibility of 
doing the screening and assessment for Food Stamps, Earned 
Income Tax Credit Programs, those other programs. It is going 
to be incremental, but the inroads that we are making and 
having a system that makes it more rational to do that 
screening is going to be critical to making a food bank that 
never does an assessment for a health program be willing to 
take that on.
    The Chairman. Okay.
    Mr. Fortenberry.
    Mr. Fortenberry. Just one more quick question. You well 
know how particularly in this state, but also at the Federal 
level, the resource constraints that we're under. Are there 
ways to improve nutritional outcomes and participate in the 
paradigm shift, as you well stated, without expenditure of 
additional resources?
    The Chairman. This is open to any of the panelists.
    Mr. Fortenberry. That is my last question.
    Mr. Sharp. Let me do one that hadn't come up yet at all 
which is that the dietary guidelines for Americans spell out a 
roadmap on how to live. There is a very slow process underway 
to align all the Federal nutrition programs to not only serve 
food that exemplifies the dietary guidelines but actually 
teaches those lessons. The most cost effective thing you can do 
within the current resources are to ensure that the programs 
are teaching the healthy habits that are intended.
    In 2004, you required the WIC program to update its food 
package accordingly and you need to establish the same 
expectations for the Childcare Food Program. There is a process 
underway with school lunch now to do that. As in the context of 
the previous panel's discussion about this pilot program to 
incentivize, that would be a promising long-term direction 
within the limited fiscal constraints to try and target the 
benefits of SNAP more effectively.
    Unlike childcare and WIC there has not yet been a 
demonstration project to test out the cost and benefits of 
relative approaches. That is the general direction that public 
health is going is to restructure the guidelines, the meal 
patterns, the standards in order to both encourage the healthy 
habits, so that the healthiest choice is also the easiest 
choice and that is the best way to teach the lesson.
    Mr. Fortenberry. That is an interesting concept because the 
healthiest choice is not always the easiest choice right now, 
particularly, because of a lot of factors you pointed out, all 
of you pointed out.
    Ms. Jessup. I would like to offer a suggestion of a joint 
initiative with Health and Human Services between the 
Department of Agriculture, which has the food, and the SNAP and 
nutrition programs. At that high level put the two together to 
weed out some of the silos between the two and to really make 
the point of the obesity issue real for the rest of the 
country.
    Mr. Fortenberry. Thank you.
    Mr. Marsom. So quickly on the cost question. I mean, one of 
the unique and wonderful aspects about SNAP nutrition 
education, of course, is that it is a shared cost between the 
Federal Government and the states. But we also know, and 
elected officials are often especially aware of this, is the 
mass media is an extremely powerful way of reaching individuals 
and changing perceptions. However, it can be very costly.
    What we found in recent years in California where the state 
had tried to use mass media to reach the target population USDA 
had called us because when you are reaching an audience with 
mass media there are going to be people they use the term 
``incidental outreach.'' There are people who are going to be 
watching or listening to a radio station who are not 
necessarily going to be eligible. They are going to be low 
income but perhaps not in the program.
    Headquarters USDA required that the state narrow the target 
to show that the maximum number of people who are reached are 
eligible. That actually cost a great deal more money. 
Consequently they actually reached fewer of their actual target 
population and that to me is where we get some fuzzy math going 
on.
    If we understand that the outcome is to reach the greatest 
number of the target population, and if we can show that using 
the types of evidence and media targeting that is available in 
the private sector, we on the public program should be using 
those types of expertise, that type of information. That way we 
can actually in the long-term reduce those costs.
    Another point specifically, we believe that if states were 
today allowed to use their existing Federal share to include 
some of these public health approaches, they could do so 
without increasing the actual Federal share of the program 
because that is how they draw it on the match. If they use the 
existing Federal money and just include maybe 20 or 30 percent 
of that to support public health approaches, we believe there 
could be some tremendous results in terms of addressing obesity 
and hunger.
    Mr. Fortenberry. Thank you.
    Ms. Page. From a systems perspective, on the cost front 
with the precious resources that are being invested, it is 
incumbent upon the Federal financing streams to be funding the 
integration and the interoperability. So that Federal financing 
comes with a requirement that investments in systems that the 
states are only using those dollars to build systems that can 
talk to one another, that they are building them in the right 
architecture and on the right platforms. The Federal Government 
might look at the investment in a state like California in four 
separate systems that do not talk to one another, and how much 
longer does that meet the criteria in this fiscally constrained 
environment.
    Mr. Fortenberry. Thank you.
    The Chairman. Thank you. Before we adjourn, I would like 
Mr. Fortenberry to make his closing remarks and then I will 
make my closing remarks before we dismiss the panel.
    Mr. Fortenberry. Great. Well, again, thank you all for the 
investment of time today. Thank you all who have stayed with us 
through the whole time. I am very impressed by your 
willingness, again as a community, to come out and listen to 
this. I hope this has been helpful to you. These types of 
hearings are always very helpful to us as we try to unpack the 
implication in real time the policies that we have made in 
Washington, D.C.
    I want to thank you and congratulate you on the excellent 
spirit that I perceive in your community of both cooperation 
but real intensity of care. You are, of course, using resources 
well, but are taking community-based approaches to real complex 
problems that are a convergence of a lot of factors.
    Interestingly today our hearing unpacked a lot of those 
social complexities in the one manifestation of it in terms of 
hunger and nutrition-related healthcare problems. I think this 
has been very helpful and I am really grateful to Chairman Baca 
again for the privilege of being here with him but the honor of 
the invitation as well. Congratulations, sir, on a great 
hearing. I appreciate, again, the opportunity to be here with 
you.
    The Chairman. Thank you very much. Before we adjourn I 
would also like to thank each of the panelists for being here 
today and for your thoughtful testimony and your knowledge and 
your participation. I hope Congress will find the best policies 
and solutions to meet the challenges to our national health 
problem including from nutrition, obesity, and cost 
effectiveness.
    I think when we have hearings like we are having here right 
now we actually get to hear from each and everyone of you prior 
to and in this hearing itself. It was helpful to hear you 
express some of the problems that we are having, and some of 
the solutions, some of the directions, and some of the 
suggestions. I think if we had been back in Washington, D.C. we 
probably wouldn't have heard as much as we have heard right 
here.
    Maybe that is a warning to us to say that we should have 
more hearings out in communities throughout the states, because 
we actually have the ability to hear all of your thoughts and 
your inputs other than your written testimony. When we are back 
in Washington, D.C. I believe the bell goes off and at that 
time we are on a time schedule for us to get back in and vote, 
and then trying to get back into a hearing and trying to pick 
up where we left off.
    This was very fruitful for us to have this kind of a 
hearing and get the kind of input that will look towards 
policies across our nation. It is always worthwhile to come 
home anyway and get local perspective on our national 
legislation and how we can best implement these policies. I 
want to thank Congressman Fortenberry, Congressman Costa again. 
A special thanks for both of you for traveling to the Inland 
Empire.
    Last but not least, also I want to thank Arrowhead 
Regional, all the individuals that were involved, my good 
friend Frank Reyes who has been wandering around to make sure 
that everything was done. Also to Dr. Dev who was here as well 
and making this hearing happen and making history right here in 
the Inland Empire. This is a historical moment. Hopefully we 
can go on and do the same things, another time.
    Again, thank you very much, panelists, for being here. With 
that I would like to state under the rules of the Committee the 
record of today's hearing will remain open for 30 calendar days 
to receive additional materials and supplementary written 
responses from the witnesses and any question posed by Members. 
This hearing of the Subcommittee on the Department Operations, 
Oversight, Nutrition, and Forestry is now adjourned.
    [Whereupon, at 12:48 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Statement by Lorna Donatone, Chief Operating Officer and 
                Education Market President, Sodexo, Inc.
    Mr. Chairman and distinguished Members of the Committee, thank you 
very much for giving me the opportunity to provide input on innovative 
practices adopted by Sodexo to improve child nutrition. I am pleased to 
describe for the Committee examples of programs that Sodexo has found 
successful in increasing the consumption of healthy and nutritious 
meals by students. We know that access to good nutrition benefits 
children not only in their health and wellness but also in their 
ability to achieve academic success.
    Sodexo is the leading provider of integrated food and facility 
management services in the United States with roughly 110,000 employees 
in 6,000 locations across the country. Through our School Services 
Division, we are privileged to serve 2.8 million school meals each day 
to students in more than 470 school districts across the country.
    In California alone, we provide student nutrition services at over 
65 public school districts throughout the state. In those districts, 
which range from large city systems like the San Jose Unified School 
District, to small rural systems, we provide wholesome meals that meet 
or exceed all USDA nutrition guidelines for schools.
    Sodexo is focused on the overall well-being of the students we 
serve and we are committed to delivering effective programs that help 
students, teachers, parents and employees understand nutritional 
concepts and allow them to make informed decisions that support a 
healthy lifestyle. Experience has shown us that persuading children to 
eat more nutritiously is an evolving process that requires new and 
creative methods that make healthy foods more acceptable to children. 
Permit me to outline several specific parts of the Sodexo approach 
which we have found to be especially effective in California.
    Sodexo looks for opportunities to make healthy food fun and 
interesting to childing. For example, Sodexo organized a special fruit 
and vegetable booth for the Romoland School District health fair in 
Homeland, California. The booth included fresh fruits and vegetables, 
along with recipes and informational flyers about the produce. The real 
highlight of the event was exotic foreign fruits including star fruit, 
passion fruit, kiwi, kumquat and loquat. These fruits were both cut 
into pieces for tasting and left whole so students could touch and see 
them. Another example is the San Ysidro School District Waffle 
Breakfast Bar--a promotion that encouraged healthy eating by using 
fresh toppings like unsweetened strawberries, blueberries and bananas. 
The promotion has been a major hit with students, and the school 
district has seen a 50% increase in breakfast participation on 
promotion days. On the days following the promotions, participation in 
the school breakfast program also has increased, so we know that these 
promotions and programs are working to encourage children to eat 
healthy breakfasts at school.
    However, it is still an unfortunate fact that many students who 
qualify for free and reduced price school meals do not take advantage 
of those services. Sodexo's research shows that a variety of reasons 
contribute to this including failure to complete the application, 
social stigma associated with subsidized school meals or, in the case 
of breakfast, extenuating factors that impact the child's ability to be 
in school in a timely fashion
    Sodexo supports school districts by encouraging families to 
complete and submit the meal benefit application. Completing the 
application is the first step to ensuring that all students have the 
opportunity to enjoy healthy meals everyday. Sodexo works with our 
school district partners to find new ways of getting that message to 
students and parents and encouraging them to sign up for the federally-
funded program. In Rhode Island, Sodexo works with a local radio 
station on an annual promotion that provides rewards and incentives for 
students at ten high schools throughout the state who complete free and 
reduced program applications. The promotion, which started in 2005 and 
was created to increase participation in the program, while also 
removing the stigma associated with free and reduced meals, has been an 
overwhelming success and has produced a 15% increase in applications 
and a 25% increase in meal participation during school.
    The next step in the process is developing new, creative solutions 
and opportunities for students to access meals. An excellent example of 
Sodexo's efforts in this area comes from our operations in Atlanta 
Public Schools where we found that students were not eating breakfast 
at school, despite the fact that we offer free breakfast to all 
students in the district. In an effort to get more students the 
nutrition they need to succeed, Sodexo and its partner Jackmont 
Hospitality started a program that delivers breakfast directly to 
students in their morning classroom or distributes nutritious breakfast 
foods at special kiosks as students enter the building at the start of 
the school day. The ``desk-side'' breakfast program, which Sodexo 
launched last school year, has increased breakfast participation at 
schools by 200 percent and school officials report that attendance 
figures have increased over that same period of time. School district 
officials also report fewer behavioral problems and increased 
punctuality as a result of the innovative breakfast program.
    Giving children a ``second chance'' to have breakfast during AM 
recess in Cotati-Rohnert Park in Sonoma County, CA has also proven 
extremely effective. The ``second chance breakfast'' was implemented in 
January 2009. Cotati had previously offered traditional breakfast at 
7:45 a.m. before the start of the school day and the participation in 
the traditional program was minimal. Students were not able to get to 
the cafeteria at the early time of 7:45 and many of the free and 
reduced students were hungry and not receiving their much-needed 
breakfast. The pilot at an elementary school was a huge success 
allowing Sodexo to roll the program to the remaining breakfast sites in 
the following months. As of September 2009, the before-school program 
was eliminated; breakfast is now only available as the ``second 
chance'' program at recess. The results for the first quarter of the 
2009-2010 school year show an increase in participation by 22,413, a 
60% increase over the same period last year.
Creating Pleasurable Food Experiences Add More Impactful Information 
        About Our Programs To Encourage Healthy Eating
    Along with ensuring that students have access to nutritious school 
meals, our goal is to provide children with affordable meals that they 
enjoy eating. In order to meet the desires and needs of students, 
Sodexo has a team of experts including executive chefs and registered 
dietitians who monitor student insights and trends and also reviews and 
evaluates evolving studies on student nutrition. We have discovered 
that children tend to eat with their eyes first, so the food we serve 
must be colorful, visually appealing and familiar. Sodexo has been 
working closely with its vendor-partners to source food that meets high 
nutritional standards while also being attractive to kids--both in 
flavor and visual appeal.
    Sodexo strives to find innovative ways to serve healthier versions 
of the foods and beverages children love. For example, in California, 
Sodexo switched to a sucrose-based chocolate milk as a healthier 
alternative to the high fructose corn syrup version in 2010. This 
change is happening at all Sodexo districts across the state.
    In a school district in Hopewell Valley, NJ, the block shaped wax-
coated milk cartons that traditionally have brought milk to 
schoolchildren have been replaced with eye-catching, pear-shaped, 
recyclable plastic bottles that feature tasty low fat milk in regular, 
low-fat chocolate and strawberry flavors. In addition, the school 
provides a number of milk-based promotional items such as magnet, 
buttons, rubber wrist band and the like. In other school settings, milk 
machines have been moved to high traffic areas and the distinctive 
``Got Milk'' posters are used to attract student attention. In all 
cases, we are pleased to report that milk consumption has increased and 
recent studies support the fact that offering a variety of milk choices 
sustains student consumption of milk. In a recent study, when flavored 
milks were removed from schools, there was an observed reduction in 
milk purchase consumption for all grades (K-12). This reduction ranged 
from 37 percent in high school to 62 percent in the lower elementary 
school grades. This reinforces the fact that milk needs creative 
packaging and variety so that students benefit from the additional 
calcium and vitamin D afforded by milk.
    In addition to the examples provided above, we also have increased 
healthy eating through the utilization of age appropriate educational 
programs. At the K-12 level, Lift-Off is Sodexo's school ambassador and 
this character is presented in a variety of fun and engaging ways to 
entice students to aim for better nutrition and physical activity.
    In an effort to make good nutrition fun, we partnered with Martha 
Montoya, the Los Angeles-based cartoonist behind the nationally-
syndicated ``Los Kitos'' comic strip. The partnership brought popular 
``Los Kitos'' cartoon characters like Pikito, Mima and Solito to 
elementary school cafeterias across the United States with a monthly 
comic strip. Sodexo's nutrition mascot Lift-Off, joined the ``Los 
Kitos'' characters in entertaining and educating students through comic 
strips about valuable topics such as the importance of breakfast, daily 
exercise, gardening, planning balanced meals and taking care of the 
environment. To help celebrate the nationwide program launch, Lift-Off 
was joined by Montoya and Mima from ``Los Kitos'' to bring a special 
health and nutrition message to students at William McKinley Elementary 
in the Burbank Unified School District. During this visit, Montoya 
taught students to draw cartoons during a classroom educational session 
while a registered dietitian also taught students about healthy eating 
and then lead the class through an engaging activity session. The 
cartoons have been so popular with students that we were asked to 
convert the comic strips into coloring pages so students could bring 
the cartoons to life with their creativity.
    For middle school, we offer Performance Zone and at the high school 
level we offer Balance Mind Body and Soul. Both programs highlight 
nutritional content of meals, offer monthly promotional messages 
through brochures, posters and signage, and offer vibrant, age-
appropriate signage to motivate students to make healthier lifestyle 
choices. Students have access to a variety of wholesome menu choices 
with pizza made from whole grains and low-fat cheese, and fresh salads 
and deli options.
    Along with our base nutrition programs, Sodexo has special 
initiatives and promotions designed to teach students about the 
importance of balanced nutrition and making healthy choices in the 
cafeteria, at home and throughout life.
    Sodexo's A to Z Salad Bar program offers students a chance to learn 
about a wide variety of fruits and vegetables by providing a produce 
item for each letter of the alphabet on a cart. Sodexo encourages 
students to try all of the items and gives them information about why 
fresh fruits and vegetables are an important part of a balanced diet.
    The Produce of the Month program is another example of Sodexo's 
commitment to nutrition education. Not only does Sodexo highlight a 
specific produce item each month, but the company also creates 
informational materials for students and parents, including nutritional 
facts, educational games and activities and recipes to try at home, to 
encourage healthy eating away from school.
Building Cross-Community Coalitions To Encourage Healthy Eating
    We have also discovered that it is essential to involve varied 
members of the educational community is influencing the food choices of 
children. In many instances, we have formed Nutrition Teams, comprised 
of parents, teachers, food service directors, dietitians, students, 
school nurses and physical education teachers to develop healthy meals 
and to coordinate and integrate educational messages at home, in the 
classroom and on the playground. Our chefs and registered dietitians 
have been invited into classrooms to teach nutrition and culinary 
skills, and have offered after-school programs, such as cooking 
demonstrations on creating healthier meals at home. Other school 
communities have begun to build school gardening programs with the 
assistance of Sodexo managers and chefs. Registered dietitians and 
school managers work with parents and nursing staff to ensure students 
with diabetes and food allergies are properly accommodated. And most 
recently, we have signed a very important agreement with the Alliance 
for A Healthier Generation to ensure beverages and snacks served to 
students in all grade levels meet specific nutritional criteria. By 
serving snacks and beverages with a healthier nutrient profile in age-
appropriate portion sizes we hope to visually educate students, parents 
and teachers about better food choices.
Access To Healthy Foods Is Critical in Fight Against Childhood Obesity
    At Sodexo, we know that children who don't have access to healthy 
foods are more likely to suffer from childhood obesity--a condition 
that will create other devastating health problems for life. Recently, 
Sodexo joined First Lady Michelle Obama in her National Fight Against 
Childhood Obesity Initiative, named ``Let's Move'', to positively 
impact students nationwide in the next school year. The agreement will 
affect 135,000 students in the 2010-2011 school year alone. In 
addition, representatives estimate a potential increase of 18,700,000 
meals conforming to standards outlined in the Healthier U.S. School 
Challenge. The school lunch providers expect to reach two million 
families with nutrition information.
    Under the agreement, Sodexo and industry partners have agreed to 
support the First Lady's Initiative by including more fruit, juice, 
vegetable, whole grain and milk options in reimbursable lunches. Sodexo 
also agreed to increase nutrition education efforts aimed at students 
and parents, as well as encourage broader participation in the USDA's 
Healthier U.S. Schools Challenge by providing technical assistance and 
facilitating paperwork requirements for the schools they serve.
    Sodexo also commits to working closely with the White House, and to 
continue to work with Federal and state agencies, local school 
districts and others in the private sector to achieve the First Lady's 
goal to eliminate chilldhood obesity in this generation.
Conclusion
    Mr. Chairman and Members of this distinguished Committee, these are 
brief highlights of the many ways in which we strive to increase 
student access and interest in school meals, and thus, promote 
consumption of a healthier diet.
    At a time of great need, increasing access to these vital programs 
would benefit millions of American children. A recent survey conducted 
by the Alliance to End Hunger showed that half of likely voters in 
America live from paycheck to paycheck. Too often when families are in 
a hand-to-mouth situation, children's nutritional needs suffer. We 
believe the foodservice Sodexo provides to 470 school districts across 
the country can be an even greater solution to this current problem.
    Thank you for allowing us this opportunity to share our story. We 
look forward to working with this Committee to inform the policy 
discussions surrounding access to healthy food and ways to encourage 
healthy eating in the Federal school lunch programs.
                                 ______
                                 
                          Submitted Questions
Response by Claudia Page, Co-Director, The Center to Promote HealthCare 
        Access
Questions Submitted by Hon. Jim Costa, a Representative in Congress 
        from California
    Question 1. You mention that the One-e-App is being used in Fresno. 
When was this system started and what sort of success rates have you 
seen in terms of enrollment?
    Answer. One-e-App was originally launched in Fresno in September 
2005 with a focus on children's health coverage programs. Over time, 
Fresno has increased the range of programs and the channels through 
which applicants get connected to coverage.
    Food Stamps was added to Fresno's version of One-e-App in 2009 but 
is still in a pilot phase. Progress has been slow in part due to 
challenges in working with the County Social Services Agency on the 
process for accepting Food Stamps applications originating from One-e-
App.
    The collaboration of the state or county agency(ies) responsible 
for final eligibility determination is a critical success factor for 
systems like One-e-App that are aiming to streamline and improve the 
efficiency of eligibility and enrollment processes. The presence of 
this collaboration in the State of Arizona has resulted in a 
streamlined process that has generated Food Stamps applications on 
behalf of nearly 628,000 people. In Arizona, One-e-App interfaces with 
the state system to electronically deliver applications and supporting 
documentation and signatures for Food Stamps and other programs. 
Similarly, in California's San Diego County, county agencies are 
supporting and funding the creation of an electronic interface with 
One-e-App to better facilitate Food Stamps applications in that county. 
There is no similar ``pipeline'' to deliver applications to the county 
agency in Fresno.
    In California, in addition to Fresno and San Diego, One-e-App also 
facilitates Food Stamps applications in Los Angeles, Sacramento and 
Solano (and soon in Napa and Sonoma). California's delegation of Food 
Stamps eligibility determination to counties means that implementation 
of a system like One-e-App happens incrementally on a county-by-county 
basis, a slower and more resource-intensive process than in states 
(such as Arizona, which uses One-e-App for Food Stamps) where 
eligibility is centralized.

    Question 2. What are the primary barriers to expanding this program 
nationwide?
    Answer. There are a number of barriers to expansion, including 
competing demands for scarce resources, variable program administration 
across states, and resistance to change in general and to technology in 
particular. The current economic recession and national and state 
budget crises have resulted in a perfect storm of competing priorities 
where government agencies are confronted with a growing population of 
people in need of food support and other health and social services at 
the same time that they are facing layoffs and sharply restricted 
budgets. Though the environment calls for the need to improve the 
efficiency of outdated processes, it can be challenging to commit the 
up-front costs needed to set change in motion. Compounding the scarcity 
of resources, the current national focus (and the majority of available 
resources) are focused on clinical IT rather than on enrollment 
solutions.
    National expansion is also complicated by the lack of consistency 
with which the food stamps program is administered across and within 
states. Program rules and business processes can vary significantly in 
different regions, requiring different configurations and 
customizations for One-e-App. Further, IT systems are often old and 
outdated, making electronic data exchange challenging.
    Finally, there is often resistance to breaking down the walls 
between programs to make the enrollment process for all health and 
social services programs more integrated and efficient. Programs such 
as food stamps and Medicaid often operate in silos, and it can be 
difficult to forge collaboration and partnership among agencies and 
stakeholders that have not historically worked together. Adding 
technology into this mix can create a further challenge. In spite of 
these challenges, since 2006 One-e-App has screened more than 3.3 
million people in four states and generated roughly six million 
applications for a broad range of health and social services programs.

    Question 3. What is the cost associated with starting up a program 
like this? Where is your primary source of funding?
    Answer. Costs to implement One-e-App cover a range of activities, 
including requirements assessment, system development and 
configuration, training, hosting and maintenance, ongoing user support, 
and system enhancements to keep pace with changing program rules and 
new technologies. Launching One-e-App in a new state requires an 
assessment of business processes, system requirements, existing IT 
systems, and local programs. Costs depend on the number of programs 
included in the system, the number and types of users, the number of 
interfaces to other systems, and other functional requirements.
    One-e-App has two cost-structure models: (1) a customized One-e-App 
implementation, enhancement and maintenance agreement available to 
states and jurisdictions; or (2) a California Statewide Subscription 
Agreement (currently available in California only). For the customized 
implementation, which would be typical for new County or state agencies 
interested in implementing One-e-App, the pricing is developed based on 
a requirements analysis of the client agencies' programs and business 
processes, number of interfaces, etc. For a statewide subscription 
agreement, the pricing is based on the type of organization, number of 
sites, and number of users. The Center is happy to discuss pricing in 
more detail for interested parties.
    In terms of funding, different localities have raised funding in 
different ways. Sources have included Federal grants, foundation 
contributions, local and statewide First 5 funds, Federal matching 
funds, and contributions from health plans, hospitals, and clinics and 
county funds.
Response by Edith C. ``Edie'' Jessup, Program Development Specialist, 
        Central California Regional Obesity Prevention Program, 
        California State University Fresno Department of Health and 
        Human Services, Central California Center for Health and Human 
        Services *
---------------------------------------------------------------------------
    * There was no response from the witness by the time this hearing 
went to press.
---------------------------------------------------------------------------
Questions Submitted by Hon. Jim Costa, a Representative in Congress 
        from California
    Question 1. Did the rural municipalities that you dealt with have 
the administrative capabilities to perform this function, or would they 
require additional administrative staffing andfunding?

    Question 2. Thank you for mentioning the bonus reward on the EBT 
cards as a way to incentivize people to by more healthy fruits and 
vegetables. We discussed this during the last Farm Bill, but concerns 
were raised over administrative obstacles. Since you have a great deal 
of experience dealing with low-income communities and obesity, can you 
talk a bit more about why you believe this incentive structure would be 
helpful?

    Question 3. I agree that health and nutrition go hand in hand and 
that agriculture has a tremendous role to play in improving our nations 
health.
    Each of you mentioned the need for increased partnerships between 
the health and nutrition communities. With budget issues at the state, 
local and Federal level, what types of new partnerships do you believe 
would be the most effective in increasing the likelihood that low-
income populations will be able to access and will choose healthier 
options In other words--where is our biggest obstacle--in education? 
Access? Funding?

                                  <all>

</pre></body></html>
